<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND
                 HOUSING  AND  URBAN  DEVELOPMENT,  AND
                  INDEPENDENT AGENCIES APPROPRIATIONS
                                FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES

                    JERRY LEWIS, California, Chairman

TOM DeLAY, Texas                     LOUIS STOKES, Ohio
JAMES T. WALSH, New York             ALAN B. MOLLOHAN, West Virginia
DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
MARK W. NEUMANN, Wisconsin           
ROGER F. WICKER, Mississippi         

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  Frank M. Cushing, Paul E. Thomson, Timothy L. Peterson, and  Valerie 
                      L. Baldwin, Staff Assistants
                                ________

                                 PART 1

              NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-876 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          












                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director















DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                          Thursday, March 12, 1998.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                               WITNESSES

DANIEL S. GOLDIN, ADMINISTRATOR
MALCOLM I. PETERSON, COMPTROLLER
JOSEPH ROTHENBERG, ASSOCIATE ADMINISTRATOR, SPACE FLIGHT
GRETCHEN McCLAIN, INTERNATIONAL SPACE STATION, PROGRAM REQUIREMENTS 
    MANAGER
DR. ARNAULD E. NICOGOSSIAN, ASSOCIATE ADMINISTRATOR, LIFE AND 
    MICROGRAVITY SCIENCES AND APPLICATIONS
JOHN D. SCHUMACHER, ASSOCIATE ADMINISTRATOR, EXTERNAL RELATIONS
ARNOLD G. HOLZ, CHIEF FINANCIAL OFFICER
GEORGE E. REESE, ASSOCIATE ADMINISTRATOR FOR EQUAL OPPORTUNITY PROGRAMS
SPENCE M. ARMSTRONG, ASSOCIATE ADMINISTRATOR FOR HUMAN RESOURCES AND 
    EDUCATION
JUNE EDWARDS, ASSOCIATE GENERAL COUNSEL, COMMERCIAL
JEFFREY E. SUTTON, ACTING ASSOCIATE ADMINISTRATOR FOR MANAGEMENT 
    SYSTEMS AND FACILITIES
RALPH C. THOMAS III, ASSOCIATE ADMINISTRATOR FOR SMALL DISADVANTAGED 
    BUSINESS UTILIZATION
EDWARD HEFFERNAN, ACTING ASSOCIATE ADMINISTRATOR FOR LEGISLATIVE 
    AFFAIRS
FREDERICK D. GREGORY, ASSOCIATE ADMINISTRATOR FOR SAFETY AND MISSION 
    ASSURANCE
RICHARD S. CHRISTIANSEN, ACTING ASSOCIATE ADMINISTRATOR FOR AERONAUTICS 
    & SPACE TRANSPORTATION TECHNOLOGY
DR. WESLEY T. HUNTRESS, ASSOCIATE ADMINISTRATOR FOR SPACE SCIENCE
ROBERTA GROSS, INSPECTOR GENERAL
DR. GHASSEM ASRAR, ASSOCIATE ADMINISTRATOR FOR EARTH SCIENCE

                       Introductory of NASA Staff

    Mr. Lewis. The meeting will come to order.
    Welcome, Mr. Goldin. For the record, you might want to 
introduce some of your friends, and then I will have opening 
remarks. I just want to make sure they are comfortable.
    Mr. Goldin. Thank you, Mr. Lewis. I would like to introduce 
Joe Rothenberg, who recently was appointed the head of the 
Office of Space Flight. The Space Station and Shuttle programs 
report to him. He is a man of impeccable performance in his 
career, and I am looking forward to his presence on the 
program. On my right is Malcolm Peterson, our reliable 
Comptroller; Dr. Arnauld Nicogossian, who is the head of our 
Life and Microgravity Sciences program; and John Schumacher, 
who is in charge of International Affairs.

                       Chairman's Opening Remarks

    Mr. Lewis. It is always a pleasure to work with the fine 
staff of NASA.
    This morning, the Committee would like to welcome you all. 
We begin our hearings in the budget request for the 
International Space Station.
    The fiscal year 1999 budget request for the Station is 
$2.27 billion. In addition, we have recently received a 
supplemental budget request, which would transfer $200 million 
of fiscal year 1998 funding from other NASA programs under the 
Space Station account.
    The International Space Station is a collaborative effort 
of nations committed to exploring the benefits of space-based 
research. The investment being made by each of those nations is 
significant when compared to each nation's overall financial 
resources.
    It is incumbent upon each of the participants to fulfill 
their individual commitments in connection with that, working 
together. If any of the partners were to fail to fulfill their 
responsibilities, the responsibilities which I believe were 
agreed to without duress, the entire program suffers.
    I am disconcerted to find that at least one of the major 
partners in this program has made commitments which serves as 
the basis for the actions of other partners and has failed to 
deliver on those commitments in a timely fashion.
    I have said it before, and I will say it again. I have 
suggested to my staff that of all of my friends, you would 
understand this, Mr. Goldin. A deal is a deal. If some of our 
partners are not ready to live by the commitments they have 
made, why should any of the partners be bound by their 
commitments? I cannot continue to take funding measures to the 
floor of the House if the basis of that funding, namely 
commitments by other international partners, is increasingly 
viewed by the Members of the House as idle and without 
substance. The proof of commitment is delivery of the product, 
and, thus far, we have not seen the proof from Russia.
    I would like to continue to deliver the support of the 
House of Representatives and for whatever role I can play in 
that, but we are living under very tight budget constraints in 
this country, and if all of our partners are not prepared to 
deliver what has been promised, how are we able to convince or 
conceivably convince our colleagues that their support is 
justified?
    I look forward to hearing your testimony today, and, 
particularly, I would like to know what new commitments are 
being made by our partners, as we approach the firm launch 
dates of June 30 and July 8, 1998, for the first two elements 
of the International Space Station.
    Before I call on you to make your remarks, Mr. Goldin, let 
me call on my friend, Lou Stokes.

                  Congressman Stokes' Opening Remarks

    Mr. Stokes. Thank you very much, Mr. Chairman.
    I do not have a formal statement of any sort this morning. 
I do want to take this opportunity to welcome Mr. Goldin and 
his colleagues before our subcommittee, once again. it is 
always a pleasure to have you appear here.
    Mr. Chairman, I quite concur with you in your statement 
this morning. This is a very important hearing, and it has some 
very important relevance to matters of concern to the Congress. 
This an agency which we spend some very probing time as we get 
into some of the issues related particularly to international 
relations. I, too, look forward to Mr. Goldin's testimony on 
these issues, and I will have some questions to pose relative 
to specific concerns that I have.
    With that, I look forward to your testimony.
    Mr. Lewis. Mr. Goldin, you can read your testimony or 
summarize it. It will be included in its entirety in the 
record.

                 Administrator Goldin's Opening Remarks

    Mr. Goldin. Mr. Chairman, I would like to elect to put my 
written testimony in the record, and just to make a few brief 
statements. I was going to have a 10-minute opening statement. 
I think I could----
    Mr. Lewis. Well, I might hear your statement. [Laughter.]
    Mr. Goldin. This has been a very, very incredible year. I 
am very, very proud of the NASA teams that have done incredible 
work under very difficult conditions, and I would like to 
particularly single out Randy Brinkley, our program manager in 
Houston, and Gretchen McClain, who is here, our program manager 
in Washington, along with Tommy Holloway, who is our program 
manager of the Shuttle which is intimately related to this, and 
Doug Stone of Boeing, who has really begun to turn the corner, 
and then the heads of our international partners.
    They have produced 368,000 pounds of hardware to date, 
quality hardware, and, in fact, as we speak now, the first two 
elements are being readied to launch in June and July of this 
year. The FGB built by Khrunitchev is getting ready for flight 
at Baikonur, and Node 1, built by Boeing, is getting ready for 
flight in July. The FGB is in June, and the Node is in July.
    They have overcome incredible challenges. We have even 
begun to overcome some of the challenges we have had with our 
laboratory, and we pulled up the schedule within 6 weeks of 
where we plan to be with the lab.
    Our Russian partners and Russian Space Agency are to be 
commended also for doing outstanding work under more difficult 
conditions. Their problem is not lack of expertise because they 
demonstrated when they had the money they could do the job. 
Their problem is a consistent funding flow from the Russian 
bureaucracy to them.
    We have had frank and candid discussions with the Russian 
team led by Prime Minister Chernomyrdin at the Gore-
Chernomyrdin conference, and, in fact, the conference has not 
concluded. So, today, I could give you a progress report on 
where we are.
    We had a number of very significant milestones which I have 
outlined in my written testimony on which we are going to track 
the Russians to see if the funding is flowing and if they are 
performing to schedule. This will be concluded sometime about 
mid-May when we will have a meeting in Moscow or at Cape 
Kennedy that is to be decided, along with our international 
partners with the heads of agency meeting to make a final 
decision to which we can come back to the Congress and tell 
them exactly what we are going to do.
    Mr. Lewis. I thought that meeting was going to be in 
Moscow, isn't it? In May, you might as well go to Florida.
    Mr. Goldin. The weather is still okay in Florida.
    In any case, we have a plan. I will be prepared to testify 
to the details of that plan today.
    We have a general design interview in Moscow. I think that 
is what you mean.
    Mr. Lewis. Oh, is that what it is? Okay.
    Mr. Goldin. It is at the end of April.
    Mr. Lewis. Okay.
    Mr. Goldin. But as of the Gore-Chernomyrdin Commission, we 
have opened up another layer of management oversight where I 
will personally be involved in a meeting with the Russian 
leadership to validate the funding.
    We have made a budget recommendation, and with the 
exception of $100 million that this committee gave to us, 
additional, in the 1998 budget, all the cost growth of the 
Space Station is being handled within the NASA budget without 
impacting the American taxpayer and asking for more funds. I 
think this is a very important point I want to make to you, Mr. 
Chairman, and to you, Mr. Stokes, and to you, Mr. Mollohan.
    NASA is a responsible agency, and because we have been 
achieving even greater efficiencies, we have been able to 
absorb the issues and problems we have.
    One last point I would like to make with regards to the 
Space Station, in terms of overrun, the overrun is on the order 
of $900 million, and that is about a 5-percent overrun. For a 
program of this magnitude, it is not desirable, but it is 
within the ground rules we have for all other programs at NASA.
    We have added monies because we thought it was the 
responsible thing to do. Based on our experience on the 
Shuttle/Mir program, we made a decision to build a U.S. crew 
return vehicle capable of taking seven astronauts back. This 
will make the Space Station much safer. That was a new start we 
put into this year's budget, and we also have an additional 
$250 million, which was approved last year for assurance 
against a Russian further schedule slip.
    So, even though the program has grown, the overrun itself 
is on the order of $900 million, or about 5 percent of the 
program, and I want to come back to my second point.
    This is not where NASA is coming back and saying we are 
asking the American people for more money. We have taken all 
the growth, overrun and additional growth, for the CRV and the 
Russian program out of efficiencies and priorities in the NASA 
program.
    With that, I would want to close by saying we are committed 
to deliver to this Nation and the world a Space Station that 
will revolutionalize research in the 21st century.
    Thank you, Mr. Chairman.
    [The information follows:]


[Pages 6 - 17--The official Committee record contains additional material here.]



                         cost of russian delay

    Mr. Lewis. Mr. Goldin, let's dwell just for a moment, and 
perhaps we can have an exchange here relative to the costs that 
you cite.
    I remember--we all remember very, very clearly that 
session, more than a couple of Congresses ago, in which 
Democrats and Republicans came together relative to the 
Station, and we committed ourselves to a specific dollar amount 
per year to the Station. $2.1 billion per year was going to be 
the figure that we try to keep ourselves within, and we were 
dealing with the reality that there was a lot of pressure from 
the House in general, and this growing problem was before us of 
budget restraint across the board and competing programs.
    At that point, as I am remembering, we were anticipating a 
total cost for Station of somewhere just beyond $17 billion, 
and within that package, I believe there was a $3 billion 
reserve. So the actual program cost was close to $14 billion.
    I now understand that we are anticipating a total of 
cumulative costs of close to, if not just beyond, $20 billion 
upon completion, if you add all of those figures together, and 
that somewhat would suggest that the $800 million figure is 
less than we might measure as we look at those dollar figures.
    Now, I may be wrong somewhere, but, to me, $17 billion 
guestimated completion cost with a $3 billion reserve means 
that we have eaten up the reserve, which we had hoped that we 
would not. You took the $14 billion figure, and you went to $20 
billion. You are talking about, really, an increment of $6 
billion upon a completion, and that is a considerable jump, not 
quite 50 percent, but I am extrapolating those figures. One 
might measure them to be extreme, but I think it is a fair line 
of questioning that we might be faced with on the floor. So I 
think maybe we need some help with that.
    Mr. Goldin. I would be pleased to answer.
    I want to say that the reserve is there because we did not 
know a lot of things. You know, this is a very, very difficult 
development. We felt it was crucial to replenish the reserves, 
and that was one of the reasons that we replenished that $900 
million of overrun. We still retain $1.5 billion in reserves 
today. So, in effect, after reserves are gone, that is the 
first point I want to make, but I also want to make another few 
points.
    Let me come back and say $17.4 billion is the number we 
stated. We have had about $900 million worth of growth. We have 
chosen to add two items, one beyond our control. When we signed 
up to the program, we assumed that our partners would pay their 
share of the bills. There is one way that we can control in the 
broadest sense an independent Nation that does not pay their 
bills.
    The Russians have not paid their bills, and we suffered an 
8-month slip on the service module, but an even bigger schedule 
impact subsequent to that. This has caused a significant 
schedule delay and disruption.
    Based on the experience with Mir, we have made a decision 
to put in the crew return vehicle. In our parlance, it has 
grown, but I do not consider that to be a bad thing because 
safety is very, very important, and 10 years from now, we could 
have a serious collision.
    Let me explain to you the basis for that because I think it 
is very important to understand, and I will just use this 
bottle of water and this cup to make an explanation. Let's 
assume we have the Space Station in this space between here, 
and this is a Soyuz vehicle and that is a Soyuz vehicle. If we 
have a problem, a fire, which we experienced on Mir, all we 
have is depressurization, and we have six astronauts on board 
and all of them are on this side of the Station. If this could 
only carry three astronauts, only three could come back.
    This came home very clear to us after the two situations we 
had on Mir, and we had not had long-term operation in space. 
And when we designed the Space Station, we truly believed that 
a three-person crew return vehicle would be acceptable.
    We had long talks in debriefing our astronauts when they 
came back, and based on those debriefings, we said we must have 
a crew return vehicle capable of carrying six people.
    Then, when we took a look at the research needs with Dr. 
Nicogossian, the Station is capable of handling seven people. 
We wanted to increase the research productivity. So, we 
designed the crew return vehicle capable of taking seven 
people. So, with seven people on board and a crew return 
vehicle with seven here and seven here, no matter--if we have a 
problem anywhere in the Station and we have the distribution 
with seven astronauts being in one place, we could bring them 
back.
    We view this as a constructive change to the basis of the 
program, and as I said, the money for that, which is about $670 
million in the 1999-to-2003 timeframe, it was taken out of 
efficiencies in the NASA budget. We felt this was the 
responsible thing to do.
    Sometimes in history, one could play the budget game and 
meet a specific level, and then I could come by as 
administrator and, 10 years later, a problem could happen. I 
personally felt--and I want you to understand--I was the 
driving force behind this decision. So that is another $670 
million.
    The second area relates to the Russians delaying the 
service module by 8 months. We were very, very concerned, and 
although the Russians started paying their bills, we wanted to 
set out on a contingency program that began to give us every 
increase in flexibility in case the Russians would have further 
problems.
    So we added openly another $250 million to the program to 
build the interim control module and handles some design 
changes to the Station.
    So those are two things that in my mind had to be done. I 
do not view it as overrun, and I view it as just prudent 
business decisions. That is about $1.8 billion. So that is 
$17.4 billion plus $1.8 billion.
    The remaining $2 billion that gets you to this $21.3 
billion that you are referring to is not added money to the 
program, and that is the impression that I want to clear up. If 
I take a line and I draw that line in June of 2002, where we 
said delivery was going to be complete with the U.S. habitation 
module coming up, that gives you the $17.4 billion.
    Our new schedule has the last item being delivered in 
December of 2003, and that is the U.S. habitation module. 
However, we have added some equipment to the Space Station, and 
we do not have to wait until delivery of the U.S. habitation 
module to get a crew of six onboard. It happens much earlier in 
2002 because we have a third node.
    So, in effect, we will be doing about 80 percent of the 
research. During all of that time--and it is just a question of 
how one takes a look at the bookkeeping of the situation.
    My only point is, it is not additional money being added to 
the program. It is just picking a point in time to determine 
when we declare development complete.
    Mr. Lewis. Mr. Goldin, I am not sure that your formal 
statement has that clear outline. If it does, that is helpful. 
If not, I would like to have it supplemented.
    Mr. Goldin. I will tell you, I would be happy to submit for 
the record the description I just gave you, and, in fact, I 
will put in the actual dates and the----
    Mr. Lewis. It would be helpful.
    [The information follows:]

International Space Station

                        [In billions of dollars]

NASA's FY 1998 budget to Congress.............................     $17.4
    Russian program assurance ($250M).........................       0.2
    Crew rescue vehicle.......................................       0.5
    Program growth............................................       0.9
    July 2002-November 2002...................................       0.7
NASA's FY 1999 budget to Congress (development complete)......      19.7
    Crew rescue vehicle.......................................       0.2
    November 2002-December 2003...............................       1.4
NASA's FY 1999 budget to Congress (assembly complete).........      21.3

    Mr. Goldin. Let me explain why I am probing this, this way. 
I can easily in discussing with my colleagues, whether in small 
groups or one to one or on the floor, explain the CRV and the 
need to be assured that we can remove our entire crew. It is a 
line of discussion that leads to reasonably, easily testifying 
where we may have gone.
    Time delays is another question, and they eventually take 
us to the point of saying the actual cost of Russian lack of 
commitment and time delays has been X. ``And when you are 
dealing with a bill like yours, Mr. Lewis,'' they would say to 
me, ``where we are talking about significant reductions in 
desired programming for X and Y housing program''--or some 
would suggest VA medical care, although that is not really a 
problem with our bill, but, nonetheless, you can see in the 
line that one is suddenly faced with.
    I think it is important that you help us develop the 
answers to that discussion. I think it is also very important 
that our Russian partners understand just how serious this is.
    Mr. Goldin. It has been a major disruption.
    Let me explain to you part of the problems that we had, and 
that is, the service module got delayed 8 months, but we added 
a few extra logistic flights to protect the schedule in case 
the Russians did not have money for progress vehicles.
    Mr. Lewis. Excuse me just a moment. Have you met Mr. 
Frelinghuysen?
    Mr. Goldin. Yes.
    Mr. Lewis. Would you come down here and say hello? This is 
Mr. Frelinghuysen.
    Mr. Frelinghuysen. I would be happy to. You do not like the 
separation?
    Mr. Lewis. I do not like this separation. Thank you.
    He is very shy. He kind of tends to stand aside with those 
members who do not show up. So I cannot have that happen.
    Go ahead.
    Mr. Goldin. In any case, we had two logistics flights up 
for the Space Station to protect the schedule in case the 
Russians did not deliver propellent to the Space Station.
    In fact, yesterday, we had Mr. Koptev and his Russian 
counterparts out to the Naval Research Laboratory to see what 
the interim control module looked like, to have an 
understanding that it really was there to protect the schedule.
    Then, because the Russian slipped 8 months, the Europeans 
said, ``We want to hold the delivery date for our Columbus 
orbital facility.'' So, being a good partner, we moved out some 
of our deliveries a little further, and then we added the 
center fusion accommodation module. So, when you make a slip in 
the schedule of 8 months, it has a much bigger impact than an 
8-month slip.
    The point I want to make is, if you add up all the numbers 
and say I am going to draw a line in the center of 2003, you 
know, the $21.3 billion--but, again, I want to emphasize that 
$2 billion from the schedule delivery date or when we think 
operations is going to begin until the center of 2003, it is 
not additional money to the program, and that gives a 
misconception to those who think we are going to take more 
money out of the Federal Treasury and pay for it. That is the 
distinction point I want to make now.
    One gets into accounting practices, and I do not want to 
say that people are wrong. I just want to make the point, there 
is no additional money beyond the $1.8 billion that I outlined 
for you, and we will be very happy to show you our research 
plan so that you will see that with the third node we are 
putting up, we get six crew members up there much earlier 
than----
    Mr. Lewis. That is a very important item.
    Mr. Goldin. By the way, we said completion would occur when 
we got those six crew members up there.
    Mr. Lewis. Right.
    Mr. Goldin. So, we will now be ready for research with six 
crew members a lot earlier.
    I will outline it in a thorough written document that I 
will submit to this committee.
    [The information follows:]
                  Permanent Crew Capability Aboard ISS
    The space station redesign activity in 1993, and the subsequent 
transition team activity to accommodate $2.1 billion annual funding 
levels, resulted in the ``Alpha'' space station design, presented to 
the President on September 7, 1993. First element launch was planned in 
September 1998, with establishment of permanent habitation by a four-
person crew in September 2003. The projected cost for development was 
$19.4 billion. The plan also indicated that negotiations were ongoing 
regarding the participation of Russia in the program.
    In November 1993, the Russians were included in the program. NASA 
revised the design, enhancing the capability with the establishment of 
six-crew capability versus the four-person capability of the Alpha 
design, and reflecting a projected completion of development in June 
2002. The accelerated development schedule and the provision of station 
components by the Russians resulted in a revised development estimate 
of $17.4 billion-a net savings of $2 billion.
    Despite many changes that have occurred since then, including the 
loss of some of the accelerated development schedule, the current plan 
provides six-person crew capability in November 2002, just five months 
later than the revised sequence, but still ten months earlier than 
originally planned in the Alpha design.
    Six-crew capability is established following the delivery of Node 3 
and the completion of its outfitting. The cumulative cost for 
development at that point in time will be $19.7 billion, a $2.3 billion 
increase over the initial commitment of $17.4 billion, but only $300 
million above the $19.4 billion Alpha estimate for a later, four-person 
capability.
    Remaining development work beyond that point primarily represents 
station capabilities and research facilities beyond those envisioned in 
both the Alpha configuration and the revised 1993 configuration after 
the Russians were added.
    After FY 1998, the emphasis in ISS funding begins to turn from 
expenditures for hardware production to a greater level of expenditures 
for assembly and test, research and operations. This reflects the 
beginning of the transition to an operational program.

    Mr. Lewis. It will be helpful to us.
    I have gotten us off track a bit, Mr. Stokes, but please go 
ahead.

                      absorption of cost overruns

    Mr. Stokes. Thanks, Mr. Chairman.
    Just one question. Just prior to the Chairman's question, 
you talked about the cost overruns and the absorption of those 
costs within NASA through efficiencies and so forth.
    Mr. Goldin. And prioritization.
    Mr. Stokes. Right. But it would seem to me that in this 
absorption, the cost within NASA, that they also come at the 
expense of other NASA programs. I would think mostly your Space 
Science programs.
    Mr. Goldin. I am glad you asked that question. We have 
added $700 million in the 5-year period of the Space Science 
program. The Space Science program is richer today than any 
time in the prior decade.
    We are starting two new programs in the sun-earth 
connection to understand the relationship that the sun and the 
earth do, better weather predictions, and understand how to 
build more predictive weather models. We have added new 
programs in astrophysics.
    So, rather than taking away, we have added to the Space 
Science program. In the Earth Science program, we have added 
two new spacecraft, what is called a QuikScat, which is a 
scatterometer which helped us determine the El Nino conditions 
6 months in advance. It failed. The Japanese satellite was 
unfailed. So, within one year, we are going to launch a stand-
alone satellite. We put that in the budget.
    We started the LightSAR program in Earth Science, and you 
know why we were able to do it? The Earth Science program 
proved a faster, better, cheaper philosophy. It cut its cost at 
half-a-billion dollars in the 5-year plan, and on top of that, 
we added over $150 million of research money into the Earth 
Science account.
    Mr. Stokes. So you have not cut any programs, then.
    Mr. Goldin. No, we have added programs. That is why I am so 
proud of this NASA team.

                         cost of russian delay

    Mr. Lewis. Connected directly with what Mr. Stokes is 
asking are two points. We are going to have people suggest that 
the Russians, because of lack of commitment and otherwise, have 
cost us x. You need to help us really get to that, both in 
terms of time delay, et cetera, because we have got to be able 
to respond, but beyond that, the point that you just made, the 
8-month service module delay, it had an effect beyond the 8 
months.
    Mr. Goldin. Yes, it did.
    Mr. Lewis. It seems to me valid, if you accept that, not to 
delay launches any further.
    What would be the cost of further delay in the service 
module, and is it acceptable?

                         benefits from russians

    Mr. Stokes. Could we add to that, Mr. Chairman, just the 
fact that--I can see us on the floor being questioned about how 
we can understand what the Russians are getting from this, but 
what are we getting from it?
    Mr. Lewis. We have gotten on track here.
    Mr. Goldin. What are we getting from the Russians? I just 
want to write these down.
    Mr. Lewis. You are suggesting what they are getting, but 
what are we getting?
    Mr. Goldin. Yes, right. And then there is the service 
module slip.
    Let me deal with the service module. We believe that the 
service module is 2 to 3 months late today. The Russian Space 
Agency believes that they have a work-around plan that can hold 
the schedule for the service module. We are skeptical, and we 
have told them so.
    We have set up a series of milestones to track the service 
module. They have the flight article which is being assembled 
and should be done, if my memory is correct, by May 10th. We 
will track that.
    They have 420 of 1,500 pieces of hardware. So they have 
made a lot of progress, and they have specific delivery dates 
for the rest of the hardware. We are tracking that.
    I think the remaining pieces of hardware are due by the end 
of March, and a complete assembly is due on May 10th.
    They have what they call a complex test facility which is a 
facility where they check out the individual boxes and make 
sure the whole system works before they do the final test on 
the system. That complex test facility testing should be done 
by June 10th.
    They plan on shipping the flight assembly to RSN Energia on 
May 10th and do about a month worth of system testing, and 
then, if that is successful, they say they will ship it down to 
Baikonur where they will do final system testing and 
preparations for flight. They feel they could pick up 2 months. 
They said they did that on the Priroda module, but we have set 
these milestones along the way, and for the record, I will 
submit details of what those dates are and the specific pieces 
of hardware so the committee could track it along with us.
    [The information follows:]


[Page 25--The official Committee record contains additional material here.]



    Mr. Goldin. Now, we have an ability because we put some 
flexibility in our schedule, anticipated problems, that we 
could absorb up to 4 months delay in the service module and 
still hold subsequent deliveries.
    If the service module is 6 months late, which have been 
some of the worst case estimates, it will cost us about 2 
months. I am not prepared to give you a specific answer, but, 
certainly, for the record, we can answer that question.
    Mr. Lewis. As you know, these questions are going to be 
extending themselves through the legislative year.
    Mr. Goldin. I think they are very fair questions, and we 
will be able to answer it, but our sense is, right now, we are 
about 3 months behind. We could absorb four, but we cannot 
absorb any more than that.
    Now, if we have a 4-month delay, there will be a minor 
cost. If there is a 6-month delay--and we have no reason to 
believe that, but I want to answer your question in full to 
look at the contingency planning--we will give you an answer to 
that.
    Mr. Lewis. As you know, Director Goldin, Mr. Stokes and Mr. 
Mollohan, colleagues on both sides of the aisle, have played a 
major role in keeping this process alive over several years, 
and this is the year that I expect to have some very serious 
probing. So we are looking for some of these answers to be 
prepared for that discussion ahead of us.
    Mr. Goldin. I have to say it has been a very frustrating 
experience for our people. It is very hard when you have a 
complex program to have to make changes to it, and just a small 
change when you have 10,000 people working on a program, it 
rattles through every element. However, we are stepping up to 
it.

                          mir lessons learned

    Let me then address Mr. Stokes' question. Mr. Stokes, we 
have had experience mainly in short flights on the Shuttle. The 
ability to work with the Russians on the Mir Space Station has 
caused a significant change in how the designing, how we are 
planning to operate, and how we are planning to do research on 
the International Space Station.
    We have changed the design with regards to safety. One 
major finding was that crew return vehicle. Secondly, we are 
changing how we deal with fire safety.
    We found that the Russians had an approach where in case a 
fire broke out, there was a master switch to shut off all 
ventilation to prevent propagation of the fire through the 
vehicle. We are now putting in such master switches on our 
system.
    When the Russians had the depressurization problem, they 
had many cables going in between modules, and our astronaut, 
Michael Fall, had to literally cut those cables, and it took 
time to disconnect and cut cables. We are changing the way we 
route cables on the Space Station from a safety standpoint.
    We are looking at putting an additional EVA port air lock 
on the system because that is another experience that we gained 
with the Russians. They had multiple air locks. They have 
different levels of redundancy that was much more robust than 
we had.
    In an operational sense, we were spending much too much 
money on detailed planning because, on a 2-week flight, we 
found that the astronauts had to have every minute planned 
because you only had 2 weeks up in space. The Russians have a 
much more flexible system where the crew is much more in 
command of how they decide what to test and to be done during 
the day. It is more effective and much less expensive. We are 
able to validate our docking mechanisms.
    For the record, I will submit a full list of all the 
activities, but I wanted to give you a sense of this, and just 
in a science area, we were able to establish how to be much 
more productive in building protein crystals. So, when we have 
the International Space Station, a structured drug design is 
going to be more effective.
    [The information follows:]
                          Mir Lessons Learned
    The Shuttle/Mir Phase I program is scheduled for completion with 
the return of Astronaut Andy Thomas at the conclusion of STS-91, 
currently scheduled for early June 1998. To date, the experience with 
long-duration missions on Mir has taught us a multitude of lessons 
relating to the reality of living and working in space aboard a 
permanent laboratory station. These lessons have all been entered into 
a database.
    The lessons that NASA has learned during the Phase I Program range 
from such special design considerations as the arrangement of lines and 
cables, which on Mir were draped freely through open hatchways between 
modules, to the Russians' use of multiple airlocks for EVAs. The 
operational lessons we learned when the accidental depressurization of 
Spektr required immediate closure of the hatches caused us to take 
another look at the current design of the ISS. NASA learned another 
lesson during that experience relating to the design aspect of location 
and accessibility of emergency equipment like fire extinguishers and 
breathing masks.
    Experience with emergency situations aboard Mir is unique. Because 
such occurrences cannot be simulated with any acceptable fidelity on 
the ground, NASA gained valuable experience with the crew's 
psychological reaction to emergency situations. Dealing with the loss 
of cabin pressure in Spektr and reestablishing safe onboard conditions 
in short order was an invaluable object lesson for NASA. At other 
times, our astronauts repeatedly got hands-on experience with Mir 
losing attitude control and going through the appropriate recovery 
procedures, dealing with free drift periods, momentum wheel management, 
attitude optimization, and power generation management. One recent EVA, 
on April 6, 1998, when Mir's roll control jets on the boom jet assembly 
ran out of fuel during the spacewalk, while not hazardous for the crew, 
provided another such experience applicable to future ISS operations. 
In nearly two decades of experience operating the Space Shuttle, NASA 
has a set of established procedures for reaction control venting under 
reduced proximity contamination with jet effluents, and the usage of 
external telerobotics for viewing and inspection that is quite 
different from those utilized on Mir.
    Space Station operational procedures which are difficult to 
approximate and verify convincingly in ground simulators proved highly 
enlightening and instructive on board Mir. NASA was exposed to real 
application of the various redundancies the Russians employ for 
critical subsystems on board, such as life support, which demonstrated 
an impressive level of robustness and safety.
    Finally, unique lessons applicable on ISS were learned in real time 
during joint international ground operations. This entailed 
development, often from scratch, of common flight procedures and 
procedural terminology, as well as the processes to adequately scope 
preflight science planning and definition for research activities on 
board a long-duration space laboratory. NASA received first-hand 
experience with realistic approaches to crew training for long-duration 
flights, as opposed to the short-duration Shuttle missions. This 
allowed NASA to develop a process for setting up effective central 
management of all aspects of crew training, operations, and 
multilateral integration.
    New to NASA were such complex tasks as resupplying a space station 
for long duration missions which is not a requirement with shorter 
duration Shuttle missions. As a result of our experience with the Phase 
I Program, NASA has developed a joint consolidated cargo shipping and 
logistics process featuring single-path manifesting and inventory 
control as well as the joint management of equipment configurations, 
transfers and on-board stowage. This included the all-important payload 
safety certification which had to be uniform and integrated across the 
partnership between the two originally dissimilar space programs. 
Flying NASA astronauts on Mir, thus, provided not only unique real 
experience and expertise for planning and scheduling long-duration 
missions that will be commonplace on ISS, but also realistic mission 
operations for long-duration flights controlled at more than one 
mission control center.

    Mr. Goldin. On the Mir Space Station, in the bioreactor, we 
built cartilage, parts of kidneys. We are building breast 
cancer tumors right now. So we are able to develop techniques 
there.
    Mr. Lewis. I am concerned that we may get a little bit too 
far off track here.
    Mr. Goldin. With regards to the International Space 
Station, because the Russians are present, we have a much 
bigger crew. We have much more power. We have much more volume, 
and we will have much greater research capability.
    On top of that, the Russian research community has been at 
this long-term research a long time, and we have learned a lot 
from them.
    Mr. Lewis. Mr. Stokes has a follow-up question, but for our 
other members, we got sidetracked talking about the cost of the 
Russian delay. If you have questions about that, it would be 
fine now, but in the meantime, I do want us to get back on 
schedule here if we can.
    Mr. Stokes.

                          space science budget

    Mr. Stokes. Mr. Chairman, I will be glad for us to get 
right back on track.
    I guess that I am still a little confused over Mr. Goldin's 
statement relative to space science.
    Right now you have before us a proposal that will take an 
additional $128 million from Space Science this year. That is 
in addition to--in the past 2 years, you have taken about 
roughly another $300 million out of Space Science. I do not 
reconcile your statement here this morning with these facts.
    Mr. Goldin. Let me say that in our budget submittal this 
year, we assume that $50 million would come out of Space 
Science as part of the transfer authority we requested. That 
was in our base science proposal.
    There was a significant amount of uncosted carry-over in 
our Earth Science and Space Science program, and when we took a 
look at the needs that they had, we were able to take out that 
$50 million, but if you take a look at all of the program 
funding--do not look at dollars. Take a look at all the program 
funding. We have funded every single program we put in the 1998 
budget and added three new programs to space science. It has 
everything they asked for, plus those programs, and if you look 
at the run-out for the 5-year period, we have added $700 
million to the Space Science program.
    Maybe Mal could answer. I did not quite understand the $128 
million.
    Mr. Peterson. The numbers you reference are for the 
appropriation as a whole and not just for the Space Science. 
The discrepancy is that in the--for instance, in 1998, we are 
proposing a transfer of $128 million from the appropriation, 
$50 million from Space Science, $50 million from Earth Science, 
and a residual $28 million from other accounts.
    In the long term, what the Administrator is saying is 
correct. If you look at the appropriation and the accounts 
within it, Space Science is up significantly over last year's 
plan.
    Other accounts within the appropriation, particularly 
mission communications, are down, and there are savings, for 
instance, in Earth Science that Mr. Goldin referred to for the 
technology insertion that we have had, which have enabled those 
budget numbers to come down.
    Mr. Stokes. Mr. Chairman, do you want to get back to----

                           transfer authority

    Mr. Lewis. I do, but I had mentioned, Mr. Goldin, that the 
reason for my colleague's probing here involves, among other 
things, questions being raised by very good friends of these 
programs and the authorizing committee.
    I have within my account here a letter from George Brown, 
for example, that would request that we consider limiting the 
amount of transfer authority that we would provide or consider 
in the months ahead, and it is with concern about science 
programs that those kinds of expressions are being made, and we 
need to be able in full good faith and partnership to have 
these discussions so that they are comfortable as well as our 
being comfortable.
    Mr. Goldin. I want to come back and say this is a different 
NASA.
    Mr. Lewis. Frankly, I understand your point.
    Mr. Goldin. Again, I want to say, we have started major new 
Space Science programs. We are starting the technology work for 
the next-generation space telescope. This is going to be 8.3 
meters in diameter, three and a half times the size of the 
Hubble Space Telescope.
    We have a whole variety of new programs, and we also have 
in this budget a discovery probe that is going to go to Europa 
to see if there is a water ice ocean.
    So I will be happy to list for you all the programs we 
committed to in 1998, plus listing all the new ones we started, 
plus showing our research account, to establish that this 
science budget is giving more science.
    [The information follows:]

                         Space Science Programs

    Attached is a listing of Space Science programs for FY 
1998. Charts regarding new FY 1999 programs and a breakout of 
our Research and Analysis and Data Analysis accounts to 
establish a true picture of our science budget.


[Pages 30 - 37--The official Committee record contains additional material here.]



    Mr. Lewis. We may very well want to have an informal 
discussion about that.
    Mr. Goldin. I would be pleased to do it, and I also want to 
come back to Earth Science. Earth Science reduced their budget 
$500 million because we have much lower-cost space craft 
because we are using new technology, and we had three 
recommendations made to us in the Earth Science account.
    First, they said the research and analysis money was not 
enough, and we have added about $200 million in research 
analysis over the 5 years now.
    Mr. Peterson. Yes, 180 to be exact.
    Mr. Lewis. But the heart of this discussion centered around 
delays and living with commitments on the part of one of our 
major partners, where those delays cost us, and getting 
specific about that, and then that leads us to questions about 
transfer authority that is necessary because of X and Y. So it 
is that area that we are probing.
    In that connection, Mr. Mollohan or others, do you have 
questions you want to follow through on there? You have been 
kind enough to be here on time.

                           russian cost flow

    Mr. Mollohan. With regard to?
    Mr. Lewis. The Russian cost flow and the add-on costs 
because of the delay, et cetera. Frankly, I am just trying to 
get us back on track. You have been very generous with your 
patience.
    Mr. Mollohan. What overruns are you projecting?
    Mr. Goldin. About $900 million. Approximately $800 million, 
or $817 million to be exact, is what we project for Boeing. 
Now, Boeing said----
    Mr. Mollohan. $800 million for Boeing?
    Mr. Goldin. Yes.
    Boeing has contended that they are going to keep their 
overruns to about $600 million, and we have been----
    Mr. Mollohan. Just on that, how are they going to do that?
    Mr. Goldin. They----
    Mr. Mollohan. As I understand, they are experiencing a 
degrading rate of $20 million a month.
    Mr. Goldin. Not anymore. For the last 6 months, they had 
been managing right to plan.
    Mr. Mollohan. Which is what?
    Mr. Goldin. Dollars per month?
    Mr. Mollohan. It would have to get down to 3 to 4 million, 
wouldn't it, to meet this?
    Mr. Goldin. The $20-million figure you saw is the problem 
we had when we had a runaway condition about 6 months ago.
    Since that time, their management--and if you will 
recollect, at that time, they got zero award fee.
    Mr. Mollohan. Right.
    Mr. Goldin. The management at Boeing took major steps to 
restructure their program. They changed their management theme, 
and for the last 6 months, they have been managing for the 
plans.
    However, NASA felt that we wanted to be able to have a 
number that we had confidence in. So we added about $200 
million, just in case Boeing had further problems.

                           cost-plus contract

    Mr. Mollohan. I am sure you have done this for the 
Committee, but in the context of this hearing, I would like a 
short version. Why are we into a cost-plus contract here? I am 
sure there is a good reason for it.
    Mr. Goldin. Oh, sure.
    Mr. Mollohan. Philosophically, why are we doing a cost-
plus?
    Mr. Goldin. The Space Station is a very complex system, 
and----
    Mr. Mollohan. No other model----
    Mr. Goldin. It is not a production contract where the 
design is done and you could go in and introduce hardware. It 
is one-of-a-kind hardware with constantly changing interfaces.
    Mr. Mollohan. All right. I accept that.
    Mr. Lewis. Plus, it is a good question.

              boeing's performance and production problem

    Mr. Mollohan. Certainly.
    How much of this overrun is Boeing's performance and 
production problem? How much of it is slippage?
    Mr. Goldin. Of the $900 million overrun, we believe Boeing 
is going to have $800 million of which they say they think they 
have--they are saying they think they will have $600 million, 
but we put $200 million on top of that because we expect other 
problems to occur.
    About $100 million is a problem on the NASA side. That is 
what we consider overrun.
    Now, what is the cause of the schedule slippage? In the 
limit, one could say $2 billion, but when we started, I was 
saying that that is not added money, and we have changed the 
way we deliver systems up to the Space Station. So that, we are 
actually doing research during that period of time.
    Do you know of another way to answer the question, Malcolm?
    Mr. Peterson. Well, yes. I guess there is one point. We 
will have six-person research capability up there at the end of 
2002. We will be delivering some hardware, a habitation module 
in 2003, but if you look at the budget makeup that has been 
submitted originally, the research program and operations of 
the research program and operations of the Station has about 
$1.3 billion in FY 2003, $1.3 billion in FY 2004.
    What is coming down tremendously is the development 
content. Unfortunately, because we are moving the final piece 
of the Station's assembly hardware to the next year (2003) we 
are getting tagged with adding into the development cost the 
cost of operations for the period of the schedule slip. Even 
though we are doing up to 80 percent, of the total budget in 
2003 and even more than that, up to 90 percent in FY 2004 for 
the research and operations program we had already built in.
    Mr. Lewis. But please remember--I think Mr. Goldin 
understands, but, remember, our challenge is we are going to 
have people who are concerned about other programming within 
the whole budget saying, ``Look, this thing is getting out of 
hand in terms of cost. The Russians are the reason. They have 
delayed. Give us the precise items of what this delay costs, 
why you have requested this transfer, what have you done to 
science programs,'' and they are going to be asking us to be 
very specific, and they will have their own challenges. So that 
foundation is very important.
    Mr. Goldin. Mr. Lewis, again, I would like to come back to 
a very, very basic point. A, the science program is stronger in 
1999 than it was in 1998.
    Mr. Lewis. Well, that is an important point.
    Mr. Goldin. It is stronger. There is more science in 1999 
than there is in 1998, A.
    B, with the exception of $100 million, which was 
appropriated in 1998, all of the cost has been handled within 
the NASA budget. We are not asking for more money.
    In fact, NASA is one of the few agencies in going for 
fiscal 1998 to fiscal 1999 whose budget is actually going down. 
If you go into the development agencies, there has been the 
biggest increase in history for R&D agencies, and NASA's budget 
went down, not up. Yet, we have absorbed this. This is a very 
major statement to the American people about how we manage at 
NASA.
    Mr. Lewis. My colleagues, do you want to follow on here at 
all?
    Mr. Knollenberg. I have questions, but I think I could 
probably conclude those in the normal sequence of things. You 
are trying to tie up, Mr. Chairman, this particular----
    Mr. Lewis. Actually, we are not going to complete this by 
any matter of means, but I wanted to have it out. It came from 
the initial comments of Mr. Goldin. It is an area that is of 
major importance to us. I would hope that we will have formal 
and informal discussions of this in detail long before we find 
ourselves on the floor with these questions.

                      RUSSIAN FUNDING COMMITMENTS

    Mr. Frelinghuysen. I just had one question. The Russian 
funding commitments must be set, referring to your formal 
comments on page 10, and I quote, ``The positive 
accomplishments I have outlined and budget projections I have 
discussed could be threatened by any further performance 
difficulties on the part of our Russian partners.'' Then you go 
on to say, ``The concern is not one of quality. Our confidence 
in Russian technical capability remains unshaken.''
    While I do not have last year's testimony, this is not much 
different than last year's testimony, is it?

                  NATIONAL PRESTIGE vs PERSONAL SAFETY

    Mr. Goldin. That is correct.
    Mr. Frelinghuysen. But to the casual observer, their view 
of performance difficulties may be a little different than 
yours. It seems almost like the Russians are more concerned 
about national prestige than they are with personal safety. 
That is what I get from my constituents, and I just wondered. 
You are saying there is absolutely no problem with the Russian 
technical capability. What do you mean, though, by performance 
difficulties? If they are not technical, what are they?
    Mr. Goldin. Let me come back and say the Russians have 
taught us much more than we knew about safety. There is this 
perception on the part of the American public that the Russians 
do not treat space as a place for safety with their cosmonauts. 
The Russians have an incredibly designed Space Station with a 
much higher level of redundancy than we have, and, in fact, we 
are modifying the International Space Station to bring it up to 
some of the safety standards that the Russians taught us.

                            ASTRONAUT SAFETY

    Mr. Frelinghuysen. You have told us that, and that message 
seems to be somewhat lost. Often, we have a higher degree of 
concern about the personal safety of our astronauts. You are 
saying that is not----
    Mr. Goldin. I would be pleased to have our astronauts tell 
you. David Wolf, I talked to him before he went up, and he said 
he had more of a concern about the Shuttle flight up than he 
did on being on the Mir Station, not that he said it was 
unacceptably unsafe, but the Russians have had 10 years or 11 
years of continuous operations on the Mir Station without one 
fatality, and they have had very minor----
    Mr. Frelinghuysen. The reports to the average citizen, you 
know----
    Mr. Goldin. I cannot control the press. I could tell you 
the facts as they are, and we have had significant experience 
and are very impressed by the Russians and their safety 
standards.
    They have had fires and collisions. They have lost systems. 
Their logistics and maintenance procedures are outstanding, and 
we have learned a lot. It is difficult for me to say because I 
take tremendous pride in what we do in America, but I have to 
look you in the face and say, from a safety standpoint, the 
Russians have done a terrific job.
    The problem that they have is there is an incredible 
bureaucracy in Russia, and this is the only problem we have; 
that their bureaucracy does not fund things when they are 
supposed to, and I have tremendous regard for----

               RELATIONSHIP BETWEEN FUNDING/SAFETY ISSUES

    Mr. Frelinghuysen. But there has to be some relationship 
between their funding and these safety issues, or is there no 
relation?
    Mr. Goldin. We have not seen any relationship between 
funding and safety. Funding impacts schedule, and because the 
Russians are not willing to compromise safety, they have 
slipped the schedule. When they slip the schedule, it costs us 
money, and when it costs us money, we get very unhappy. We have 
transmitted that to our Russian partners at the highest levels 
of their government.
    They did fund it last year, and what I said was they have 
the 1,500 pieces they need for the service module. They have 
1,420 with a delivery schedule over the next month or so to get 
it, but the impact is not on safety.
    Mr. Lewis. I am afraid we really do have to move on. Joe, I 
know you have----

                       RUSSIA PAYING CONTRACTORS

    Mr. Knollenberg. Just very quickly. I know that one of the 
things that could be causing this delay problem is the fact 
that I have heard--and I know this has been true in other 
aspects of Russian involvement with the U.S.--is that they are 
not paying their contractors. You may have talked about that. 
That is ongoing, isn't it?
    Mr. Goldin. That is ongoing. That is an ongoing struggle, 
and the Vice President is meeting with Prime Minister 
Chernomyrdin today. We had discussions over the last 2 days 
with the Prime Minister and his Cabinet of Russia about this. 
We have set up a very specific schedule.
    Now, to keep it going, what the contractors are doing is 
they are borrowing money against the promise of future payments 
by the Russian government, both the Khrunitchev Company and the 
RSC Energia Company. So that is where it stands.
    Now, we have a series of very specific milestones which I 
am going to submit for the record that will track what we 
expect from the Russians between now and mid-May when we are 
going to have a meeting with our international partners to 
review the schedule and have a position for the Congress by the 
end of May.
    Mr. Lewis. Let me repeat one more time, I am afraid we will 
not get through that which we need to do today if we continue 
much longer here, and while I apologize to my colleagues for 
this diversion, it is centered to what our discussion is going 
to be this year.
    We recognize that we have got to not just gather 
information, but understand it as well. So we may ask you to 
come and have informal discussions with us in some depth.
    Mr. Mollohan. Mr. Chairman.
    Mr. Lewis. Yes.

                             SERVICE MODULE

    Mr. Mollohan. May I ask a question? What happens if the 
Vice President is not successful in getting money for the 
service module? Where would that money come from?
    Mr. Goldin. I could answer it, if you want me. Do you want 
me to answer it now?
    Mr. Lewis. He just asked it. So you might as well get it 
out of the way.
    Mr. Mollohan. No, no. Go ahead.
    Mr. Goldin. No, no. Please, it is important.
    We have set up a contingency plan. We took the first step 
last year with building the interim control module.
    If we become convinced that the service module is not going 
to be delivered--it will be a year late, instead of a few 
months late--we will have to launch what we call the interim 
control module which the Naval Research Lab is building right 
now and suffer further schedule erosion waiting for the service 
module to come up a year from now. That would be the first line 
of defense.
    The next line of defense begins to spend even more money 
where we would build a second interim control module and 
initiate the full-scale propulsion module work to replace the 
functions of the service module, and to build the environmental 
control equipment which we have scarred our system to handle. 
And then we would have to go independent of the Russians. That 
would be the next series of steps.
    Mr. Lewis. We are going to be getting into that as we go 
forward.
    Mr. Goldin. Mr. Lewis, could I say something? I think that 
the questions that are being asked are very important 
questions.
    Mr. Lewis. I do, too.
    Mr. Goldin. They are ones that we have pondered, and we are 
prepared to spend whatever time it takes to make sure you have 
the information to form your own decisions.

                          Functional Cargo Bay

    Mr. Lewis. I appreciate that, and it will be very important 
as we go forward here.
    If my colleagues will be patient, let me go forward. I 
would like to discuss several of these programs in order. The 
first element of the Space Station is the functional cargo 
block, which has been delivered to the Russian launch site, and 
it is expected to be launched in June of this year.
    Last year when concern about the service module 
construction was being addressed, the FGB was modified. What 
were the exact modifications of the FGB's original 
configuration?
    Mr. Goldin. Joe, do you want to handle that?
    Mr. Rothenberg. I do not know the answer. Maybe Gretchen 
can.
    Mr. Goldin. Gretchen, do you know the exact modifications 
that were made to the FGB?
    Ms. McClain. Yes.
    Mr. Lewis. Could you identify yourself?
    Ms. McClain. Gretchen McClain. I am Deputy Associate 
Administrator for Space Station.
    The mods that were made to the FGBs will allow people to 
refuel the FGBs with the progress resupply vehicle. We also 
changed some of the controls, so it would give us the control 
that we need to be able to continue to build the Space Station 
through the laboratory development.
    Mr. Lewis. What was the direct cost of those modifications?
    Ms. McClain. The mod as well as the ICMs together, it was 
$250 million. I can give you the exact data, if you would like 
me to check it.
    Mr. Lewis. Why don't you give it to us in just a moment.
    Ms. McClain. Okay.
    Mr. Lewis. In the meantime, what is the certified service 
life of the FGB, the modified FGB, and how does that differ 
from the service life prior to the modification?
    Ms. McClain. The FGB service life?
    Mr. Lewis. Yes.
    Ms. McClain. What you got now----
    Mr. Lewis. The modified.
    Ms. McClain. The modified--your lifetime is still the 
same----
    Mr. Lewis. Okay.
    Ms. McClain [continuing]. The limitation or your avionics. 
It is almost just on a 500 base for your avionics limitation. 
That is where it is Q/A'd for.
    We probably could extend that, but our testing is just 
under 500 days.
    Mr. Goldin. The answer is $36.9 million.
    Mr. Lewis. Okay, thank you.
    Is there an effort underway or plan to certify the FGB for 
a longer service life?
    Ms. McClain. Not at this point.
    Mr. Lewis. One of the modifications makes it possible to 
refuel the FGB. Will the United States have the capability to 
refuel the FGB, or can it only be refueled by Russian vehicles?
    Ms. McClain. Only Russian vehicles.
    Mr. Lewis. Mr. Mollohan.
    Mr. Mollohan. No questions.
    Mr. Knollenberg. No questions.

                        Status of Service Module

    Mr. Lewis. In January, the Committee staff was briefed on 
the status of the service module. At that time, it was being 
reported that the service module was 2 months behind schedule, 
but Russian officials with a program were still assessing or 
assuring NASA that the module would be ready for the December 
1998 launch. What information did NASA receive on January 15, 
1998, the 1998 general designers review regarding the 
likelihood of service module being ready for launch in 
December, and were critical subcontractors expressing optimism 
on keeping that delivery date?
    Mr. Rothenberg. Well, when we were there, what we realized 
in January is that the funding for the subcontractors was still 
behind schedule, behind receiving funding. At that time, there 
were several pieces of equipment specifically for subcontracts 
who were saying they were not going to provide the hardware 
until they received payment for it because they had been 
promised that.
    Shortly after that, Mr. Goldin received that message. He 
contacted the people over there, and at that point, Mr. Koptev 
came and visited us. I guess that was at the end of January, 
January 28th.
    The contractors who were not delivering hardware at that 
point had finally agreed to go get the hardware to the 
manufacturing site, pending--not pending--based on the fact 
that they were going to receive payment sometime in mid-
February.
    At that time, they did not receive payment in mid-February, 
and that then raised a concern once again about the Russian 
payment schedule.
    We do know at this point that, for all practical purposes, 
the Russians have continued assembling the service modules, 
hanging all the pieces together, and we are told, although we 
have no way to absolutely verify this, that they can proceed 
down this path until the end of March before they run out of 
pieces to put on because of lack of funding.

               Transfer of Funds to Russian Space Agency

    Mr. Lewis. Approximately the U.S. equivalent of $20 million 
from the previously unfunded $79.5 million in 1997 funds for 
Russian contributions to the ISS partnership is being 
transferred to the Russian Space Agency this week, 
theoretically prior to the commencement of these discussions. 
How will we know that that has been transferred?
    Mr. Goldin. We have people in Moscow that go to the 
hardware floor, validate what is being said to see that it is 
being done, and I believe once a month, they review the books 
for the Russians to validate the numbers that are being told 
that are actually being transferred.
    Mr. Lewis. I am presuming that alarm bells will go off if 
you have some serious questions there.
    Mr. Goldin. Yes, sir.
    Mr. Lewis. But then there is a similar transfer in April 
and the same question applies. I presumed you will give us the 
same answer.
    Mr. Goldin. Yes. In fact, do you have that list?
    Mr. Lewis, here are the items that we put on our list to 
check before we have our meeting in mid-May. The general 
designers review is April 27th. At the general designers 
review, they have all the subtier suppliers. So we get a chance 
to see if the subtier suppliers got their money, and if the 
hardware was delivered. We sit through their general designers 
review observing.
    Then we have verification of funding for the service 
module's subcontractors and vendors. The remaining 1997 funds 
will be transferred to RSA and flow to the subs by the end of 
March, and by 1998, the Russians are to have their budget plans 
completed for 1998.
    Flight article hardware deliveries are due on March 30th. 
The Energia software support final release is late April. The 
second phase complex stand integrated testing is complete mid-
May. That schedule is to be complete, and the flight article 
assembly completion is to be done by mid-May.
    So we have these check marks that we are going to check off 
to see if they are meeting the things they said they told us 
they would do.
    Actually, I think the second phase complex test and 
integrated testing will be complete in mid-June, not mid-May.

                     Funding and Schedule Concerns

    Mr. Frelinghuysen [presiding]. Mr. Goldin, on May 21st of 
last year, you wrote to Chairman Lewis explaining the schedule 
changes which had been approved by this Space Station Control 
Board. In that letter, it was noted that the situation would 
continue to be monitored by taking--and I quote--``advantage of 
opportunities such as the upcoming Russian general designers 
review this fall''. What indications did you receive at the 
fall GDR regarding funding and schedule concerns?
    Mr. Goldin. Gretchen.
    Ms. McClain. In the fall, that was a point in time when we 
had just gotten a decree of the $99.5 million that was signed 
by Yeltsin. At that point in time, $20 million had flown, and 
they had given that to the subcontractor. The remaining wasyet 
a schedule of information that they were going to have money coming out 
in different months. They have not received that money at the end of 
this year. We just got confirmation that additional $20 million for 
1997 has been given to RSA.

              funding level for service module completion

    Mr. Frelinghuysen. Relative to Russian funding, what is the 
funding level required for calendar year 1998 to ensure 
completion of a service module?
    Mr. Rothenberg. There are two pieces. One, we need the 
remainder of the FY calendar year 1997 funds, which at this 
point is $59 million. Plus, it is about $300 million fiscal 
year--calendar year--I am sorry--1998 funding, $100 million of 
which is already included in the budget, $200 million is in the 
supplemental.

            critical elements for success for space station

    Mr. Frelinghuysen. In his letter to you of March 26, 1997, 
Lieutenant General Stafford reported on the results of his trip 
to Russia and the assurances that he had that funding would be 
made available for the service module. In addition, General 
Stafford also obtained information with regard to the science 
power platform and the progress of the Soyuz vehicles.
    Recent emphasis has been placed on the service module, but 
these other elements are also critical to success of the Space 
Station. Do you have any concerns at this time that any of 
these three elements will not be ready in time for their 
scheduled launches or usage in conjunction with assembly of the 
Station?
    Mr. Goldin. The service module still gives us concern. To 
date, there seems to be progress on the solar power platform on 
the Soyuz use.
    Mr. Rothenberg. But they all require the same funding.

                            technical risks

    Mr. Frelinghuysen. What is the schedule of technical risks 
associated with each of these three elements of the Station?
    Mr. Goldin. Right now the biggest schedule of risk is on 
the service module, and they appear to be performing on the 
solar power platform on the Soyuz, but as Mr. Rothenberg said, 
they have to draw on the same account for all three, and we 
expect them to fully fund 1998 at $300 million.
    Mr. Lewis [presiding]. Mr. Mollohan.
    Mr. Mollohan. Mr. Chairman, that is Russia's contribution; 
is that correct?
    Mr. Goldin. Yes.
    Mr. Mollohan. What part does the assurance program play in 
this? Is there any money in the assurance program to be used 
for this purpose?
    Mr. Goldin. No. By the end of 1998, to the best of my 
knowledge, there will not be any monies going from the United 
States to Russia.
    When we say Russian assurance, we are paying for assuring 
ourselves against problems occurring in Russia, not paying the 
Russians to do additional things. I think our terminology may 
be bad.
    Mr. Mollohan. Would you please restate that?
    Mr. Goldin. The $250 million for what we call Russian 
assurance is to protect the United States and our partners, at 
least a first step in it, to protect against further slippage 
by the Russians not paying their bills.
    Mr. Mollohan. In other words, to supplement their payment?
    Mr. Goldin. Not to supplement their payment. We are 
building in the United States laboratories an interim control 
module. That is part of the Russian assurance program. We are 
making modifications to the Space Station to accommodate that 
interim control module. This is not giving the Russians more 
money for slipping.
    Mr. Mollohan. You say there is no money in your 1999 budget 
for the assurance program. Was $50 million reprogrammed in 1998 
from the Space Shuttle account for this item?
    Mr. Peterson. That was done in the Appropriations Act last 
year, yes, sir.
    Mr. Goldin. In 1998.
    Mr. Peterson. The 1998 Appropriations Act.
    And that is what Mr. Goldin was referring to. That is the 
last $50 million for the $250 million of Russian program 
assurance and action that we took with the help of Congress 
last year.
    Mr. Goldin. But we did not put any money in that account. 
We programmed that into that account.
    Mr. Peterson. Well, actually, I believe in the 
appropriations bill itself, you added sufficient funds to allow 
us to allocate $50 million to that account.
    Mr. Goldin. I want to correct what I said. Actually, 1999 
is $7 million, payments to the Russians, and then, thereafter, 
it is about $1.3 million a year for the Star City Moscow 
Liaison. So it is a very minor amount of money.
    Mr. Lewis. Thank you.
    Mr. Goldin. This is another one of the misconceptions that 
comes through that we continue to fund the Russians when they 
are not performing, and I wanted to make it very clear that we 
are not funding to cover missteps in the Russian funding for 
their own activities. We are not covering it.

                         science power platform

    Mr. Lewis. Thank you.
    The Russian Science Power Platform is scheduled for 
installation in July 2000 to provide additional power to 
Russian science elements and provides role control for the 
entire station. If there are delays for nonperformance in 
construction of the SPP, what option is available to perform 
the role control functions?
    Mr. Rothenberg. One of the options would be to modify the 
ICM, the second ICM to put on a role control capability and 
then put some kind of thruster on----
    Mr. Lewis. Small thruster?
    Mr. Rothenberg. Right. That is the one option we are 
looking at right now.
    Mr. Lewis. You will tell us what the cost might be for that 
option, too?
    Mr. Rothenberg. Of course.

                             soyuz vehicle

    Mr. Lewis. In addition to the Russian contribution in the 
form of the service module, the Space Station will have a heavy 
reliance on Soyuz and progress space vehicle. What is the 
current agreement with Russia regarding the modifications to 
Soyuz vehicle for cruise support?
    Mr. Rothenberg. I believe that is under control, but let 
Gretchen answer that.
    Ms. McClain. They are currently modifying the Soyuz to be 
ready in late 1999. It will accommodate about 95 percent.
    Mr. Lewis. Is it on schedule?
    Ms. McClain. It is on schedule.
    Mr. Lewis. What is the current status of the Russian 
modifications to the progress vehicle for resupply to the 
station?
    Ms. McClain. What they are doing is they have got a 
progress mound vehicle today that is being modified to be a 
progress M-1. That has undergone to date. It will be available 
in 1999. Basically, it is changing out some of the tanks to be 
able to allow more fuel.
    Mr. Lewis. How many Soyuz and progress flights will be 
required through the end of 2003?
    Ms. McClain. Ten Soyuz flights and 33 progress flights.
    Mr. Lewis. Ten and 33?
    Ms. McClain. That is right.
    Mr. Lewis. Do you have confidence that the Russians will be 
able to meet the commitment to this large number of flights, 
both from a financial as well as a manufacturing perspective?
    Mr. Goldin. I want to jump in. We feel the Russians have to 
make a commitment to de-orbiting the Mir Space Station 
because----
    Mr. Lewis. To de-orbiting?
    Mr. Goldin. Yes, because they are expending valuable 
resources and industrial capability and building Soyuz and 
progress vehicles to Mir when we need them to build them for 
the International Space Station.
    Towards that end and the announcement, the joint 
announcement, and the agreement we made at the Gore-
Chernomyrdin Commission by July of this year, the Russians are 
to prepare a plan for how they are going to de-orbit the Mir 
Space Station.
    It is our desire that the Mir Space Station be de-orbited 
in mid-1999, to provide flexibility in the productionschedule, 
and to have the finances available to support the schedule.
    So it is very important and it will be a very positive 
signal that the Russians will send that they are going to de-
orbit Mir and it will give us a much higher confidence in their 
ability to meet the progress and the Soyuz deliveries.

                     lessons learned from russians

    Mr. Lewis. Mr. Goldin, I think I said this to you 
personally, but not for the record. I would like my colleagues 
at least to know how I feel about this.
    We could not have designed the variety of mix of experience 
that we have gained from dealing with Mir. We certainly would 
never have designed it, per se, but in terms of safety 
questions, in terms of all kinds of questions, like the CRV, 
the expansion potential, a variety and mix of great lessons 
learned as a result of this, I think it would be a mistake not 
to recognize formally that that has been a value to us. On the 
other hand, we would certainly not wish it again on another 
element of this program to go forward.

                             soyuz vehicle

    Mr. Frelinghuysen. I just wanted to ask a question. Is it 
being de-orbited because you would characterize it as obsolete?
    Mr. Goldin. It needs to be de-orbited because from a 
resource standpoint, it is not possible to keep both of those 
going, A, and, B, the facilities on board the International 
Space Station will be much more advanced, much more capable, 
much higher power levels, and much more conducive to research 
in the 21st century.

                          obsolescence of mir

    Mr. Frelinghuysen. So you are actually speaking to 
obsolescence when you make that type of comment.
    Mr. Goldin. But you have to keep in mind one specific 
issue. The Mir Space Station does not belong to America. It 
belongs to Russia.
    Mr. Frelinghuysen. But I asked you whether it is being de-
orbited, taken out of commission, because it is obsolete.
    Mr. Goldin. Well, I will answer the question from the 
American standpoint. From our standpoint, when we bring home 
Andy Thomas in June of this year, as far as America is 
concerned, we have learned everything possible we could learn 
from the Mir Space Station.
    Mr. Frelinghuysen. This gets back to my earlier contention, 
which is we will be breathing a sigh of relief when he comes 
back. This gets to the public perception that the Mir is 
somewhat obsolete.
    You are suggesting----
    Mr. Goldin. I am disagreeing with that.
    Mr. Frelinghuysen. You are. So it is being taken out of 
orbit not because it is obsolete, but because there is another 
package that is technologically far more advanced, and since I 
do not think we have arrived at any mutual agreement as to what 
is obsolete relative to the Mir, what is built into the new 
package that addresses the issue of obsolescence?
    Mr. Lewis. If you will yield, let me intervene there. I 
think what Mr. Goldin was saying, but clarify it for the 
record, one of the reasons to be pushing for decommissioning is 
because otherwise we would have the Russians participant in a 
Space Station, and they also want to keep this functioning and 
use resources.
    Mr. Frelinghuysen. I understand there is a resource issue, 
but I am interested--what some might consider Mir to be 
obsolete at this point in history.
    Mr. Goldin. Again, so it is clear for the record, I want to 
address it a different way. Mir was clearly not obsolete for 
our usage of it, and without our experience on Mir, we would 
not have learned and known what we know today. I do not 
consider it obsolete.

                     obsolescence of space station

    Mr. Frelinghuysen. Well, I think it is great and 
appropriate that we celebrate our relationship with the 
Russians, and if you do not want to describe the Mir as 
obsolete, maybe you can address the issue as to our Space 
Station, what steps are we building into its technological base 
that would keep it from obsolescence.
    Mr. Goldin. Well, we learned a lot from Mir. We learned 
about corrosion with dissimilar metals. We are making changes 
in our design.
    We have learned that when you take real cold lines and put 
it next to electrical cabling, over years the electrical 
cabling degrades, and, in fact, this was the situation in our 
own laboratory until we discovered that.
    We have learned about fire suppression. We have learned 
about safety relative to crew egress. We have learned about 
operations. We have learned about how we should maintain the 
system and the kind of spares we should have on orbit. Those 
are the type of things we have learned, absolutely crucial.
    The reason I want to answer your question, I could say from 
the American standpoint, we consider we have learned everything 
we can. The Russians have some opportunity for revenue sources, 
where other countries want to fly on board Mir to learn from 
it. That is why I am being very careful from the Russian 
standpoint. They may not consider it obsolete.
    From our standpoint, we feel we have learned as much as we 
could possibly learn to build the International Space Station, 
but our concern is a more pragmatic one. We are concerned that 
the Russian Control Center, which we are working with in Moscow 
and Houston, may get into overload operating the Mir and the 
International Space Station. We are concerned just about 
handling logistics and the flow of equipment through Baikonur 
will be an overload situation.
    And in light of all the Russian funding problems, we have 
expressed a concern to them that it is important to give us 
confidence and themselves confidence that they could meet all 
the production schedules for the Soyuz and the progress, and, 
clearly, there is the added aspect that I hope the Russians 
will recognize that the International Space Station will have 
much more power, much more volume, much more advanced 
communications, much more stable conditions, lower vibration 
levels for doing microgravity research. So it will be a much 
more advanced system.
    The only reason I am reluctant is I feel reluctant to speak 
for a sovereign nation about decisions they will have to make 
themselves, and that is the only reason I have not answered 
precisely the question.

                         russian space program

    Mr. Frelinghuysen. I do not think any of us view the 
Russian space program in a vacuum. I mean, some of us traveled 
to that part of the world, and we see how aggressive the 
Russians are in terms of oil supplies and technology, their 
national oil company. The fact that they have to decommission 
at some point in time a lot of nuclear reactors--I mean, if one 
were to judge public attitudes as to how those problems 
developed and perhaps swing that over to the space program, it 
would indeed be worrisome.
    So I am glad you have given us the higher level of 
reassurance that you have.
    Mr. Goldin. 1999 is the year that we believe the Mir should 
come down. We hope the Russians agree with us.
    Mr. Frelinghuysen. Thank you.
    Mr. Lewis. Mr. Knollenberg, did you want to comment?

                        russians focus on safety

    Mr. Knollenberg. Just very quickly, and I will be leaving 
shortly. So do not look upon that as being disinterested. I 
have another hearing.
    I am encouraged by what you said about the safety. In fact, 
the focus of the Russian--their technology and their redundancy 
and what have you, that surprises me a little bit, only because 
on another front in the nuclear field, they have anything but 
redundancy of the kind and quality that we have built into that 
system.
    So I am just curious as to why they have put such a focus 
and such interest into the safety side in this situation. Where 
does that come from?
    Mr. Lewis. They certainly are presenting that question in a 
very interesting way.
    Mr. Goldin. It is a very interesting question. I will give 
you but one example of where I have been impressed. If you take 
a look at their oxygen-generating system, they have two 
complete oxygen-generating units; then they have spare parts in 
case something goes wrong. If they have a problem with that, 
they use a technique they developed for nuclear submarines 
using oxygen-generating candles and they have a few months' 
worth of supply of those.
    And then they have this logistics system that could take 
parts up and down if they don't have it. And then they have 
gasses of air, bottles of gas, of air, that they can breathe 
from. And, if all else fails, they come back in the Soyuz 
module.
    When we conceived our Space Station, we did not do that. We 
put redundancy in number but not function. And that is what 
really impressed us about the Russians.
    And, you know, I am going to pursue an answer to that 
question. It is a very good question and I am going to have 
some discussion with Russian experts and try to understand 
that.
    Mr. Lewis. Well, Mr. Goldin, as you do that, Mr. 
Knollenberg has essentially crystallized for me at least one of 
the items to wonder about, a thing called international 
prestige. If you take the number of people who were 
contaminated in the nuclear circumstance and then you take a 
look at this, it is just an item worth contemplating.
    Mr. Goldin. I will be happy to have open discussions with 
the Russians on the subject, with American Russian experts. But 
we entered, and this may be part of the problem, we entered 
with the same level of feeling as your constituents that boy, 
we in America know everything about safety.
    And when our astronauts started coming back and telling us 
about their experience on the Mir and the level that the 
Russians go to with safety, our eyes began to be opened. And I 
guess it is a process that we will all have to go through.
    Now, there still could be some problems that we don't know 
about but from everything we have seen, the Russians take an 
extra measure to try and be safe.

                         space station priority

    Mr. Lewis. Which leads me to one more question before I 
turn to my colleague, Mr. Stokes. In this country we have made 
a national commitment to building the International Space 
Station. The same commitment has been made by Japan, Canada and 
numerous countries in Europe through individual actions as well 
as the European Space Agency.
    When Russia was brought into the partnership in 1993, I 
believe we expected them to make a similar commitment to 
Station, but there has been a noticeable lack of consistency in 
that commitment. We have touched on that in several ways 
already.
    The question is very simple. Where does the Space Station 
fall in the priorities of both the Russian Space Agency and the 
Russian national government? You talked about the delivery of 
funds already being delayed but a certain level of delivery by 
way of the legislature is a very sizable additional chunk that 
must be asked of the legislature here shortly. So where are 
they in terms of that commitment?
    Mr. Goldin. Russia is having significant problems across 
the board. People in the military don't get paid. People 
routinely in industries don't get paid, as they are 
transitioning to an open market. I think we talked about this 
last year but I think it is important to realize this again.
    The Russians have set an incredible goal. Not only are they 
opening up their market to become an open market; they have 
transitioned from a controlled society to an open society. And 
I believe for the first time in 10 years their economy is 
actually now beginning to show some growth because they have 
been in decline.
    This is a problem that has plagued the entire Russian 
economy. It is not as though the space industry is different. 
So it has been across the board, including defense, which is 
very important to Russia.
    Seeing that there is some improvement in the economy, 
hopefully that will reflect on how they go at it. On a priority 
standpoint I am assured, and these are their words, not mine, 
that this has a high priority and that they are going to go get 
it funded. But deeds are more important than words and we are 
going to look very carefully over the months ahead to see that 
it happens.
    Now, we brought a tremendous amount of pressure to bear and 
they have put a significant amount of money in. Last year, 
after we brought those pressures to bear, they have slipped up 
on those $59 million. We are going to work on that. But we need 
to see deeds, not talk.
    I want to provide a little discussion here. If you take the 
U.S. contribution to the International Space Station plus our 
partners' commitments, we are talking about a $40 billion 
program. And for the lack of $359 million or $259 million, we 
could be putting the program in jeopardy. This message was 
presented very clearly and very focussed to the leadership and 
they responded. Yesterday Prime Minister Chernomyrdin in the 
open press made a major commitment to the Space Station.
    Mr. Lewis. As you look up that paper relative to the cost 
of the delays, that paragraph, that summary, would be welcome.
    Mr. Goldin. The same that I just made?
    Mr. Lewis. Yes, what you just said.
    Mr. Goldin. Okay.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you for your patience.

                       transfers between accounts

    Mr. Stokes. Yes, sir. Thank you, Mr. Chairman.
    Mr. Goldin, my information was, and you correct me if I am 
wrong, that NASA has already transferred $462 million from the 
Space, Aeronautics and Technology Account to the Space Station 
in 1996, 1997, 1998. In addition, it appears likely that there 
could be further transfers from the space science of $50 
million in 1999 and $35 million each in 2000 and 2001.
     This would appear to be counter to NASA's stated intention 
of paying back space science funds beginning in 2001.
    The question is do you agree or disagree with these 
figures?
    Mr. Goldin. Let me add in the broadest sense that science 
that will be performed on board the International Space Station 
is going to have not just every facility we had in the redesign 
in '93 but there will be significantly added capabilities in 
the broadest sense.
    And the details of the numbers I would like to have Mal 
respond.
    Mr. Peterson. Indeed we have made adjustments between the 
various accounts to make sure that the principal focus, which 
is getting the Space Station constructed in order to have a 
place to accommodate these facilities, was maintained. So what 
we have done within the total availability for Space Station is 
to adjust the mix so that we kept the delivery dates for the 
research facilities phased appropriately with the availability 
for the Space Station to do that research. So what we actually 
did was rephase some of this hardware.
    The second thing that we did of significance, and it seemed 
a fair amount of money, was to insert new technologies into the 
facilities that we are building.
    The third major thing is that we were able to secure the 
agreement of our international partners to actually contribute 
major elements of research hardware to the Space Station in 
return for offsetting their launch support costs to us to avoid 
transfer of payments between the two countries.
    So there has been a significant change from early days of 
what was going to be done by the United States with taxpayer 
money and what was going to be done by our international 
partners with their money. So all those things come together.
    Now, I believe when you look out far enough you are going 
to see that the research program runs $500 million a year. 
Starting in 2000 it goes to $500 million a year and stays at 
that high rate for the foreseeable future. As opposed to where 
it is now with some couple of hundred million dollar level, it 
is going to take a tremendous increase. And that is tied to its 
timing, the readiness for research on the Space Station.
    Mr. Goldin. Mr. Stokes, I would like to add one element and 
then I would like Joe to comment. We made a commitment to have 
900 principal investigators brought on board by the year 2000 
and we are marching to that plan. So in terms of researchers, 
we are bringing them on board as planned.
    And then not only are we going to have the research 
wepromised in 1993 but I would like to have Joe just summarize all the 
additional research capability and we would like to submit for the 
record, Mr. Lewis, the enhancements we have made to the research on the 
Station and make it much more productive.
    Mr. Lewis. That would be helpful.
    Mr. Stokes. Joe, I would be happy to hear from you.
    Mr. Rothenberg. Let's see. A number of things we did. One 
of the things, not specific to the Station, but we added 
actually payloads for the assembly flights. We were able to add 
some science payloads to the assembly flights. We added, for 
example, we upped the number of mid-deck lockers assigned to 
science on the Shuttle from four to 17 per flight.
    ESA added four external positions on board to accommodate 
external pallets with payloads on them. We have added 
telescience, increased the bandwidth or the amount of data we 
can put up and down for telescience. We would like the 
investigators to operate from their remote facilities as if 
they were on board Station.
    We have added wiring. We call it scars but we have added 
wiring capability to allow upgraded communications with the 
Japanese research module.
    The window that was in the Space Station, when we looked at 
it, its size and its transmissivity or the kind of glass they 
used in it was not conducive to earth science so we improved 
the window capability so we can get better spectral 
transmission and a larger aperture.
    Mr. Lewis. Transmissivity?
    Mr. Goldin. That is how much light gets through without 
getting fuzzy.
    Mr. Rothenberg. And what wavelength, how much of the 
ultraviolet and how much of the infrared. We think that is very 
important for earth science.
    We have added advanced isolation, vibration isolation for 
microgravity work, for microgravity experiments which, as you 
know, are very important.
    Communications outage recorder so that there is no data 
loss if we have an outage of signal communication or loss of it 
during the exclusion.
    There are a number of things we did in training. We added 
some training for the crews and people, but that is, I think, 
the highlights of the capabilities.
    Mr. Goldin. We will, for the record, expand on that but it 
is a significantly more capable system, much more automated, 
requiring less crew attention. And then we have added the 
seventh astronaut that will make the science much more 
productive.
    But I think the key thing that we have done is increase 
telescience, which allows individual investigators not to have 
to cut through NASA bureaucracy but from their own laboratories 
at the university will be able to directly uplink and access 
the Station. That will make it much more productive.
    Mr. Rothenberg. More importantly, industrial researcher, 
who are not as accustomed to going to remote sites--they do 
research in their own facilities--will be able to do it the 
same way, using the Station.
    [The information follows:]
                Enhancements to the Research Capability
    NASA has implemented several enhancements which greatly improve the 
ISS research capability. Some of these enhancements include:
          Addition of a Communications Outage Recorder (COR) to ensure 
        that no payload data is lost during communications dropouts;
          Addition of an Environment Monitoring Package (EMP) to 
        characterize the external environment for attached payloads;
          Consolidation of U.S. payload crew training;
          Development of a generic payload to verify payload interface 
        consistency;
          Addition of flight-like payload to the Multi-Element 
        Integrated Test program;
          Initiation of a Pre-Planned Product Improvement (PPPI) 
        process which includes enhancement of ISS research capabilities 
        as a high priority;
          Manifesting of science payloads on Assembly Flights;
          Increasing Shuttle middeck locker capability from 4 to 17 
        starting at UF-3;
          Development of a comprehensive set of ISS telescience 
        enhancements to be phased in by assembly plus one year; 
        increase Ku downlink bandwidth, enhance Ku uplink capability, 
        increase video and audio capability;
          Addition of wiring scars in Lab to support enhanced 
        communications requirements; 1553 Payload Bus extended to JEM 
        Exposed Facility; addition of Ethernet to COF;
          Upgrading of Lab nadir window with research quality glass; a 
        low cost simple window rack structure to support early 
        research; upgraded rack will be available at completion of 
        assembly;
          Completion of 1st Active Rack Isolation System (ARIS) Risk 
        Mitigation Experiment (RME); ARIS RME planned for UF-1 to 
        demonstrate modification; and
          Implementation of hardware commonality across payloads (e.g., 
        laptop computers, subrack interfaces).
    ESA has also added 4 external payload adapter sites on the ESA 
Columbus Orbiting Facility (COF) to accommodate external payloads and 
pallets.
Technology infusion
    In addition to the ISS platform enhancements, NASA is working hard 
to decrease hardware development times while taking advantage of 
advanced technology in all its research programs. By incorporating the 
latest technology into ISS research accommodations and facilities, we 
increase the efficiency and scope of ISS research efforts, as well as 
overall ISS operational efficiency and safety. Examples of advanced 
technology infusions include:
          Web-based Internet commanding and data management;
          Improved imaging sensors;
          Graphics workstation/virtual environment generator;
          Crew worn sensors vs. rack-mounted medical monitoring 
        equipment;
          Digital video technology;
          Specialized aluminum structures;
          Solid state switching capability;
          Improved radiation hardening;
          High-efficiency DC-DC converters;
          Real-time balancing and re-balancing of spinning motors;
          Passive vibration isolation techniques and mechanisms;
          Monolithic LED arrays;
          Photocatalytic ethylene scrubbers for removal of 
        contaminants; and
          Multi-channel, wide-band telemetry equipment.
    NASA is also exploring and adopting new approaches to enhance the 
productivity of the human-machine interface, improve environmental 
control and life support systems, and medical monitoring. Examples of 
new systems NASA is investigating for the future include:
          ``Electronic Nose'' to provide real-time continuous 
        monitoring of toxicological measurements;
          Miniature Mass Spectrometer to replace the standard 
        laboratory model;
          On-orbit noninvasive medical monitoring techniques to enable 
        collection of blood chemistry and physiological parameters 
        without collecting samples from astronauts;
          ``Wireless Augmented Reality Prototype'' to provide hands-
        free, voice-controlled, audio-video information to and from the 
        astronaut; and
          Upgrading ISS life support system to include biological water 
        recycling systems.

                           Transfer Authority

    Mr. Stokes. Mr. Goldin, how much cushion is built into the 
additional $200 million in transfer authority which reflects 
the 1998 part of the different estimates of NASA and Boeing 
regarding the cost variance at completion?
    Mr. Goldin. Well, not in the $200 million but Boeing made 
an estimate of what their overrun would be and they estimated 
that to be $600 million. We, NASA, have put in $817 million as 
an estimate of what their overrun might be. But in that $200 
million I don't think----
    Mr. Stokes. Let me get to the 1998 estimates. Let me ask 
specifically how is Boeing managing against a $600 million 
estimate for cost variance at completion so far this year?
    Mr. Peterson. It is doing quite well against its plan. It 
is actually slightly under its plan through the last report we 
have, which is the end of February. And the projections for the 
year to go indicate that they will have some additional funding 
requirements as we proceed through the year to meet technical 
challenges that are arising. Much of that is changes that are 
made and some of it is indeed overrun that the government is 
estimating will be incurred.
    I believe, however, that the real thing that needs to be 
said about the additional funding, sir, is that we constructed 
the '99 budget number predicated on the assumption that that 
money was available. So the long-run analysis of reserve 
requirements for the program to offset threats that may emerge 
assumes the availability of those funds.
    Mr. Stokes. Let me ask you, the chart I have here indicates 
that it looks as though the '99 portion is going to be about 
$100 million. Is that accurate?
    Mr. Peterson. Sir, what we require to meet obligational 
requirements during this year, assuming that there are no 
actions turned on that we do not currently have in our contract 
planning, such as anything having to do with the Russian 
situation, we have sufficient obligational authority to handle 
the problem without using the entire $200 million.
    However, what I am saying is that the funds need to be 
available to carry over into fiscal '99 to complement the 
fiscal '99 budget request.

                              Cost Overrun

    Mr. Stokes. I am trying to focus in on the cost overrun 
portion for this year. What amount are we talking about?
    Mr. Peterson. Let me get you the actual figure.
    Mr. Stokes. For Boeing.
    Mr. Rothenberg. For Boeing? That is right. We are focussing 
on Boeing. Do you have that number?
    Mr. Peterson. I have it. The Boeing, we refer to the 
performance shortfall, which is also known as overrun.
    Mr. Goldin. It is overrun.
    Mr. Peterson. Is $206 million by our estimate. Boeing's 
estimate is less than that, but this is our estimate. Our 
estimate is probably $50 or $60 million higher right now than 
Boeing would project.
    Mr. Stokes. Is that for the '98 portion?
    Mr. Peterson. That is for the '98 portion, sir.

                            Reserves Needed

    Mr. Stokes. Now, does that mean less flexibility reserves 
will be needed this year?
    Mr. Peterson. It does. If you take the current performance 
and you project it forward without any introduction of any 
unknowns that might occur, we would not require the $200 
million of additional funds this year. In terms of our 1999 
request, then, it is short by the commensurate amount.
    The other thing that is very important is what I said about 
what we know today and where we are going for the rest of this 
year. Actions that may need to be turned on by the program in 
response to problems that arise are not calculated in what I 
just said.
    So we are dealing with the coverage for unknown problems, 
and that is, I think, a key issue for the program manager.
    Mr. Goldin. Now in direct answer to Mr. Stokes' question, 
we might end up the year without expending all that $200 
million if Boeing continues on that performance curve.
    Mr. Peterson. I think it is highly likely, yes.
    Mr. Goldin. However, we will need the money, we believe, in 
'99 and may have to commit the money in '98 to be spent in '99, 
and that is the point.
    Mr. Rothenberg. I would like to add one thing. One piece of 
evidence that we already have is the uncertainty of the Russian 
schedule. If we have to commit to the second ICM, there would 
be, and we will know that in mid-May, there would be an 
immediate lien starting on that money.
    So we already know about threats against the rest of that 
money. We just can't close on them yet until we finalize the 
decision and get the final information.

                               Award Fee

    Mr. Stokes. That leads me to my next question. After giving 
Boeing a zero rating on a zero to 100 scale for the October 
'96/March '97 performance period, NASA gave Boeing a 70 for the 
April through September '97 period. Is that correct?
    Mr. Goldin. Let me explain how that works. They got a score 
of 61 but a score of 61 gives them a zero award fee.
    Mr. Lewis. Award fee?
    Mr. Goldin. Award fee.
    Mr. Stokes. You are talking about now for the period '96 to 
'97? There are two different periods here and two different 
ratings, right? All I am trying to do is get it on the record.
    Mr. Goldin. Is that correct?
    Ms. McClain. The first was a 61. The second was a 70.
    Mr. Lewis. And that 61 gave them a zero award fee.
    Ms. McClain. And the second one gave them 70 percent of 
what was available.
    Mr. Goldin. I think if you get a score below 65 you get 
zero fee.

                           Performance Rating

    Mr. Stokes. When you look at the two, is there any 
significant reason for giving them a higher rating in terms of 
performance?
    Mr. Goldin. Gretchen.
    Ms. McClain. During the period they had the zero award fee 
that is when we were seeing the overrun per month. After that, 
we had several discussions with Boeing, I believe Mr. Goldin 
and Mr. Condit, the CEO of Boeing. They have made some 
significant changes to the program management. They have 
brought what I think is a very positive team forward who is 
actually working on the problems we were facing.
    They have been able to bring the lab schedule back around. 
They are not there yet but they have recovered some of their 
down time. They have also changed some of their procedures. 
They are dealing with software more aggressively.
    So we saw some very clear performance changes. And in that 
case we felt that they were deserving of a 70.
    Mr. Goldin. And their financial performance was 
significantly better over the last six months, where they have 
been managing to plan; in fact, a little bit under plan. Now we 
have to look at the next period and see how they do. We award 
them period by period.

                          Boeing's Commitment

    Mr. Stokes. Thank you very much, Mr. Chairman.
    Mr. Lewis. Mr. Stokes, I appreciate that line of 
questioning. My colleague over here, Mr. Frelinghuysen, as an 
aside made another very poignant comment. We have talked a lot 
about the Russians and their commitment, et cetera. Boeing does 
have a monopoly here and having some assurance that their 
management is totally committed, as we are asking the Russians 
to be totally committed, to a system and attention level that 
assures success is awfully important, to say the least. We will 
be interested in your reporting on that, too.
    Mr. Goldin. It is very important. I believe from the 
chairman of the board of Boeing to the workers on the floor, 
they are committed. I have personally met with some of them. I 
went to some of their facilities. They are really engaged in 
the job.
    I want to come back to the Russians and be very clear. We 
see the same level of commitment from Yuri Koptev, the head of 
the Russian space agency, from Mr. Smirnov at RSE Energia. And, 
in fact, he is taking financial risks. One of the reasons a lot 
of the hardware flowed is he went to the bank to get a loan on 
the assumption that the Russian government will pay him back.
    So sometimes there is----
    Mr. Lewis. I hope that wasn't an FHA loan guarantee.
    Mr. Goldin. My point being I would like the committee to 
understand that we have people who are working in Russia very 
hard. I have tremendous concern that they don't always get the 
resources they need but it is not because they don't care. They 
are passionately working on this program.
    Mr. Lewis. Mr. Frelinghuysen.

                Russian Space Agency/Russian Government

    Mr. Frelinghuysen. This goes to the core again of public 
perception, and tell me if this perception is correct. The 
Russian space agency is off on its own tether here in your mind 
or are they linked, joined at the hip with the Russian 
government?
    Mr. Goldin. They are working with the Russian government. 
They are not alone. As I pointed out, sometimes the military 
doesn't get paid. Sometimes people in factories don't get paid 
and the Russian economy is trying to get to where it wants to 
be.
    Mr. Koptev is working very closely with the prime minister 
of Russia but the bureaucracy in between sometimes doesn't get 
the money to Mr. Koptev that he should be getting.
    Mr. Frelinghuysen. But the public perception here is that 
they are scraping the bottom of the barrel to get their piece 
of the overall Russian budget pie to keep their program afloat 
and keep their promises as a major partner in this.
    Mr. Goldin. I certainly have to say they have a more 
difficult time in receiving funding than NASA does. It is a 
very tough situation. But again I come back to the fact that 
Russia is trying to do some very tough things, very tough 
things, and other countries are not doing it the same way. They 
are trying to go from a totalitarian government to democracy 
and from a controlled economy to an open economy and, for the 
first time, I believe, in 10 years, there is actually some 
growth in the economy.
    It is not that they don't want to do it. It is not that it 
is malicious, and this sometimes is public perception. They are 
having tough times in Russia.

                      Russian Space Agency Budget

    Mr. Frelinghuysen. Could you talk for a minute about what 
you know about the make-up of the Russian Space Agency budget? 
I know this is a sovereign nation but I assume we have a pretty 
good handle on where they get their sources. Does it come from 
their defense establishment or does it come out of----
    Mr. Goldin. Oh, no. It is a civil space program. One of the 
things that Russia did as they made this transition is they 
broke out the civil space program. The Russian Space Agency is 
equivalent to NASA. There is a military space program in Russia 
but that military space program is managed by the Ministry of 
Defense.
    So they are a civil space agency and they are funded in a 
similar manner by the Russian government.
    They have one difference. They have an ability to go out 
and float loans. And I don't pretend that I understand it too 
well but the Russian space agency sometimes goes to banks and 
gets bridge loans, funds it until they get the money from the 
government and then they have to pay a discount rate. It is a 
lot different than NASA.
    Mr. Frelinghuysen. Considering what we know about their 
financial institutions, I can see why they may have some 
problems.
    So in terms of the make-up of the Russian space agency's 
budget, what do you literally know about that, other than what 
you have told me?
    Mr. Goldin. We have a break-out of their space budget for 
their calendar year '97. Their calendar year and fiscal year 
overlap and we can submit it for the record.
    Mr. Frelinghuysen. I would be interested in seeing it.
    [The information follows:]


[Pages 61 - 62--The official Committee record contains additional material here.]



    Mr. Goldin. We can give you that break-out for '97. We 
don't have that same visibility yet for '98 but we will get it.

                           Mir/Space Station

    Mr. Frelinghuysen. You talked earlier about the fact that 
they continue to want to put money into the Mir program at a 
time when you want them to be a more full and generous partner 
in the new Station.
    Mr. Goldin. Let me clarify that. They have a Space Station 
up there right now with a U.S. astronaut on board.
    Mr. Frelinghuysen. I understand that.
    Mr. Goldin. And I want them to do the right thing.
    Mr. Frelinghuysen. So do I. You brought up the issue of de-
orbiting after our astronaut is back and after they have done 
whatever they can to bring their people back. Is there anything 
in the slowness of their acting on the de-orbiting, 
decommissioning of the Mir that has anything to do with their 
defense needs?
    Mr. Goldin. I don't know the details of how their 
government works but as far as we know, we haven't seen any 
defense activities taking place with the Mir.
    I also may have given a wrong impression. We have had open 
discussions with them about when is the appropriate point to 
de-orbit the Mir. They have engaged with us in those 
discussions. They have not held us at arm's length. We 
established why we thought it was the right reason to de-orbit. 
They have agreed to come up with a de-orbit plan by July.
    So we hope that the de-orbiting will be in 1999. In fact, 
we expect that it will be in 1999 but we want to wait and see 
what that plan is.
    Mr. Rothenberg. In fact, there are discussions going on 
between the Russians and our people in Houston as we speak 
today, this week and through Friday, on trying to develop that 
plan.
    Mr. Goldin. And there are a couple of issues. They have 
some international agreements to take astronauts from other 
countries up to the Mir. Then, once----
    Mr. Frelinghuysen. Which gets to the issue here, that this 
is their baby, the Mir, and they are not eager to take it out 
of orbit since it represents national sovereignty, prestige, 
and so on.
    Mr. Goldin. And they are an independent country.
    Mr. Frelinghuysen. Yes.
    Mr. Goldin. But they are working with us on the subject. 
But once a decision is made to de-orbit Mir, if they de-orbited 
responsibly, which they have told us they want to do, so that 
it lands in the ocean instead of a place where there is a large 
degree of habitation by people, it takes 10 months to have a 
controlled set of burns to bring it down so that it lands just 
right.
    The fact that they are responsible about that, we are very, 
very pleased with. So again it comes back----
    Mr. Frelinghuysen. Well, I should hope they would be 
responsible. There was a potential that they would not be 
responsible?
    Mr. Goldin. That was not the impression I wanted to give. I 
just wanted to make a positive statement that they are working 
with us and they may seek some help from us to make sure that 
this comes down in a safe fashion.
    Mr. Frelinghuysen. Thank you. Thank you, Mr. Chairman.
    Mr. Lewis. Very interesting.
    Mr. Walsh.

                          Space Station Debate

    Mr. Walsh. Thank you, Mr. Chairman.
    Thank you for your testimony. I am sorry that I am late. I 
would just suggest that when we get to the floor and have the 
debate on the Space Station and on this bill, that we had 
better be well prepared, and you can help us with that. This is 
going to be a very volatile issue, as it always is. And with 
the recent press and the delays and the cost overruns and the 
problems with the Russians and so forth, it is going to be that 
much more difficult, especially our trying to fight this battle 
with the caps and keep our discretionary spending down. We get 
it from all sides.
    So you need to be very forthcoming with us obviously on the 
scheduling and the costs and we will do our best to support the 
project.
    Mr. Goldin. Let me say that we plan on doing that and there 
is one important point that I want to make that I made to the 
other members. NASA is an agency that does what it says it is 
going to do. And even though a lot of other budgets are going 
up this year, the NASA budget is actually coming down.
    We are absorbing within our own resources, without 
impacting our science programs, our ability to do this because 
we keep getting more efficient and because we prioritize what 
we are doing.
    So even though there is an overrun on the Space Station, we 
are not coming back to the American people and asking for more 
money. I am very proud of that within our agency. Let me just 
leave it at that.
    And finally, there is a cost study that has been undertaken 
by an outside review panel that will be reporting out at the 
end of this month led by Mr. Jay Chabrow. We will also factor 
that into our discussions and openly share that information 
with this committee. But I feel that it is our obligation to 
answer every question you have and I committed to Mr. Lewis 
that I am prepared to come over, go through the data. If there 
needs to be another hearing, we support that. And for the 
record we will present all the material that is necessary.
    This is an open program. It needs to have the oversight and 
review that this panel provides it.
    Mr. Walsh. Thank you.

                      Interim Control Module (ICM)

    Mr. Lewis. Mr. Goldin, last year NASA embarked on a series 
of steps to follow in the on-rush of Russian performance lagged 
expectations. Step one was construction of the interim control 
module (ICM) to cover for delays in Russian service module. 
Step two would include elements to permanently replace the 
service module with a combination of ICMs and DUS propulsion 
module. Step three would include extensive changes to replace 
capability lost in the event that Russia is no longer in the 
program.
    At this time can NASA launch an ICM in December if the 
service module is not ready for launch? And if not, why is the 
module not ready to fulfill this contingency, as planned last 
year when we started work on the ICM?
    Mr. Rothenberg. There are two possible uses for the ICM.
    Mr. Lewis. Is the first question--are we ready to launch in 
December?
    Mr. Rothenberg. I am going to answer that. That is what I 
am saying. There are two possible uses for the ICM. The first 
use is to back up the service module. We have been hedging 
whether we want to commit to that because of the technical 
progress we see in the service module.
    As Mr. Goldin said earlier, right now the service module 
appears in our view to be two to three months behind schedule. 
If indeed they can deliver the service module no later than 
that, it would be prudent for us to defer the ICM and use it 
for the 7A1 flight, as a back-up in that.
    Mr. Goldin. Explain 7A1. You are becoming contaminated 
already in your new job.
    Mr. Rothenberg. I have been at headquarters only two 
months. The 7A1 is a downstream flight that occurs after the 
service module and after the U.S. lab installation. The 
advantage of bringing it up then is it provides extra 
propulsion capability for us.
    Mr. Goldin. And it protects against the Progress vehicle 
not being there.
    Mr. Rothenberg. Right. We have been watching very closely 
the service module development and we have elected at the 
moment, and we are watching it, to target the interim control 
module for the downstream protection against the Progress 
module, because of where the service module is.
    Mr. Goldin mentioned earlier a series of milestones we have 
leading up to May 15, the middle of May, at which time at that 
point we are going to make a decision whether we want to revert 
back to providing an earlier back-up for the service module.
    If we do that and he mentioned this earlier, that puts us 
right at the end of our four-month window in which we said we 
could absorb within the existing reserve. In fact, it is a 
couple of weeks into it. But we would trigger back off of 
providing--if they fail to convince us that they are going to 
have the service module within a year at that point, we would--
four months beyond December when I say a year, a year from 
May--if we can't be convinced we are going to have it by then, 
we will redirect the ICM to be prepared as a back-up for the 
service module. At that point we believe it will be ready for 
launch about a year from then, which is late April, early May. 
It is 11 to 12 months.
    Mr. Goldin. But that would trigger a very significant cost 
problem.
    Mr. Lewis. Absolutely.
    Mr. Goldin. And a significant schedule problem.
    Mr. Lewis. The original contingencies.
    Mr. Rothenberg. The phase two, right.
    Mr. Goldin. So this is why we want to do everything 
possible to get the Russian government to pay the money so they 
can get the service module launched in the shortest period of 
time. That is the lowest cost, best approach for this program.

                         U.S. Propulsion Module

    Mr. Lewis. Relative to the contingency, then, has the U.S. 
propulsion module been designed and is NASA ready to proceed 
with construction?
    Mr. Rothenberg. No, we have not expended any money. Boeing 
Corporation has done some preliminary looks at the propulsion 
module and has come in with some informal information to us, 
but we have made no steps to actually proceed with it because 
it starts incurring costs and we have enough problems managing 
costs right now on the primary path.
    Mr. Lewis. Are there additional ICMs available relative to 
contingency requirements?
    Mr. Rothenberg. No, we would have to initiate that. The 
important point here is a second interim control module buys us 
an extension in time. It does not solve the whole problem if 
the Russians totally fail to deliver----
    Mr. Lewis. What kind of an extension of time?
    Mr. Rothenberg. Again another 18 months or so. It provides 
us an option, then, to maintain role control, maintain control 
on the vehicle, but we still need to then proceed on an 
alternate for the long term of a propulsion module and then 
phase three, which will be providing habitation capability and 
other control capabilities.

                            Short-Term Costs

    Mr. Lewis. You and I talked about the what-ifs, you know, 
games that need to be played from time to time. Have you done 
some guesstimating about what kinds of relatively short-term 
costs might be added on here that we would have to be looking 
at?
    Mr. Rothenberg. Again depending on how far you go, if we 
look at the cost of the second interim control module, we don't 
have a formal estimate. Our estimate right now is somewhere 
between $70 and 100 million for the second interim control 
module. And correct me if I am wrong.
    Mr. Lewis. So what we are really saying here is that the 
contingency itself is kind of papier mache and even cost 
guesstimates relative to execution of step three, I imagine it 
is almost like playing with putty.
    Mr. Goldin. I would like to think of it as being 
conservative with the expenditure of money.
    Mr. Lewis. I understand.
    Mr. Goldin. We have tried to be very frugal, to take the 
first step and track the Russians.
    Mr. Lewis. My great concern here is that so far there have 
been all kinds of evidence that there should have been bells 
going off and that their politics, their economy, a lot of 
other circumstances have been interfering with what might be 
Russia's international priority, but I think we have to kind of 
assume that we could very well find ourselves there. Someone is 
going to be saying if you don't have those answers, why didn't 
you have them?
    Mr. Goldin. I think it would be very, very prudent at this 
point in time, and we have had these discussions in preparing 
for this hearing, that we should not wait until the end of May 
but we should be getting an activity started. Within about a 
week we will be directing the Naval Research Lab to start 
putting their costs together and getting the parts together for 
a second interim control module.
    And I think we should get some funding started at the 
Boeing Company and at NASA and other people we might want to 
look at this, to get the next level of detail so that if we 
find ourselves in a difficult situation, we will have a final 
level of detail. And I think that that is a very appropriate 
thing to do and I want to commit to you here that we will be 
doing that.
    Mr. Lewis. One of the most important elements of my comfort 
with you, Director Goldin, has been that you have had private 
sector experience and therefore you haven't been automatically 
wrapped up in what I call GGS. Some people suggest that is good 
government stuff.
    But I also find you and I kind of joining each other in 
wishing that the Russians would do what we hope they have 
committed to do. And a lot of other people have been raising 
this question in different ways and more shrilly than we have 
today.
    But I need to have you understand my concern that if this 
thing explodes and we are not prepared, haven't laid the 
foundation for funding, et cetera, it could undermine the whole 
program. You know what that does to our picture here.
    Mr. Goldin. And I think we have tried to be asconservative 
as possible in the expenditure of funds but the signal I am giving you 
right now----
    Mr. Lewis. I hear you.
    Mr. Goldin. Your concern was made very clear to those above 
me in the government, too, and I think it is time for us to 
collect the next level of detail and be ready, should the 
question come, during this summer.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. No questions.
    Mr. Lewis. Then we will move along.

                            De-Orbiting Mir

    Mr. Walsh. Let me just ask this. This issue of the Mir de-
orbiting, are there reactors on that?
    Mr. Goldin. No. None that we know of. Every time I say 
absolutely no--there are no reactors but I want to verify that 
there is no nuclear material which is, I think, the thrust of 
your question.
    Mr. Walsh. Right.
    Mr. Goldin. And we will go validate that. I believe there 
is none but we will validate that.
    Mr. Walsh. Thank you.

                          Laboratory Schedule

    Mr. Lewis. Good question.
    Assembly flight 5A will deliver the U.S. lab element in May 
of '99. There have been recent indications of a concern with 
regard to the lab schedule. Is there any validity to these 
concerns at this time? If so, what is being done to correct 
that schedule problem?
    Mr. Rothenberg. The answer to the first part of the 
question is that there has been a concern about the lab module 
schedule. There was a concern at one time we were down as much 
as two months on the schedule.
    Subsequent to that, as part of the whole Boeing recovery 
program, they developed--they brought some different people who 
had, I think, more active management experience relative to 
final assembly of something, but that is just one piece of the 
puzzle.
    But they have put a recovery program of schedule in place. 
To date they have regained two weeks out of the two months on 
the schedule. In fact, they are back six weeks. To date we 
would still say they are one and a half months behind.
    We have a series of milestones which are here relative to 
the lab module that we are tracking. One is we have a major 
software build coming out on the lab in mid-March. That was one 
of the major areas of concern, their software development 
capability.
    The second is they have at the end of March a functional 
test of their command and control software and hardware.
    Their internal lab orbit-replaceable unit--what these are, 
the black box components--installation will be done by the end 
of March.
    April 17 they have another package to install and they 
expect to have the system racks, and that is the racks that 
hold all the hardware, and we are tracking them very, very 
closely.
    They are making their milestones and meeting them. We do 
expect them to start to make up a little more of the six weeks. 
We are seeing a positive turn in their scheduled performance. 
In fact, I believe they will be there. Whether they will be 
there a week late or a month late, they will be there in about 
that time.
    Mr. Goldin. We are planning to ship to the Cape in August. 
That will be the major milestone. Again, there is a tremendous 
spirit and you can see the change in the attitude of the 
people. They are feeling much more confident now.
    Mr. Rothenberg. I have been down on the floor, met the 
people, walked through the lab module, and I do have a sense 
that they understand what they are doing.

                         Multi-Element Testing

    Mr. Lewis. What if they don't make that milestone?
    Mr. Rothenberg. I have not looked at that. I mean, the two 
months, a month or two, in that time frame, is not going to 
hurt us, but I haven't looked in detail. I think Gretchen might 
be able to answer that question.
    Mr. Lewis. Do you want to, Gretchen?
    Ms. McClain. Sure. The key thing about getting it to the 
Cape in August obviously is the multi-element integrated 
testing we have put into the program since the service module 
delay of eight months, which is an enhancement to our 
verification and testing.
    What that will do is slide that a little bit to the right, 
but we can accommodate a week or two. It makes the schedule a 
little tighter, but we will recover through arrangements and 
adjustments to our testing.
    Mr. Goldin. Let me explain the terminology she used. Multi-
element testing. We, at NASA, we have a new head of public 
affairs who criticizes us engineers for not speaking English.
    A multi-element test means----
    Mr. Lewis. I beg your pardon?
    Mr. Goldin. I sunk myself again.
    What we are going to do with this multi-element test is we 
were going to launch each of these initial pieces of hardware 
without ever preintegrating them on the ground. That was the 
redesign plan.
    One of the oversight functions that was performed by our 
advisory panel was to say they felt we had too much risk in the 
program. So when the Russians had that eight-month slip we 
decided to add this test because we had time available to take 
risk out of the program.
    So we are going to connect up the nodes and the payload 
mounting adapters and the lab and a lot of the electronic 
equipment to see that it fits and that it electronically plays 
together. And it is a very important test. And now we have 
tremendous ownership of that test and we don't want to see--
that is why we are pushing so hard that the lab not be late, to 
get that test done in time.

                    Space Station Software Schedule

    Mr. Lewis. Okay.
    For my colleagues, I had a very interesting discussion with 
Jack Gibbons instead of having a formal hearing, since he is on 
his way out here shortly. One of the issues we discussed is 
employee retainment. For example, software engineers these days 
get out of college and go to work for $45,000 or $50,000 and 
three months later they are given an offer somewhere else at a 
30 percent increase. So how you keep that capability around and 
have consistent application is a concern in many areas.
    The Aerospace Safety Advisory panel report in 1997 cautions 
that the Space Station software schedule has a degree of risk 
for which NASA has not yet found a solution. This concern 
exists even though over $30 million is being spent on a system 
integration lab. We need only to look at the Advanced X-ray 
Astrophysics Facility program for an example of what 
inattention to software development can develop.
    Mr. Goldin. What happened the AXAF facility had a software 
problem that slipped.

                           Software Problems

    Mr. Lewis. Right. What specific steps are being taken to 
ensure that software problems don't cripple the Station 
program?
    Mr. Goldin. First let me say we are looking at a national 
problem. The growth in the information industry has exploded 
and we pay limited rates of salary.
    You are absolutely right about the young people and NASA is 
a target and our contractors are a target for the computer 
manufacturers and a lot of software companies, without 
mentioning names of companies.
    Mr. Lewis. I said to my young staff, I said NASA is such a 
sexy activity; does that keep those software people around?
    Mr. Goldin. To a degree.
    Mr. Lewis. Well, my staff said take yourself back to a time 
when you were trying to buy a house and you had two kids and 
you are talking about a 30 percent increase.
    Mr. Rothenberg. Plus, one of the areas that are drawing 
them away equally to some kids is very sexy and that is games, 
the entertainment industry.
    Mr. Goldin. But keep in mind NASA still is very important. 
I will give you some positive data points. We set up a Center 
of Excellence in Information Technology inSilicon Valley and 
were told by some of the consulting companies there we are never going 
to hire because we can't pay the right price.
    We are now hiring the brightest young kids because NASA is 
the only place they can do the kind of work that we do. So 
there is the positive side.
    Secondly, the Boeing Company. This was the major area of 
contention with Boeing--software. And the $30 million you 
mentioned was Boeing investment in capital. So Boeing put that 
in. And what they are doing is they are prioritizing the Space 
Station so that they have the proper resources to meet the 
needs that we have.
    The place we have seen progress is with the Boeing software 
activity. Are we out of the woods? No, but we certainly have 
their corporate attention and we are trying to do everything 
possible to work with them in this very difficult problem.
    But if you just pick up the newspaper, article after 
article deals with it and the best we could do is to have 
Boeing say this is a priority, put their people on it, get it 
done and then get them on to other things.

                      software integration testing

    Mr. Lewis. In January a committee staff was told that 
software integration testing of the FGB service module 
configuration had been completed with success. If the service 
module falls out of the program and is replaced with the 
interim control module, will the new software need to be 
developed?
    Mr. Rothenberg. Well, that is one of the primary 
differences when we tell them whether we want to use it for the 
service module replacement or use it downstream as additional 
prop.
    Mr. Lewis. As a Progress back-up?
    Mr. Rothenberg. Additional propulsion, as a Progress back-
up. So the answer is yes, there is software, but they 
understand what has to be done. They have already looked at it 
for that. It is just a question of what they are working 
towards. And that is why it takes approximately a year from the 
time we redirect them to the time they have to complete it.
    Mr. Lewis. Mr. Frelinghuysen.

                   advancement in computer technology

    Mr. Frelinghuysen. The advance computer work you are doing, 
is that part of your operation, advancement in terms of 
computer technology?
    Mr. Goldin. Oh, absolutely.
    Mr. Frelinghuysen. What is your relationship to similar 
programs with the different national laboratories?
    Mr. Goldin. We are working with the national laboratories 
and we are taking advantage of what they have, but we are 
setting out on a program that has a 20-year goal of getting 
much higher speeds, lower powers and compactness in the 
computing. So we are dealing with what they are doing in their 
basic program and expanding beyond that.
    Mr. Frelinghuysen. Will they actually think that they are 
the leaders? My point is that if you are doing it and we always 
enjoy your enthusiasm and the excellent work of your agency but 
I just wonder whether the two sides are ever getting together.
    Some of us serve on other committees and when we look at 
the national ignition facility and the advanced neutron source, 
we wonder are these parties talking to one another?
    Mr. Goldin. Yes.
    Mr. Frelinghuysen. And is there anything you do to cement 
these types of relationships and partnerships?
    Mr. Goldin. Yes.
    Mr. Frelinghuysen. In a formal way?
    Mr. Goldin. Yes. We are intimately tied. We don't make 
bombs and we don't make bullets and we leave that to the 
Department of Energy and the DOD. We have very specific needs 
of what we are going to accomplish in the next 25 years and we 
do not replicate what they are doing. We do things that serve 
our needs that they are not already doing.
    We are not interested in playing king of the mountain. We 
don't want to waste government resources to do that. And if 
they have monies to do the things that we need to do, we love 
it and we walk away.

                        government contributions

    Mr. Frelinghuysen. Well, what portion of your budget or is 
any portion of your budget provided by DOE or DOD? In other 
words, do they contribute in any way to your bottom line?
    Mr. Goldin. No. What we do is we work cooperatively. If 
they have a specific task for us to do, like the DOD wants us 
to run an engine test for them at one of our facilities, they 
send the money, of course, to do that test. But when we work 
cooperatively, they bring their resources and we bring our 
resources.
    We found every time we try and have cooperative programs 
where we have shared budgets, the funding mechanism is 
impossible, especially during appropriations with the different 
committees. So we have learned by some difficult experiences.
    So now we agree to do a set of tasks; they do a set of 
tasks; they get funded through their system; we get funded 
through our system. But I want to assure you we work very 
closely.
    Mr. Frelinghuysen. So you are familiar with all those 
incredible programs under the title nuclear stockpile?
    Mr. Goldin. You betcha.
    Mr. Frelinghuysen. Your people are up to speed in terms of 
what they are doing, in terms of basic research, fundamental 
science?
    Mr. Goldin. And we are counting on it. We are counting on 
it. We assume that it is going to get done and we are going to 
use it.
    We cannot afford overlap in this new approach to business 
in government. I hold a coordinating meeting with General 
Estess, who is the head of the Unified Space Command, to 
assure--that is where our major interface is in government. We 
meet every six months. We have a panel of our people working 
individual issues and we are working so that we save money and 
don't have duplication. We work very hard at that.
    And our people are working with the Department of Energy. I 
have a very close working relationship with Secretary Pena. And 
the new undersecretary, Ernie Munoz, within weeks of the time 
he had gotten confirmed he and I met. We are setting up a 
series of joint meetings. In fact, we are talking about having 
a workshop on utilizing the knowledge in high energy physics to 
astrophysics and space science.
    So this is an area I know you are very sensitive to and we 
do not want to have overlap. We want to complement the 
activities and I think we are well on our way to doing that.
    Mr. Frelinghuysen. Thank you for that reassurance.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    Mr. Walsh.

                        reusable launch vehicles

    Mr. Walsh. Mr. Chairman, thank you.
    We talked about the satellite application for 
communications and there are people with ideas about low earth 
orbit satellite application for telecommunication, data 
communications, all sorts of communications.
    There was a story on television the other day about the 
evolution of air traffic control, that radars have blind 
spots--the President's plane, for example--the application of 
satellites in air traffic control and obviously the defense 
application and I am sure there are dozens of other 
applications.
    You have said one of the problems that we have to overcome 
is the cost of lifting these things up into low earth orbit. 
What sort of progress has been made on reducing costs, better 
rocket engines, if you could comment.
    Mr. Goldin. I would be pleased to. We have a very good 
program in the area of reusable launch vehicles. We are on our 
way, in 1999, to having a flight test of what we call the X33, 
which is a single stage-to-orbit. Unlike the Shuttle, which has 
the strap-on solid rocket boosters, then the drop-away external 
tank, this machine is almost all composite. In fact, we are 
building the hydrogen tanks out of a graphite epoxy material, 
not out of metallics. We are using----
    Mr. Lewis. Just very briefly because while it is really 
interesting----
    Mr. Goldin. The answer is yes.
    Mr. Walsh. I am satisfying my curiosity rather than doing 
my job.
    Mr. Goldin. I will come to your office and I will give you 
a briefing on the subject. But the answer is yes, we are 
working.

                         mega merger companies

    Mr. Walsh. The additional question that you could maybe 
prepare for is with all of these mergers going on, are you 
getting concerned at the choices you have are? Are the 
competitive aspects of this a problem?
    Mr. Goldin. We have reviewed each of the mergers that have 
taken place so far and we have found both Boeing and Lockheed-
Martin to be incredibly responsive. In fact, sometimes I think 
they are so worried about not performing, they sometimes overdo 
it. They have really tried to be responsive.
    We have not had a situation yet where they wouldn't bid. We 
are having real good competition between Boeing and Lockheed-
Martin. And even on a little program like the $62 million lunar 
prospector, a multi-billion-dollar corporation paid attention 
to it and, at our request, took the extra time, took the extra 
money to make sure it came out right.
    So I am very pleased with the performance of the big 
megamerger companies that we are working with.

                         international partners

    Mr. Lewis. We are going to have a series of votes here in a 
moment. The first vote is 15 minutes and then I am not sure 
whether we will have one or two five-minute votes but we will 
go forward just a little more here.
    We talked a lot about our concerns relative to Russia, 
commitments, et cetera, et cetera. It would not be appropriate 
for us not to spend a moment at least talking about our other 
partners, since they have dollars committed but concerns and 
interests along the same line of questioning.
    Is there any reason to be concerned that future delay in 
the Station would cause any of our partners to withdraw from 
this international effort?
    Mr. Goldin. It is hard to answer a hypothetical situation 
but I can tell you I have just spent a week in Germany, a week 
in Italy, a week in France, a week in Japan and I plan on 
spending a week in Canada, just to understand where they are 
at.
    Our partners feel very strongly that it was an important 
step to bring the Russians into the program. They were and are 
extremely supportive at the highest levels of their government 
about bringing Russia in.
    They also told the Russians at the heads-of-agency meeting 
in Japan about six months ago that here we had an eight-month 
slip; they expected the Russians to do what they said they were 
going to do.
    I believe it will be difficult and depending upon what the 
Russians do, under most circumstances I believe the alliance 
will stay together but I can't speak for these people. But what 
I can tell you for sure is that they did and do believe having 
the Russians in the program was the right thing to do.

                           schedule problems

    Mr. Lewis. Well, it sure seems to me, and I am not sure it 
is appropriate that we discuss this on the record at this 
moment but it sure seems to me that if we find a major schedule 
problem crystallizing out there in the near term that we 
presently don't expect, I would sure like to know about it and 
I think the rest of my colleagues would like to know what your 
thinking relative to the reaction of each of those.
    Mr. Goldin. This is why, although we haven't had a chance 
to set up a heads-of-agency meeting, we want to consult with 
our partners before we make decisions and recommendations. So 
during May we intend to have a heads-of-agency meeting to 
answer that very question so that both we and the Congress 
would not have uncertainty about where our partners stand. We 
want our partners to work with us on all decisions. And I 
expect in the next few days we will be coordinating exactly 
when that meeting will be. We want to share with them all the 
information.
    So rather than my speculating, I can come back and report 
to you that this is what the heads of agency said at our 
coordination meeting.
    Mr. Lewis. When we return I expect that we will spend a 
little time on the supplemental, if that is okay with you 
gentlemen.
    Do you have any additional questions now?
    We might wander upstairs and let you have a little break.
    [Recess.]

                    transfers from various programs

    Mr. Lewis. We will come back into session.
    Mr. Goldin, the fiscal year 1998 supplemental proposes the 
transfer of $173 million from various programs in the human 
space flight account for Space Station. The following question 
requests more detail on the programs from which funding will be 
taken.
    We have already had discussions about the science programs 
but first a reduction of $50 million for the space science 
program is described as savings made possible from changes in 
the process for awarding research grants. Please explain how 
the process is being changed and how it results in a $50 
million reduction in funding requirements.
    Mr. Goldin. I would like to ask Malcolm to give you an 
answer.
    Mr. Lewis. Mr. Peterson.
    Mr. Peterson. The issue that we have been dealing with with 
the academic community and our own procurement staff for some 
time has been the fact that their obligation pattern with the 
new money that you provide to us has had those obligations 
taking place either late in the year or often using that money 
in the next year to cover grants that would be awarded, say, in 
this year, late 1998, late fiscal 1998.
    What we asked them to do was to go through their analysis 
of what they needed to fund their grants in '98 based on 
looking at a revised procurement process. And it is the 
revision to that procurement process that we believe enables us 
to make this money available.

                        uncosted carryover funds

    Mr. Lewis. We have discussed uncosted carryover funds. What 
is the current value of the uncosted carryover and how much of 
the balance do you believe is available for transfer?
    Mr. Peterson. Well, sir, depending on which account----
    Mr. Goldin. The space science account.
    Mr. Peterson. If you take the space science account----
    Mr. Lewis. Earth sciences, too.
    Mr. Peterson. All right. Space science account came into 
fiscal 1997 with $799 million of uncosted resources forwarded. 
With the $50 million reduction and with their cost plan that 
they have, they will leave the year at $532 million. So there 
will be a significant reduction in their uncosted carryover 
going out of the fiscal year.
    That amount is still, however, sufficient. As a matter of 
fact, we have looked downstream to having process reforms that 
will allow us to get that uncosted carryover for them down to 
something closer to $400 million. We think that is about two 
months worth of uncosted resources authority at the end of the 
fiscal year. That is about as close as we want to bring it in 
aggregate.
    Now in earth sciences, they came into fiscal 1998 with $697 
million of uncosted authority and will leave fiscal 1998, after 
the $50 million transfer, with $502 million.
    We believe, sir, that the funds are available. They do 
require us to do things in the grants area and other things, to 
manage our money more tightly, if you will, but I think it is 
well within our capability to do that.

                      high speed research program

    Mr. Lewis. Thank you.
    The high speed research program within aeronautics research 
is slated for a $13 million reduction. What portions of the 
program are being deferred to accommodate the reductions?
    Mr. Goldin. Let me take that. I didn't get a chance to talk 
to Mr. Stokes about the aeronautics program. He had asked that 
question, what we were doing.
    We have reviewed the aeronautics program and have made a 
conscious decision to prioritize working on the engine first 
for high speed civil transport because that is the critical 
technology. And, in fact, we started up in this year's budget 
the high speed research program 2A with the intention of 
building validation hardware of an engine to prove that we are 
on the right track to cut emissions, cut noise and get fuel 
efficiency up.
    We felt that some of the air frame work, however necessary, 
ought to be delayed a bit because you want to get the engine 
going before you do the air frame work. In fact, in later years 
we are going to take more money out of or delay the air frame 
work, and that comes to the prioritization that we made. We 
were trying to do too many things at once.
    So we are focussing on the engine, doing a limited amount 
of air frame work, and that is where the money is coming from.

                       personnel cost reductions

    Mr. Lewis. Personnel costs are reduced by $15 million, 
reflecting savings from the most recent employee buy-out 
program. Originally in fiscal year 1998 that request should 
have reflected personnel savings as a result of the buy-out 
which was authorized in the 1997 appropriations bill. What 
happened to the change in your estimate on the number of 
employees leaving as a result of the buy-out?
    Mr. Peterson. Well, sir, basically we elected, as an 
agency, to try to take as many buy-outs as we possibly could in 
this time frame, through '97 and '98, so as to stabilize the 
work force as quickly as possible.
    Now, what that meant was that we actually overshot 
ourtarget reductions in '97 and will do so, I hope, again in '98, so 
that this freed up savings that we had not counted on when we built our 
fiscal '98 request.
    Mr. Lewis. So what are the personnel levels for '97 and 
projected in '98?
    Mr. Goldin. While he is looking that up I want to state the 
policy we have. We have been successful so far in voluntary 
downsizing at NASA and I am going to do everything humanly 
possible to assure that and the buy-out is a major tool that we 
have. We are going to try real hard to, as fast as possible, 
work with our employees so that as many take the buy-out as a 
voluntary means of separation. And we are going to try to get 
down to a 17,500 employee level without having any forced lay-
offs. This will be a major accomplishment.
    I feel strongly about that. Coming from industry where I 
watched 1,500 employees laid off, I don't want to go through 
that if I don't have to.
    Mr. Lewis. Especially seeing what it does to the whole 
psyche of the whole organization.
    Mr. Goldin. You hurt people for years.
    Mr. Peterson. The numbers, sir, are 19,364 Full-Time 
Equivalent on average for fiscal '98. These are our actuals--
and you can see how we have tried to track under these numbers. 
These are the targets we have set for ourselves budgetarily.
    So we want to get down as far as possible toward this 
number so that we can stabilize the workforce over a period of 
years.
    Mr. Lewis. That is helpful. Would you put in the record, as 
well, the end strength numbers quarter by quarter as you are 
projecting them through '98?
    Mr. Goldin. Sure.
    [The information follows:]

FY 1998 Projected Equivalent Heads

Beginning of Year.............................................    19,500
1st Quarter...................................................    19,200
2nd Quarter...................................................    19,000
3rd Quarter...................................................    18,875
4th Quarter...................................................    18,750

                      FY 1998 Funding Requirements

    Mr. Lewis. The fiscal year 1998 appropriations for Space 
Station and related activities within the human space flight 
account is $2,351,300,000. In addition, we have recently 
received a supplemental request to relocate $200 million from 
other NASA programs in fiscal year '98, $27 million from the 
Shuttle program, $173 million from other programs.
    If the Station launch schedule changes and no actions are 
taken to implement any of the contingency plans, what will be 
your funding requirements in fiscal year 1998?
    Mr. Peterson. Well, sir, let me just try to take a moment 
on the Shuttle program.
    Mr. Goldin. Let me answer the basic question before you go 
to the Shuttle.
    Mr. Lewis. Yes.
    Mr. Goldin. Even if the service module is delayed, we are 
going to continue to build the hardware. We believe the right 
thing to do is to continue to get the hardware done and even if 
it's in shipping containers, get it built and get the people 
off the program.
    So we do not want to delay what we are doing with our 
hardware activities in the broadest sense. Managing the 
schedule is probably the best tool we have and we want to 
continue that. We want Boeing to come down their destaffing 
plan. We want NASA to come down their destaffing plan and their 
subtier suppliers. So we want to proceed forward and not delay.
    Mr. Peterson. In the Shuttle program, sir, we have taken 
out of their budget request that we gave you just a couple of 
years ago $245 million, which is a significant--we took it out 
of their uncosted budget authority. We asked them to manage a 
great deal tighter.
    They are, I think, pressed to the appropriate point of 
pain, at least from a Comptroller's standpoint. And if they, in 
fact, do not launch in 1998, what I suspect will occur is that 
I will see some minor savings from reduced overtime and reduced 
propellant consumption requirements, but I will not see a major 
reduction in either the obligation requirements or the cost 
plan other than these savings.
    We have given USA, as you are probably aware, an ambitious 
destaffing plan and they are actually going to be able to use 
this period of low launch activity to accomplish that 
destaffing in a way that maximizes the safety of the system. So 
I don't see any large savings coming, sir.
    Mr. Lewis. If the service module schedule continues to 
deteriorate and a decision is made to proceed with launch of 
the interim control module, step one contingency, what will be 
the funding requirements for 1998?
    Mr. Peterson. I believe, sir, and I am going to presume for 
a moment the transfer authority and I will speculate based on 
the earlier discussion----
    Mr. Lewis. I presume with that presumption there will be a 
lot of communication between authorizers and appropriators.
    Mr. Peterson. With the transfer authority I believe that we 
will have the obligational capability in the Space Station 
budget to turn on any contingency measures within reason that 
we are currently looking at. What that will do, however, let's 
hasten to add, is because it will then essentially consume a 
significant amount of reserves, it will affect our fiscal '99 
posture.
    Mr. Lewis. Is there any scenario under which the fiscal 
year 1998 funding requirements will be less than $2,541,000,000 
plus?
    Mr. Peterson. Yes, in terms of funding requirements needed 
to cover the obligations of the program, I believe that we 
would not require all of the $200 million, absent the 
stipulation that Dan and all of us will give you, that we turn 
on any work like the ICM.
    The real issue has been and will continue to be a matter of 
the level of reserves available to the program manager to take 
such actions as he needs to without concern over the fiscal '99 
consequences.
    Well, what I have as a concern basically is that we have a 
set of actions that we are proceeding in '98. We are doing 
better than some had feared. However, the '99 budget assumed 
that $200 million was not eaten up during '98.

                        Node One Shuttle Flight

    Mr. Lewis. If the launch of node one is delayed beyond the 
end of fiscal year '98, does NASA have any plans to use the 
node one shuttle flight for other purposes?
    Mr. Rothenberg. We are currently looking at the overall 
Shuttle schedule. We really want to see where we are in May 
with the service module. That is the critical point.
    AXAF, as you know, right now has manifested for December 3 
or no earlier than December 3.
    We are examining the possibility of another Neurolab, a 
reflight of Neurolab, which is the science requirement as one 
option for taking up any slack in the Shuttle flow, should we 
get it, to take advantage of it.
    All of this really hinges on if the service module is going 
to be ready for December launch or even a February or March 
launch. At that point we need to just get forward with getting 
the node up there and protecting the downstream schedules.
    Mr. Lewis. So you are doing some of that what-if?
    Mr. Rothenberg. Oh, absolutely.
    Mr. Goldin. By the way, this is a place where I think the 
Office of Space Flight has done a very good job of what-if 
because we signed a contract, in NASA Johnson, we have signed a 
contract with Spacehab for the launch of STF95 which occurs 
this October and four options. And the reason for those four 
options is it gives us flexibility to move things around and 
have them accommodate us.
    So Joe and his team is working around and the key to it is 
to be able to get the cycle time down in processing the Shuttle 
to give us more flexibility.
    Mr. Rothenberg. I do want to add one thing on this. It is 
important. I am convinced in my own experience and I think 
everybody in this room has had the experience that things are 
not going to go as expected when we start to put things on 
orbit. We are going to learn something with the very first 
flight that we are going to factor into the second flight.
    So we are not willing to give up moving the node even if 
the service module slips way out. We are looking at how early 
can we get the node and the FGB up there while not giving up 
too much of this margin because it has a definitive life--it 
has a life--and learn something from it that we can factor into 
the U.S. lab and, in fact, the service module launch and 
activities.
    The earlier we were able to do that, the less potential of 
that causing some other schedule or cost problem. So we are 
trying to keep the pressure, to keep that node sometime this 
year, this fiscal year if at all possible and if not, maybe 
into November, even with the ICM contingency option because I 
think we will learn a lot from that.
    Mr. Goldin. I might say that the place where we have a 
maximum concern, we are getting a very good confidence in 
building the hardware. We are getting a much higher level of 
confidence. In spite of the funding problems, we have developed 
a tremendous operational relationship with the Russians in 
logistics.
    One place that I am worried most about, as are a number of 
folks in and outside of NASA, is we are going to have 47 
launches from four different launch sites with this system. How 
are we going to handle the flexibility of dealing with problems 
as they occur? And this is where we just don't have enough 
experience to be able to quantify it. And that is why what Joe 
was saying is important. We want to get stuff up there as soon 
as possible to learn.

                            Station Funding

    Mr. Lewis. The budget request for Station funding in 1999 
includes $1,055,000,000 plus for development, $840 million plus 
for operation, $374 million for the research program.
    Will this funding requirement change if supplemental 
requests, the request of $173 million is denied? If so, how 
will it change?
    Mr. Goldin. I will take that, Mr. Chairman. Yes.
    Mr. Lewis. If so, how would it change?
    Mr. Goldin. To the best of our knowledge today, if we don't 
have the funding of the $200 million in '98 we will need the 
$200 million in '99, knowing what we know today.
    Mr. Lewis. I outlined development, operations and program. 
Which elements will change?
    Mr. Goldin. I think the biggest risk right now is in 
development. That is where two-thirds of the money is. But we 
will have some issues.
    Joe, let me just take a shot at this. Two-thirds/one-third?
    Mr. Rothenberg. Your guess is as good as mine what the 
impact will be, although I do believe there will be some 
development runs and the reason is we have a lot of effort in 
there now and that is where the problems are going to occur 
that we can't cover.
    Mr. Lewis. That is another what-if subject area and I urge 
you to look at these scenarios and help us understand them.
    Mr. Goldin. Mr. Lewis, just to provide some perspective, if 
you take a look at how we are going to spend the money over the 
next five years, at the end of 1998 there will be about $2 
billion left of development money, $9 billion worth of 
operations money, to give you a sense as to where we are and 
why we want to drive getting the hardware and software done.

                          Uncommitted Reserves

    Mr. Lewis. Okay. What was the value of uncommitted reserves 
at the end of 1997?
    Mr. Goldin. Mal.
    Mr. Peterson. Let's see.
    Mr. Lewis. The General Accounting Office gave us the 
figure.
    Mr. Peterson. Space Station had $184 million of uncosted 
carryover at the end of fiscal '97, excluding the U.S.-Russian 
cooperation activity and in that account, normally we would 
have set a minimum carryover. It would have been the bare 
minimum. It would have been about $60 million. So we exceeded 
that, leaving us about $120 million to the good.
    Now, the carryover number I gave you does not include 
research money that was previously appropriated through the 
Science, Aeronautics and Technology appropriation.
    Mr. Lewis. We are talking about total reserves here.
    Mr. Peterson. Yes, but what I am getting to is that money 
is not available for anything but those purposes.
    Mr. Lewis. The question was what was the uncommitted 
reserve at the end of '97 relative to the $3 billion?
    Mr. Peterson. To talk uncommitted, sir--I am sorry; I now 
realize the error of my ways.
    Mr. Lewis. Uncommitted. I may not have said that.
    Mr. Peterson. We added a good deal of money in the '99 
budget process to restore program reserves. Without those 
reserves being restored we would have had negative estimates of 
reserves at different points during the ensuing years.
    In other words, you look at '98 and you take a look then at 
'99. If we had not added roughly $160 million in reserves in 
'99, we would have had, against our availability, a deficit in 
terms of uncommitted reserves.
    Mr. Lewis. I don't think we are quite getting to the 
question. Let me refine it for you one more time because my 
schedule is running here. I will ask a series of questions for 
the record in connection with these reserves.
    Mr. Stokes.

                         space station assembly

    Mr. Stokes. Thank you, Mr. Chairman. Just a couple of 
questions more.
    Mr. Goldin, does NASA still intend to operate the 
International Space Station for 10 years after assembly is 
completed or only until the year 2012, regardless of when 
assembly is completed?
    Mr. Goldin. We intend to operate the Space Station until 
June of 2012, at which point in the President's guidance and 
redesign, we will have a national peer review to establish is 
the Station meeting its commercial objectives, scientific 
objectives, educational objectives, its cost objectives, and 
factor that into a decision process: do we go for another 10 
years?
    This is a very different program. We said that we would 
just not give it a 30-year life without testing it every 10 
years.
    So sometime before June of 2012 there will be this national 
peer review to establish whether it met its goals and one of 
the decisions could be the U.S. government has satisfied all 
its needs but the commercial industry wants to use it or we 
might just say it will be a commercial operation and the U.S. 
government will just rent some space. Or there could be a 
decision made that the U.S. government found everything it 
needs to find out so we are ready to shut it down.
    This test date is not going to change. That is why I made 
the statement earlier saying after you look at that initial 
$1.8 billion that we put into the budget, we are not adding any 
more money to the budget because we are holding tight to that 
peer review in June of 2012.

                  space station annual operating cost

    Mr. Stokes. You may want to put the next question in the 
record, which will be fine if you want. I would like to know 
what is the latest estimate of annual operating costs? How is 
the estimate divided among the international partners in the 
program? And explain the reasons for any variances from the 
1993 estimate of $1.3 billion in annual operating costs. You 
may want to do that now or in the record.
    Mr. Goldin. We could do it in the record but simply put, we 
have not changed our assessment of $1.3 billion for a year. And 
we are working with our international partners and for the 
record we will answer it but they are giving us in-kind goods 
and services in some cases. So we will be able to answer that 
question for you.
    [The information follows:]

                  Space Station Annual Operating Cost

    The estimated operations cost to NASA of the space station 
for 10 years is $13.0 billion, which is an average of $1.3 
billion a year. The U.S. and Russia have agreed on an equitable 
balance of contributions to support ISS operations in place of 
an exchange of funds. The other International Partners (IPs), 
Canada, Japan, and the European Space Agency, will be 
responsible for a percentage of the common systems operations 
cost of the ISS equal to their share of ISS utilization 
resources. NASA has stated to its partners that it is willing 
to negotiate offsets to common systems operations costs in 
return for additional services which the IPs could provide 
which would be of benefit to NASA.

                 commercial action of the space station

    Mr. Stokes. What is your current thinking regarding when a 
commercial operator could take over control?
    Mr. Goldin. Mr. Rothenberg is in the process of developing 
a commercialization plan for the Space Station, the first draft 
of which will be available in August of this year. And parallel 
with that we are working with a company called Spacevest, a 
venture capital firm, where we have signed a cooperative 
agreement in seeking their help in bringing in these small 
high-tech firms into the equation.
    We are working with a consultant in Boston who is an 
investment banker, also consulting with us. And I might 
indicate that Spacehab is already commercializing it because 
they have invested $250 million of their own money in support 
of logistics for the Space Station and other operations.
    Mr. Lewis. We may want to spend some time in August 
discussing that with Mr. Rothenberg.

                           planned crew size

    Mr. Stokes. That would be a good idea, Mr. Chairman.
    You mentioned this morning that your planned crew size for 
the Space Station had been six and now it is seven. Is that 
correct?
    Mr. Goldin. Yes. As soon as we get the crew return vehicle 
up.

                           cost implications

    Mr. Stokes. What are the cost implications both for the 
crew recovery vehicle program and for operating costs?
    Mr. Goldin. The crew return vehicle, I believe our estimate 
within the '99 to 2003 is $670 million and in the full run-out 
it will be $792 million. Did I get that right, Malcolm?
    Mr. Peterson. 626 through 2003.
    Mr. Goldin. 626 through 2003. I stand corrected.
    And in terms of operations, we believe at the present time 
it will be contained within the operations budget, a full 
review. We are waiting for the results of the completion of the 
testing we have going on this year on the X38 and final 
assessments to validate these numbers that I gave you. At the 
end of this year we will validate it.

                           habitation modules

    Mr. Stokes. Now, it is my understanding that NASA's current 
plans calling for habitation module are under review and the 
alternative called transhab is an inflatable module which some 
estimates indicate could save considerable funds, possibly as 
much as $100 million. Can you bring us up to date on that 
issue?
    Mr. Goldin. We have an effort going on right now at the 
NASA Johnson Space Center to utilize new technology that would 
allow us to give us better space debris protection, give us 
more volume and potentially save $100 million. We should have 
this work completed by the end of the year and that will give 
us enough time to make a decision and have the transhab module 
up there at the point in time we have planned for the present 
hab module.
    Mr. Stokes. Are there risk aspects in this?
    Mr. Goldin. We are looking at the risks and we will not 
proceed forward if we are not satisfied that we have reduced 
the risks to an acceptable level.
    But strange as it seems, using an inflatable gives you more 
protection rather than less protection against micrometeors and 
space debris, and we could explain the physics in an off-line 
discussion.

                     equal employment opportunities

    Mr. Stokes. Mr. Chairman, I have to wind down but I can't 
close without a couple of questions here on one of Mr. Goldin's 
and my favorite subjects. I think he knows where I am going.
    We have talked often times about the provision in the law 
relative to equal employment opportunities, particularly for 
minorities and women, and you have been a leader in this area. 
I have quoted you all over the country. I have used you as an 
example of an agency head who understands what this law means, 
not only to the individuals affected but to the nation. I would 
like for you to talk a little bit about what you have done 
recently so that we have it on the record.
    Mr. Goldin. We are very proud that at NASA the only 
limitation one has is the ability within the human being and 
the desire. I believe, if the numbers are correct, we have 
doubled the number of minority Americans and women in our 
senior executive service. I will validate it for you but I 
think we are awfully close to that.
    [The information follows:]

                                       MINORITY AMERICANS AND WOMEN SES's                                       
----------------------------------------------------------------------------------------------------------------
                                                                                                 FY 98 (1st. 6  
                                 FY 93        FY 94        FY 95        FY 96        FY 97          Months)     
----------------------------------------------------------------------------------------------------------------
Minorities..................           32           46           48           51           45                 47
Women.......................           31           42           49           51           55                 57
----------------------------------------------------------------------------------------------------------------

    We have contracted with small minority- and women-owned 
business to the point that it now makes up 14.4 percent of our 
total procurements. That is a doubling from where we were five 
years ago. The performance of these contractors is outstanding 
because they have to compete for the business and we feel we 
have brought the best of the country into it.
    We have also set up a research program--I can't remember 
the exact name; I will get it for the record--where we are 
funding minority-serving institutions. Last year we had a 
conference in New Mexico. We had 400 researchers come. This 
year we have the conference in Alabama; we had over 500 
researchers come. The papers are cutting edge research and we 
are now involving a broader section of America inside of the 
space program, again through peer reviewed research.
    We are proving that if you cast the net widely, there is no 
boundary to innovation and to enthusiasm and participation on 
the part of the American public.
    Mr. Stokes. I appreciate that and please feel free to 
expand upon this question.
    Mr. Goldin. I will get the exact numbers. Malcolm cringes 
when I give numbers because he needs to have it precise and we 
will get it precise for the record.
    [The information follows:]
    NASA University Research Centers (URC) at Minority Institutions
    The name of the research program is the NASA University Research 
Centers (URC) at Minority Institutions. This program is designed to 
achieve a broad-based, competitive aerospace research capability among 
the Nation's Minority Institutions that will: foster new aerospace 
science and technology concepts; expand the Nation's base for aerospace 
research and development; develop mechanisms for increased 
participation by faculty and students of MI's in mainstream research 
and increase the production of socially-and economically-disadvantaged 
students, who are US citizens and who have historically been 
underrepresented, with advanced degrees in NASA-related fields.
    The URC's are multidisciplinary research units established at 
minority institutions to focus on a specific area of NASA interest. 
Currently, NASA supports URC's at 11 Historically Black Colleges or 
Universities (HBCU's) and 3 Other Minority Universities (OMU's). Recent 
URC accomplishments include: (Academic Yr. 9/96-8/97)--
    262 Faculty members and research associates conducted NASA-related 
research at URC's.
    190 degrees were awarded, including 106 Bachelor's Degrees, 76 
Master's Degrees, and 8 Doctoral Degrees.
    451 Referred papers and/or book chapters were published or accepted 
for publication, including 152 students as authors or coauthors.
    642 Technical presentations were given, including 210 by students.
    11 Patents were awarded, applied for, disclosed.
    10 Commercial products were under development.
    Mr. Stokes. Thank you, Mr. Chairman.

                       Chairman's Closing Remarks

    Mr. Lewis. Thank you. I appreciate it. I would have 
extended this discussion, this specific discussion a little 
more but unfortunately, I am due at a meeting I am supposed to 
chair up the hill in about five minutes.
    In the meantime, my remaining questions float around the 
$17.4 billion figure. We had, I think, adequate discussion of 
that earlier today. You know the priority that we are giving 
it, in no small part because that is where the questions are 
going to be coming to us.
    We will be coming back together with NASA near the end of 
the month, as I remember. In the meantime the meeting is 
adjourned until the Committee comes back into session next 
Tuesday at 10:00 on Veterans Affairs.
    Mr. Goldin. Mr. Lewis, could I just add that we will 
develop written responses for the record on this subject 
written in clean, plain English.
    Mr. Lewis. We appreciate that.
    Mr. Goldin. Very understandable. It is a complicated 
subject.
    Mr. Lewis. Thank you very much.


[Pages 85 - 94--The official Committee record contains additional material here.]



                                           Tuesday, March 31, 1998.

                       Chairman's Opening Remarks

    Mr. Lewis. The meeting will come to order.
    Good morning, Mr. Goldin.
    Today we welcome Daniel S. Goldin, the Administrator of the 
National Aeronautics and Space Administration to the 
Committee's hearing for the 1999 Fiscal Year budget request. I 
would like to say to all those who are in the audience, if we 
are able to, we are going to go through our questioning process 
asking the Director to respond to questions that are not 
formally presented for the record. We may be able to finish 
this afternoon. If that works out, it will be a benefit to 
everybody's schedule, including Mr. Stokes.
    The NASA budget request for 1999 is $13.5 billion, a 
decrease of over $100 million from the 1998 appropriation. 
Included in the 1999 request is funding for eight Shuttle 
flights compared to five flights for 1998. Most of these 
flights are currently oriented to assembly of the International 
Space Station.
    In addition to Shuttle flights, the NASA programs for Space 
and Earth Sciences includes a significant increase in 
spacecraft launches compared to those planned for 1998. These 
are only two of the many variables which influence the Agency's 
budget, but are probably the most visible indicators that NASA 
is working hard to execute its science mission.
    Mr. Goldin, we will print your entire statement in the 
record. As I have indicated, I certainly hope that we can 
expedite this hearing today. Before we have your comments, I 
would like to call upon my colleague, Mr. Stokes, for whatever 
remarks he might have.

               Ranking Minority Members' Opening Remarks

    Mr. Stokes. Thank you very much, Mr. Chairman. Welcome back 
before the Subcommittee, Mr. Goldin. I notice that NASA is now 
gearing up to celebrate its 40th birthday, and I believe also, 
Mr. Goldin, that you are now the longest serving Administrator 
in the Agency's history, correct?
    Mr. Goldin. I think I am a little bit away from that. 
Tomorrow is my sixth anniversary.
    Mr. Stokes. Tomorrow is your sixth anniversary. You have 
had quite a tenure, and exhibited a great deal of resiliency, I 
would say, too, in this position. But just on behalf of this 
Ranking Member, I want to say it has been a pleasure working 
with you, and I look forward to discussing some of the issues 
of concern that I have relative to the Agency as you provide 
your testimony for the Subcommittee this morning. Thank you, 
Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Stokes. We will do everything we 
can to give you your sixth anniversary off.
    Mr. Goldin. I would like it.
    Mr. Lewis. Mr. Goldin, I indicated we would include your 
testimony in its entirety in the record. So, Mr. Goldin, 
please.

                 Administrator Goldin's Opening Remarks

    Mr. Goldin. In the spirit of expediting this session, I 
would like to make a three- or four-minute opening statement.
    Mr. Chairman, distinguished Subcommittee Members, I am very 
pleased to speak with you again today to discuss the 
President's proposed Fiscal Year 1999 Budget for NASA.
    NASA continues to bring a strong sense of commitment and 
conviction to making our budget work, with doing more with 
less, and with doing what we say we will do.
    Americans have a lot to feel good about, including the 
Space and Aeronautics Program. Programs like the Mars 
Pathfinder and the Lunar Prospector made Americans proud, and 
fired the imagination of young and old alike across the globe.
    From fiscal 1993 to fiscal 2003, NASA's total budget 
requirements have continued to come down. We have made our 
budget challenges work for us. We are pleased that we helped 
the President achieve his historic zero-deficit budget.
    We are a high-performance Agency, and our budget cuts have 
not changed that. Nothing says it better than this--the fiscal 
1999 budget is nearly flat--actually down from 1998, yet we 
have ten new programs that we are proposing to start.
    In the area of aeronautics, last year the aircraft 
Pathfinder soared 71,530 feet above the island of Kauai, 
setting a new world record for propeller-driven subsonic 
aircraft. We will be shooting for 800,000 feet this summer and 
100,000 feet in the next year or two. This capability will open 
up exciting new possibilities for research and commercial 
applications for remotely-piloted vehicles for American 
companies.
    In the area of Earth Science, you will notice that the 
budget is lower in its five-year projection than last year. 
There is good reason for that, a reason we are very proud of. 
We now have lower-cost spacecraft that meet or exceed our 
toughest requirements. This lower budget not only fully funds 
our current programs, it provides funding for two new programs 
and complements a third.
    In addition to doing more for less in the initiatives I 
have mentioned, we are also developing a balanced Space and 
Aeronautics Program. In fiscal year 1992, human space flight 
was 48 percent of our budget. Science, aerospace, and space 
transportation were 31 percent. In fiscal year 1999, human 
space flight will be 38 percent, science, aerospace and space 
transportation will be 43 percent.
    We feel good about where NASA is today, and where the 
Agency is going. We are confident and we are proud of what we 
have done. We will be working closely with you and this 
Committee on all aspects of our budget, especially the 
International Space Station.
    As I testified on March 12, the United States and the 
majority of our international partners are making excellent 
progress in our preparations for launch and assembly. We are 
moving with confidence towards first element launch this year.
    We are also carefully monitoring the progress of the 
Russian government in allocating funds and Russian progress in 
the integrated testing of the Service Module. As I testified 
earlier this month, these will be key factors on which we will 
base decisions regarding adjustments in the ISS assembly 
sequence and configuration, decisions we expect in May.
    Today, with the exception of $100 million that the Congress 
gave us, we have accommodated all the additional space station 
requirements within our budget and, at the same time, Mr. 
Chairman, we have strengthened all other enterprises.
    The women and men at NASA are doing an extraordinary job, 
and I want to thank them. I am very proud to be their leader. 
They are more than good scientists and engineers, they are good 
managers who are doing more for less, and they are good people, 
some of this country's best.
    I also want to thank America's brave astronauts and all the 
people who support them, they do an incredible job. And last of 
all, I want to thank you, Mr. Chairman, and your Committee, for 
your support and help.
    Our mission is to pioneer the future to open the air and 
space frontiers, to explore new worlds, and enrich life here on 
earth.
    And I would like to close by reading a letter I just 
received from a young student. It says, ``Dear Sir, I'm writing 
to commend you on your excellent work on the International 
Space Station. I just finished writing a report on space 
colonization and I think launching an International Space 
Station is a bold step in the direction of space colonization. 
Your administration's accomplishments along with other space 
agencies around the world will pave the road for tomorrow. 
Thank you for taking the time to read my letter. Charles Van 
Hee, Eighth-Grader at the Mill Middle School''. This is what we 
are about.
    [The information follows:]



[Pages 98 - 126--The official Committee record contains additional material here.]



                         russian participation

    Mr. Lewis. Well, Mr. Goldin, that letter sets the stage for 
a number of items that are foremost in my mind and I think of 
concern to the Committee. Earlier this month, you appeared 
before this Committee to address issues regarding the Space 
Station. While we have already covered many of the questions of 
a pressing nature, nonetheless there are questions that 
persist.
    I know that neither you or I would pretend to be an expert 
in Russian politics but, nonetheless, the international 
partnership is very important to the Space Station's success. 
Should that falter, it could have a huge impact upon America's 
responsibility and our ability to carry forward that 
responsibility in a funding sense.
    So, with that, the last time we were together, you had just 
had serious discussions with the Vice President as well as 
Chairman Yeltsin, and we were all encouraged by those 
discussions. Now there is a change of scene. And while we do 
not have expertise as I suggested, nonetheless, I am sure there 
are internal discussion that we ought to hear about on the 
record.
    So, would you let us know what the prospects are from your 
perspective, of Russian participation and their priority in 
terms of the funding commitments they have made?
    Mr. Goldin. I cannot give you a lot of detail because we do 
not have them, but there is one point that I could respond to, 
and that is the fact that just at about the same time when 
Russia underwent a government change, they disbursed an 
additional $15 million to RSA from outstanding FY 1997 ISS 
funding, and I think that was a signal that they were trying to 
maintain continuity in the change of Government. I do not know 
how to extrapolate beyond the fact that they put some more 
money in to drawdown the backlog from 1997 that they delivered 
a portion of the equipment that they committed to deliver by 
March 30--and Joe Rothenberg will outline specifically what 
they have done and where the rest of the equipment is.
    They have continued to make progress on all their hardware, 
and there seems to be no slowing up. So, we still get good 
signals on the shop floor, but we wait for a real signal from 
the Russian government, and I think it is too soon to be able 
to make a statement about whether the new Prime Minister is 
committed to space until he is confirmed by the Duma. But all 
the signals we have been receiving say that there should be 
continuity, but we will reserve judgment on this until we see 
how this develops.
    We are still going to maintain our plan to have our 
decision processes in place during the month of May, as I 
outlined at our last hearing. We are planning to have the 
people go to Russia on the dates we indicated. There will be 
the General Designers review at the end of April, and we will 
be conferring with the Russians sometime during the month. And 
then towards the end of the month, we will be meeting with our 
international partners and, by the end of the month, we should 
have a decision and a specific position to this Committee.
    And if it is okay, I would like to ask Joe to go through 
some of the details of the hardware which we told you about 
last time.

                 service module/funding for contractors

    Mr. Lewis. Joe, if you would, the last time we were 
together, there were key events with regard to the Service 
Module that should have taken place by now, and there were 
outstanding questions relative to funding for contractors. So, 
if you can address both those questions between the two of you, 
I would appreciate it.
    Mr. Rothenberg. Okay. I think as you heard Mr. Goldin 
testify, we started out the year, they were about $99 million 
in the hole from last year. Subsequent to that, they received 
$20 million in January, $20 million in late February, and 
another $15 million last Friday. So that was a very positive 
sign, that they did receive that.
    The second point is in terms of the Service Module 
progress, last time we reported that they had about 1420 out of 
1500 components delivered and integrated into the flight 
hardware. They have made progress since then. We do not have a 
count on the components, but we do know that they have a number 
delivered.
    There were three key items to be delivered the end of 
March. One was a telemetry system hardware. They have received 
an engineering unit, it is in the Complex Test Stand. The 
second is a communications module. They have received the 
flight unit, the third of three flight units. It is in 
acceptance test in the Test Stand. They were also supposed to 
receive an electron oxygen system, and at this point we believe 
it is about two weeks late. We do not have that confirmed, but 
they do not have it at this time.
    The Complex Test Stand, as I mentioned the last time, is in 
Energia, and the Complex Test Stand testing is progressing 
well. They have no major problems. They have run into a few 
integration problems, but not anything out of the ordinary. And 
what that is doing is validating all of the electrical design 
and the functional design of the hardware and it is using test 
units. Meanwhile, they are installing flight components on the 
Flight Service Module at Energia and, as I said, they are 
somewhere above 1420 out of 1500 components.
    They still have not chosen an option. They have two paths 
to go. One is to send in early May the flight unit over and put 
it next to the Complex Test Stand and run its final testing 
there. The advantage of that option is it keeps the workforce 
for both units together and, if they have any problems on the 
flight unit, they can easily swap back and forth.
    The second part of the option is actually to ship the 
flight unit to the launch site. The advantage of that is that 
they actually can pick up about three months in the schedule, 
and that is sort of an option they are working. Right now, we 
believe they are still two to three months behind a December 
launch date.

                           pattern of funding

    Mr. Lewis. I am encouraged by the pattern of funding that 
you suggest, especially the delivery of money as late as last 
Friday. Nonetheless, as we look ahead, estimates indicate that 
some $300 million may be required in 1998 to carry out those 
programs and its share of the mission.
    We have talked about it in other venue, but I think it is 
about time for us to begin discussing up front the what-if 
scenario for the record what you and NASA must be talking about 
if, for one reason or another, the Russian participation 
falters or disappears. Our Committee must also think through 
what kinds of obligations we might have in connection with a 
lack of Russian support. As pressure comes forward to this 
Committee for dollars way beyond NASA's responsibilities, there 
is little doubt that we need to give some thought to that 
scenario. So, any preliminary response would be appreciated.
    Mr. Lewis. Joe, go ahead.
    Mr. Rothenberg. Okay.

                                offsets

    Mr. Lewis. Let me interject just for the record, so you 
will know really what I am talking about. You know that we are 
discussing offsets these days in light of funding the FY 1998 
supplement bill. As of this moment, something over 90 percent 
of the offsets being proposed are by way of programs within 
this subcommittee. That means huge pressure on a variety and 
mix of critical programs, programs that absolutely demand the 
money in early 1999.
    So, you know, all of us are going to be against the wall 
here, and so, with that predicate, I would be interested in 
hearing your response.
    Mr. Rothenberg. Okay. Number one, about a year ago we came 
forward with a proposal to fund an Interim Control Module which 
we have gone off and at NRL they are starting to build and also 
to put the refueling capability on the FGB, which is the 
Control Module that is going up in this coming year.
    We, subsequent to that, have been watching the progress of 
the Service Module, and the decision point that we feel now 
that we have to make is, sometime in mid-May, be able to come 
to a conclusion whether we want to use that Interim Control 
Module as a backup for the Service Module, or the Service 
Module has made enough progress and looks like it will be ready 
no later than the middle of next year, we then would go ahead 
and use Interim Control Module as a backup for future failures 
of Russia to perform specifically if they could not provide 
progress vehicles which are required to resupply the onboard 
propulsion system.
    So, one path is to pursue the course, look at where the 
Service Module delivery is in May, and make a decision whether 
to use that Interim Control Module as a backup for the Service 
Module and actually have NRL execute the program to deliver it 
about a year from now in May, to use it as a backup and 
actually launch it to maintain control.
    Option two is if they are still making good progress on the 
Service Module in May, to not invest money in preparing it for 
a backup for the Service Module, but prepare it as a backup for 
failure then to provide adequate propulsion capabilities with 
the progress vehicles out in the late FY99 and 2000 time frame. 
So that is one contingency path.
    The second path is, say, for some reason, we find out that 
we----

                         option cost estimates

    Mr. Lewis. Would you provide us for the record cost 
estimates, guesstimates, if we have to exercise that option?
    Mr. Rothenberg. Those costs, for the most part, are already 
included in the $250 million budget allocation received last 
year. I will clarify if there are any deltas to that, if we go 
to a later option, but the numbers have not changed.
    The second potential option is to look at if they do 
notdeliver the Service Module and it looks like it may never come, then 
we are in a position of saying we cannot believe they are going to 
provide the Power Module and/or the Progress Vehicles we need for 
resupply, and then we really have to go back and look at an alternative 
plan. And right now, our estimate which would be providing a prop 
module and control system, the problem with that option is it could run 
up into the billions very quickly, and it is not a desirable option. 
So, those are the two primary alternatives.

          task force on station cost assessment and validation

    Mr. Lewis. Cost pressures, of course, are one of the 
centers of focus for this entire discussion today. On March 19, 
1998, the Task Force on Station Cost Assessment and Validation 
presented its report to NASA's Advisory Council. As a number of 
reports suggested in that presentation, the Task Force 
estimates the cost of development and assembly will be as high 
as $24 billion, and the schedule will stretch an additional ten 
to 30 months. The Task Force attributed their findings to a 
number of factors, including among others, the Russian 
contribution difficulties, software development and testing, 
and lags in qualification tests.
    Do you have comments for the record on the Task Force 
report, at least as we hear about it?
    Mr. Goldin. Yes. Last night, we sent over to the Committee 
a letter we received from the Task Force. It was not their 
final report, but it included some of the things that you had 
read in the paper.
    There is a process which I would like to outline. The Task 
Force is submitting their report to the NASA Advisory Council, 
which is led by Dr. Brad Parkinson of Stanford, which will 
review the material and send the findings plus the report, the 
Task Force report, to NASA, to me.
    We will then evaluate that, and then, at that point, I 
think we will be in a better position to make a comment. We 
want to reserve our judgment until we see the final report from 
the NASA Advisory Council, but we probably remain more 
optimistic than the Task Force indicated, but I want to wait 
and see the details of what they have to say, not just a 
summary letter. It is very hard to make judgments from a 
summary letter.
    Mr. Lewis. Well, Mr. Goldin, as you know, sometimes reports 
extend themselves conveniently as well in terms of their final 
form, but a lot of information flows by way of draft and 
otherwise. Sometimes the interaction that takes place outside a 
room like this sets a backdrop that distorts the discussion 
that we might have. So, the sooner we have that exchange, 
recognizing the difficulties that we face going towards 
Conference, probably early summer, the better. We are dealing 
with the real world here, and there are people who would just 
as soon put this money in other programs.
    Mr. Goldin. Let me say this. I believe we will be able to 
have the information this Committee needs before it goes to 
Conference. We are not talking about the good fraction of a 
year. I think the report is about 30 days away, and we will be 
able to process the report within weeks. So, it is not a 
significant time period.
    People saw the preliminary findings, but we did not get a 
chance to go through all the detail, but we are going to work 
in parallel with what we have so we will not hold things up and 
have it available in a timely fashion.
    Mr. Lewis. Well, the Committee, especially Mr. Stokes and 
I, would appreciate you personalizing that communication so 
that we can stay as close to being on top of this as possible. 
Mr. Stokes.

                       research fund for america

    Mr. Stokes. Thank you very much, Mr. Chairman. Mr. Goldin, 
the Administration's fiscal year 1999 budget touts increases in 
research and development programs for several departments and 
agencies as part of the Research Fund for America.
    Among the winners are the National Institutes of Health, 
the National Science Foundation, even the Department of 
Veterans' Affairs medical research activity where they received 
a 10-percent hike over last year.
    When these budget goodies were being passed out, NASA 
appears to have been overlooked. Of the activities included in 
the Research Fund for America, only one agency reflects a 
bigger decline from 1998 to 1999. Can you tell us why NASA has 
not faired better in the Administration's R&D initiative?
    Mr. Goldin. I do not want to brag, but I think NASA is 
better. I think we have, as an Agency, done a really solid job. 
Clearly, if we had more resources, we would know how to use 
them. But we have turned back over $40 billion to the U.S. 
Treasury while we have been able to do more and more. And even 
though this year's budget came down, we started ten new 
programs, some very significant science programs, some very 
significant aeronautic programs and, in fact, we added funds 
for a crew-return vehicle that would be built in America that 
ten years from now may be the difference between life and death 
for our astronauts.
    I do not get a chance to make the national policy, but what 
I do want to say is that we have been asked to do a tough job 
at NASA. We have stepped up to it year after year. We will 
continue to do so.

                    budget impacts on nasa programs

    Mr. Stokes. Within the last year, NASA has experienced 
problems in several programs. The Lewis Mission was launched 
and lost after a catastrophic failure occurred. Subsequently, 
after an investment of more than $50 million, NASA canceled the 
Clark Mission. Problems in the Advanced X-Ray Astrophysics 
Facility resulted in scheduled delays and cost increases.
    Now, of course, the problems with the International Space 
Station have been well documented. I am wondering whether the 
budget crunch of the past few years impacted NASA to the extent 
that it is difficult for your Agency to achieve its goals. 
Would you comment on this for us?
    Mr. Goldin. I would be pleased to comment. First, I would 
like to say we had an unprecedented year last year in a number 
of successful launches that we had. We had, in all of the 
1980s, two planetary launches. Between October of 1997 and 
January of 1999, we will have seven planetary launches. In 
fact, in 1999, we will have ten planetary launches.
    We have now built our spacecraft in smaller sizes. We have 
made them much more efficient in the time it takes to build 
them, and we said as we went to the ``faster, better, cheaper'' 
philosophy, we are going to take risk and put advanced 
technologies in these spacecraft because we have diversity in 
number and function. And we did lose a few, but we learned a 
lot from those losses.
    We felt we overstepped the responsibility we gave to 
industry. They were good spacecraft but, in the case of Lewis 
spacecraft, we allowed industry too much freedom and we did not 
want to have too much oversight. So, we learned the difference 
between ``oversight'' and ``insight'', we are going to change 
how we do things.

                            lewis spacecraft

    I might also say that the spacecraft was not a total lost 
because that sensor from the Lewis spacecraft, we are planning 
to replicate it and put it on the EO-1 spacecraft, launch it in 
1999, and for a relatively small increase in funding. So, it is 
not a lost mission.

                            clark spacecraft

    In the case of the Clark spacecraft, we will be able to use 
that sensor and the launch vehicle, and we will be able to get 
the data that we need. So, in that context, it was not a loss, 
it was a tremendous amount of learning because there seemed to 
be a sense that NASA overmanaged programs and got too much in 
detail. So we went from overmanagement, I feel, to a case where 
we just said to the contractors, ``Here is the contract, go 
perform'', and we did not give them the kind of help that they 
needed. So now we are going to come back to another position.

                            axaf spacecraft

    With regard to the AXAF spacecraft, the contractor had a 
problem in their software. And by the way, the other programs 
were adequately funded. In AXAF, they had a problem in the 
software in their test set, and they went and they fixed it. In 
fact, we had a reserve of something on the order of 20 percent, 
and now we have reserves of 11 percent, so there are more than 
adequate monies in the contract, and we believe by the time 
they get finished we will still underrun that contract. So, I 
do not believe that finances had anything to do with it and, 
quite to the contrary, we have had just an incredible number of 
successful launches.
    But one of the things that I ask that this Committee think 
about is as we keep pushing the envelope, we have to expect 
failures, learn from the failures, and then move on.

           minority university research and education program

    Mr. Stokes. With my leaving the Congress at the end of this 
session, this well may be the last time that you and I have an 
opportunity to discuss minority programs and minority 
opportunities at this Agency in a public forum. And I note that 
you have several of your key people here today, and I want to 
get into some of this with you, if I can, at this time.
    If I look at the Minority University Research and Education 
Program Summary, I note the funding declines from $54.8 million 
in 1997, to $51.4 million in 1998, to a request of $45.9 
million in 1999. The Administration's request for 1998 was only 
$40.9 million. The increase to $51 million is a result of 
congressional actions.
    Last year, you indicated the major reason the program was 
going down was due to high uncosted balances. This year, you 
have added a new entry, ``Enterprise Program Funding'', which 
attempts to show an increase in total minority university 
research instead of the 10 percent decrease reflected in the 
minority university research appropriation.
    First, tell us about the Enterprise Program funding. Where 
does it appear in the budget, and why are you including it this 
year and not previously, and also who controls the money, how 
can we be sure the funds are dedicated to minority university 
research?
    Mr. Goldin. We have asked each of the Enterprises to get 
more directly involved so that the actual scientists are coming 
in contact with the bright young people at these minority 
universities.
    I will submit for the record the details of where the 
monies are coming from each of the codes over the five-year 
period, so that the Congress will have open visibility to that 
and, in retrospect, we should have put that in the budget.
    [The information follows:]


[Page 134--The official Committee record contains additional material here.]



    Mr. Goldin. I would like to say, in the time frame in 1997, 
we had $3.5 million per year that came from the Enterprises. In 
1998, it goes to $8, in 1999 to $12, and then stays flat 
thereafter.
    This is a way of having our scientists and engineers not 
having just George Reese, who is the head of our Minority EO 
Program, manage it, but we get a direct ownership, which is one 
of the things we have been trying to do at NASA is to get 
ownership and then accountability and responsibility by each of 
our Associate Administrators and Center Directors.
    It is not a negative statement, it is a very positive 
statement. They have stepped up, and that we have had some 
incredible results, and I wanted to just--I would just like to 
read for the record what we have accomplished.
    The NASA University Research Centers at minority 
institutions reported a 79 percent increase in the number of 
degrees awarded to the University Research Centers. 190 
compared to 106-I better put my glasses on. A 13-percent 
increase in the number of refereed technical papers published, 
295 versus 260; a 23-percent increase in the number of student 
authors and co-authors on these papers, 95 compared to 77.
    This is a program that is having a major impact on our 
young people across the country, and we are absolutely 
committed. This is a different way of doing it, but I believe a 
correct way, and we will submit all these detailed numbers for 
the record, and the Committee can track and see that we are 
doing what we said we were going to do.

                       enterprise program funding

    Mr. Stokes. Let me ask you, if you will, to repeat for us 
the funding figures you gave us for the total Enterprise 
Program funding.
    Mr. Goldin. I made a mistake, I am sorry. It is this number 
up here. It is $13.3 million for '97, $20.8 million for '98, 
$28.8 for '99, $28.8 for 2000, and $28.8 for 2001. I am sorry, 
I did not have my glasses on when I looked.

                      other minority universities

    Mr. Stokes. Okay. Thank you. I note that although funding 
for the Math and Science Awards category increases by 40 
percent to $14 million for historically black colleges and 
universities. It decrease by $1.9 million, or more than 22 
percent, for other minority universities. What is the reason 
for this?
    Mr. Goldin. George?
    Mr. Stokes. Mr. Reese, I would be pleased to have you 
respond.
    Mr. Goldin. Could we give Mr. Reese a few minutes to look 
that up?
    Mr. Stokes. Sure, we can come back to it after he has had a 
chance to check it out.

                     minority workforce percentage

    Now, reviewing some of the data NASA provided for last 
year's record, I see that Agency-wide, minorities make up 20 
percent of the workforce, which is certainly to be commended. 
Blacks are one-half of the minority total, or 10 percent, 
however, within the totals are some wide variations. For 
instance, while blacks constitute 12 percent of the workforce 
at Goddard, 11 percent at Stennis, they only amount to 4 
percent at Ames and 7 percent at Kennedy.
    Now, I guess I would have to ask if you are satisfied with 
these type of figures at these agencies, and what is being done 
in that respect?
    Mr. Goldin. No, I am not satisfied, but we have a real 
dilemma, and that dilemma is this. We are committed to getting 
our labor force down to 17,500 employees, without having a 
forced layoff because we are concerned that a forced layoff 
would be just gripping to the workforce and, in fact, would 
take a bigger toll on the minorities who came into NASA later 
and the young people who came into NASA later.
    So, we made a conscious decision that we would have 
voluntary separation rather than having forced layoffs. And so 
far, we have downsized from about 25,000 to 19,000, without one 
forced layoff. Within another year or two, we should be down to 
our numbers.
    The problem we have at some of those centers, they have not 
had a chance to hire in five to seven years, and we cannot cast 
that widely to get the very best people. We find that every 
time we go for the very best people, we get diversity. So, I 
think we are a year or two away from being able to more 
aggressively hire so that we could see more diversity in the 
workforce. And by the way, I take full responsibility for this 
decision.
    After going to the Centers and talking to the workforce and 
seeing the anxiety that people had about forced layoffs, I came 
to the conclusion, I committed to our employees, I would do 
everything humanly possible to avoid forced layoffs. But it 
does give that continuing problem, and the only way to fix it 
is through aggressive hiring.
    The other thing I would like to say is, through all this 
downsizing, I am proud that our diversity numbers percentage-
wise, not number-wise, across the Agency have gotten better, 
not worse.
    And I remember some hearings a number of years ago where 
you expressed concern as we were going to downsize, that our 
diversity numbers would get worse. Percentage-wise, in almost 
all categories, they have gotten better.
    Mr. Stokes. I have noticed that. Mr. Chairman, I have a 
number of questions in another area, but notice that a number 
of our other colleagues are here, and I do not want to exceed 
my time. So, at this time, I would yield back, and then perhaps 
you will do another round and I will come back to these.

                  international space station program

    Mr. Lewis. Thank you very much, Mr. Stokes. We will proceed 
by way of order of the Members that have come in, going back 
and forth across the aisle. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Mr. Chairman. Good morning, Mr. Goldin. 
On a number of occasions, you have come before this Committee 
and told us that NASA is not conducting ``business as usual'', 
and has, in fact, been doing things ``faster, better and 
cheaper'', to use your own words. This may be true in some 
other areas of the NASA budget, it does not seem to be the case 
for the International Space Station Program.

                   transfer of funds to space station

    For example, two weeks ago you asked this Committee in 
another hearing to transfer funds from one area of NASA to the 
Space Station Program in order to keep it on schedule. What 
should we say to critics of the Space Station Program who 
support a strong NASA and feel that other programs are being 
squeezed to make room for the Space Station?
    Mr. Goldin. What I would say is every single program at 
NASA is stronger today than it was in 1992. We went from 31 
percent for science, aeronautics and technology, to 43 percent, 
and we are projected to go to 48 percent. The budget for the 
human space flight has gone down from 48 percent to 38 percent, 
on its way to 31 percent. If anything, we may be cutting too 
deeply over the long-run into the human space flight account.
    I do not know of a time when NASA has had more missions to 
more places in our universe than now. Every single one of our 
science programs is stronger today than it has been in years. 
And I feel a little bit concerned that there seems to be a 
third rail which says that NASA cannot touch science programs. 
But the fact of the matter is, at NASA, we want to live within 
the budget that the Congress and the President has approved for 
us, instead of coming back when we have problems for more 
money. And I hope that the people who are concerned about this 
issue would openly look at the budget and understand in the two 
areas where we want to transfer money, the uncosted carryover 
has been much too high. And we do not feel it will have any 
impact on any of the science programs.

               space news article--station cost overruns

    Mr. Frelinghuysen. Let me trip over that third rail for a 
minute.
    Mr. Goldin. I may be the one that gets fried.
    Mr. Frelinghuysen. We will wait and see. When I came into 
the office this morning, I tripped over the usual bulk mail 
outside, and on the top of it was a Space News, and the 
commentary, as fate would have it, put the Station on a diet. 
Three paragraphs caught my attention in that editorial.
    And I quote, ``In the last five months alone, estimates of 
Space Station cost overruns have ranged from $600 million to as 
much as $2 billion''--not, incidentally, about the cost of 
whether our mission has been to deploy to the Persian Gulf. 
Continuing, ``The truth is that none of the parties can 
accurately predict how much money it will cost to get the 
station in orbit and able to support crews and experiments from 
the 15 participating countries''. The editorial goes on, ``The 
space station is an important program for human space 
exploration that should not be canceled, but it cannot be 
allowed to suck up too much of NASA's budget''.
    I would like you to comment on the whole notion a little 
more in detail on whether the station is sucking up some very 
critical monies that have been used in a variety of other 
programs.
    Mr. Goldin. I think if you take a look at our budget for 
1999 that we have submitted, the Space Science Program is 
growing from some $2.1 billion to $2.5 billion over the five-
year period, with these issues that we've dealt with on Space 
Station.
    Mr. Lewis. Do not let those bells bother you, we can hear 
you.
    Mr. Goldin. My brain does not work while the bells are 
ringing.
    Mr. Lewis. Neither do ours. [Laughter.]
    Mr. Goldin. And I might say we have started a number of new 
Space Science Programs in the 1999 budget, and we will continue 
to start new programs as we go. There are a significant number 
of new programs and, for the record, I will be happy to submit 
all the new programs we have started in Space Science.
    [The information follows:]


[Pages 139 - 144--The official Committee record contains additional material here.]



    Mr. Goldin. In Earth Science, the budget went down because 
we found a way of efficiently building the spacecraft and we 
were able to replenish the funds that the Biennial Review 
Committee said that our R&A account was too low. We put some 
$200 million additional into research and analysis, which the 
community said we needed. We have money in there to fund a 
Quickscat mission, which is a replacement for a loss we had on 
a Japanese spacecraft, and we have money in the budget for a 
Lightsar spacecraft. So, I would say that the Earth Science 
Program is even healthier this year----
    Mr. Frelinghuysen. So you disagree, to answer succinctly, 
that the Space Station is sucking too much in the way of 
resources?
    Mr. Goldin. We were able to get the resources to do this 
out of continuing efficiencies and telling our people, ``Don't 
come back for more money, tell us how we are going to 
restructure''.

                             Strategic Plan

    Mr. Frelinghuysen. Let me turn for a minute, since the time 
is relatively short, to a GAO report that was issued in July of 
last year on your Draft Strategic Plan. In that report, GAO 
indicated, and I quote,

    Though NASA's objections are shared with those of other 
agencies, the draft plan does not identify specific programs 
and activities that are crosscutting or similar to those of 
other Federal agencies. The draft plan acknowledges in several 
places the need to work with other agencies, however, the 
plan's discussions of crosscutting programs are brief. They do 
not explain what, if any, coordination was done in developing 
goals and objectives.

    Since duplication and overlap are two things that I think 
we, as a Congress, are interested in avoiding, can you tell me 
what NASA is doing to prevent this from happening?
    Mr. Goldin. We took that criticism from the GAO to heart. 
We knew what we were doing. We did not express it well in the 
Draft Plan. I think if you look at our new final release of the 
Strategic Plan, we do cover those----
    Mr. Frelinghuysen. So there has been something since July, 
an update?
    Mr. Goldin. Oh, yes. Yes. We got comments from the GAO, 
from the Congress, and from the Office of Management and Buget, 
we could submit them for the record, if you would like. I would 
have to say that our relationship with the Department of 
Defense and the Air Force is better now than it has been in 
years. We are now doing things like merging the maintenance and 
operations contracts at Cape Kennedy and Patrick Air Force 
Base. We are now talking to the Department of Defense where the 
next series of satellites beyond the tracking data relay 
satellites, NASA will not even build them, and we may rely upon 
DOD assets to do that. We are talking about a whole variety of 
facility-sharing and people-sharing. We are doing this with 
other agencies, and I believe we have made very significant 
progress. We are committed to doing that.
    [Clerk's note.--NASA provided a copy of the 1998 Strategic 
Plan and the 1999 Performance Plan to Mr. Frelinghuysen and the 
Subcommittee.]
    Mr. Frelinghuysen. I am pleased that that is occurring. It 
is interesting that GAO, in that July review, did not pick up 
any of those initial relationships. Is there some reason for 
that.
    Mr. Goldin. We did a lousy job in writing the draft, all 
right?
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you very much, Mr. Frelinghuysen. Mr. 
Price.

                    Minority Research and Education

    Mr. Price. Thank you, Mr. Chairman. Welcome back to the 
Subcommittee, Administrator Goldin, and your colleagues. You 
have picked up a good deal of concern this morning from various 
Members about some of the increasing costs of the Space 
Station, and I appreciate your reassurances that unacceptable 
tradeoffs are not involved here.
    As you know, I am a supporter of the Station, a strong 
supporter, but I, too, have become increasingly concerned that 
the pincers of increased Station costs and a decreasing NASA 
budget overall might cut away at other NASA programs such as 
the academic and education programs, and that they might put 
pressures on extramural research as well.
    Mr. Administrator, on top of these decreases in minority 
research and education that you have been discussing with Mr. 
Stokes, the education programs of NASA are also slated for a 
decrease--a $14 million decrease--from $68.6 million to $54.1 
million. A large portion of this decrease is coming in 
educational technology, particularly the Space Grant College 
and Fellowship Program cut in the President's budget by nearly 
30 percent, from $19 million to $13.5 million and raises a 
question, I believe, whether you think the full range of 
programs that NASA is running from these accounts do deserve 
continued support.
    In what accounts are these rather dramatic decreases in 
proposed funding planned? It is possible other agencies ought 
to be taking up more of the responsibility for getting 
children, elementary and secondary students interested in space 
and aeronautics as early as possible?
    What are we looking at here with these decreases? To what 
extent is there a tradeoff with Station or other items in the 
budget, and to what extent does this indicate some rethinking 
of priorities on your part?
    Mr. Goldin. First, let me open up by saying our priority 
for education and working with the young children of this 
country remains incredibly high. And if you could take a look 
at the time period from '92 to the present when our budget was 
dropping, we have really made a significant increase in 
education. We touch children. We touch teachers. And as you can 
see from some of the statistics I gave, we are having a real 
impact.
    I would like to first correct a misperception that you 
might have had. The actual funding from Mr. Reese's EO budget 
to minority university research programs went down, but I am 
submitting for the record a fact that we are actually 
increasing it because we are going to the individual 
Enterprises. So, our minority university research program is 
actually going up.
    [The information follows:]


[Page 147--The official Committee record contains additional material here.]



    Mr. Goldin. We did not do a good job in explaining the 
bookkeeping when we submitted the budget, but we have corrected 
it with the submittal with the material we are going to bring 
in today.
    Mr. Price. I understand that the impression given by the 
minority research and education line alone is misleading.
    Mr. Goldin. It was lousy bookkeeping on our part, but I 
want to re-emphasize, we think it is an incredible program. I 
personally have gone to have a conference each year, the number 
of people going to that conference increases by a significant 
amount each year, and it is a touching experience. Mr. Stokes 
was at one of these conferences. It is having a huge impact.
    So, I want to correct any impression. We are committed.
    Mr. Price. That education item within the academic program 
category, that number is correct, right? You are proposing a 
decrease from $68.6 to $54.1 million?
    Mr. Goldin. There was an earmark added in 1998 for Space 
Grant Colleges, and we have the monies for the earmark covered 
in '98 and '99. We did not adequately cover it in the outyears, 
and we intend to correct this deficiency in the year 2000 
budget submittal that we are going to send in. We are not 
backing off on Space Grant because we think that also is the 
right thing to do.
    So, I believe that we will hold tight on all our 
educational issues, and we do not intend to cut it. In two 
cases, we just had poor bookkeeping going in and, in the other 
case, we actually had an error that I was unaware ofuntil I 
learned of the concern from this Committee and, in the year 2000 
budget, that will be fixed.
    Mr. Price. Well, that $54.1 million figure projected for 
fiscal '99 does go below the '97 figure considerably, not just 
the blip that you experienced in '98.
    My question is just overall what kind of price is going to 
be paid in terms of the things that you have been doing and the 
priorities that you have been setting in terms of this range of 
educational programs?
    Mr. Goldin. With regard to our educational programs, there 
will be no backing off at all, period. And I would like to ask 
Mr. Peterson to explain to you the difference between '98 and 
'99.
    Mr. Peterson. Simply put, I made a mistake. When we 
formulated the '99 budget, we had just gotten earmarked for the 
'98 appropriation, and we thought that the cost implications of 
that would extend over two years, '98 and '99. At the time we 
allocated the budget authority for '99, we were in error. And 
we have probably about on the order of about a $5- or $6-
million shortfall in one area in particular, which is the Space 
Grant area, and that is just an error on our part. We would 
propose to fix it in the operating plan, through the operating 
plan process.

           Overall Science, Aeronautics and Technology Budget

    Mr. Price. All right. We will look forward to that 
clarification. When you look elsewhere in the research budget, 
you do see some slippage overall, but this masks a mixed 
pattern of incremental increases and decreases in science, 
aeronautics and technology programs.
    I gather you think we do not have a ``big science-little 
science problem'' at NASA. At the budgetary margins, though, 
what kind of research endeavors are getting cut out by the 
economies that we are seeing in this extramural research 
budget?
    Mr. Goldin. With regards to science, I believe--let me see 
if I--are you talking about research and analysis, or are you 
talking about our overall science budgets?
    Mr. Price. I'm basically talking about the overall science, 
aeronautics and technology budget.
    Mr. Goldin. Let me tell you that that has been the big 
winner at NASA. Each year we constantly make progress to 
increase that as a percentage of our budget and, in 1992, it 
was 31 percent of the budget. With this budget submittal today, 
it is 43 percent of the budget in 1999. And if you carry the 
budget out to the year 2003, it becomes 48 percent.
    The budget for human space flight has come down from 48 
percent to 38 percent and, in 2003, if we stick on this budget, 
it will be 31 percent. Somehow, this message does not--and, in 
fact, I have a chart here--could you get the chart put up, Mal?
    Mr. Lewis. We actually have a chart right in front of us.
    Mr. Goldin. Oh, you have the chart. Somehow, this message 
has not gotten across, but I feel that each year we have made 
continued progress in increasing the capacity--there is the 
chart I am talking about, which shows how we come from 31 
percent all the way up to 48 percent.
    This message does not come across because people look at 
individual budget line items. But taken in toto, if anything, I 
am concerned we may have overcompensated and put more into 
science and not enough into human space flight. And this is 
going to be an issue we are going to have to look at in the 
future, not with regards to the Space Station itself, but what 
happens beyond the Space Station. What happens in terms of 
Shuttle replacements? And I think those issues will come up in 
the years ahead.
    Mr. Price. Well, Mr. Chairman, I know my time is up. I am, 
indeed, looking at the line item. The percentage figures are 
interesting, and I appreciate your pointing those out but, for 
the overall science, aeronautics and technology budget, we are 
talking about going from $5.5 to $5.4 billion for next year. 
And what I am asking is, at the margins, what kind of research 
endeavors are on the line?
    Mr. Goldin. Oh, you are talking about from '98 to '99?
    Mr. Price. Yes, I am.
    Mr. Goldin. Okay. I thought you were talking about the 
whole big period. First of all, what happened from '98 to '99 
is we got more efficient in the Earth Science program, and we 
are able to build spacecraft a lot less expensively. In fact, 
our projections now for the EOS series of spacecraft in this 
five-year time period are $500 million less. And we were able 
to do more--and we started new programs also. We did not drop 
anything in going from '98 to '99. In fact, this year we 
started about five new science programs, and we enhanced the 
research and analysis account. We lost nothing. In fact, we 
have gained.
    So, on the margin, we have lost nothing. Maybe Mal can 
explain the details of the numbers.
    Mr. Peterson. Sir, the Space Science, and Life and 
Microgravity Science, and Earth Science programs have stayed 
constant, or increased from '98 to '99. Aeronautics has gone 
down some as the completion of the first phase, or actually the 
second phase of the high-speed research program and the 
initiation of what we refer to as the 2-A program. And we have 
made other adjustments in mission communications, which was 
part of this account, based on savings that we expect to see 
out of our consolidated contracts.
    Mr. Price. And then the academic----
    Mr. Peterson. And the academic program is down----
    Mr. Price. The reductions that we were talking about 
earlier are also involved here.
    Mr. Peterson. Yes, sir.
    Mr. Price. All right. Thank you very much.
    Mr. Lewis. Mr. Price, I appreciate those questions along 
that line. I have some additional questions that I will submit 
for the record in connection with that and, of course, you may 
as well. Mr. Walsh.

                              NASA Budget

     Mr. Walsh. Thank you, Mr. Chairman. Mr. Administrator, 
thank you for your testimony today. Just a general sort of 
question, statement/question on budget. The proposed reduction 
in fiscal year 1999 would be the sixth consecutive cut in 
NASA's budget. NASA is the only U.S. science agency not 
receiving an increase for research and development in the 
fiscal year 1999 budget under the Clinton Administration's 
preparing for the 21st century research fund.
    The fund is intended to boost civilian research funding 32 
percent over the next five years. Does it bother you that you 
are not a priority of the Clinton Administration?
    Mr. Goldin. I believe that NASA has done things that have 
not been done in other places in the Federal Government. I do 
not want to say what other people have not done, but I know 
what we have done. And we have continued to change what we are 
doing by improving efficiencies. Clearly, if we were given more 
money, we would know how to spend it. But given the deficit 
situation in this country, I am proud of what the NASA team has 
done, to do more for less, and I would hope to see it across 
the Government.
    Mr. Walsh. I think you have a pretty remarkable story. When 
you look at these charts and you see what you have been able to 
accomplish, you wonder if it is a diminution of support for 
NASA or just high expectations that you will continue to do 
what you have been able to do, but it does put pressure on the 
research and development that you do, and the Clinton 
Administration is making some investments perhaps in some 
questionable areas where NASA has a proven track record. My 
editorial comment.

                         Space Station Savings?

    Mr. Goldin. I care not to comment on that.
    Mr. Walsh. On the Space Station now, the Clinton 
Administration invited the Russians to join the Space Station 
back in I believe it was '93, and their participation was 
justified by the claim that American taxpayers would save over 
$2 billion with that partnership.
    Now, two hardware delays in Russia and the cost of the 
Space Station has risen by over $2 billion and, as my colleague 
from New Jersey pointed out, there is some expectation it could 
be an additional $2 billion for an increase of $4 billion. Have 
all those savings that we were told about evaporated?
    Mr. Goldin. At the present time, the Russian delays in 
funding to their space agency have caused significant cost 
impact to the United States. If this continues, we will use up 
that $2 billion savings we had in the development phase.
    There are other savings that are significant in the 
operations phase. One of the reasons we were able to reduce the 
operations budget, which was significant, was that the Russians 
are providing a number of delivery functions, namely, fuel and 
support equipment, to the Space Station, that we will then have 
to replace. That is important.
    But probably more important is something that the VEST 
panel pointed out when they reviewed the inclusion of the 
Russians in the program, and that was the fact that they were 
concerned that there was only one launch vehicle that could 
take things up to the Space Station. And working on the Shuttle 
Mir program, we have seen a tremendous asset in having the 
Proton and the Shuttle and the Soyuz and the Progress. It gives 
us much more flexibility, and it will be very, very valuable 
during the life of the program.
    Yes, we have taken some hits. This is a very tough program, 
a very difficult circumstance, but I still believe we have a 
chance of doing it right and pulling it off. And we should 
consider the Russians, but we have to just review if they are 
doing what they say they are going to do, and that is why we 
set up the process that Mr. Rothenberg talked about, to get to 
a decision and a recommendation to this Committee by the end of 
May.

                         International Partners

    Mr. Walsh. Well, we appreciate your optimism as far as the 
Russians are concerned but, if a problem occurs--and Chairman 
Lewis has asked a number of questions about the Russian 
commitment--if there is a problem, what about the other 
partners? What are they prepared to do? Are they prepared to 
contribute additional resources to make this project work if 
the Russians cannot, or will not?
    Mr. Goldin. We are going to have an appropriate discussion 
with our partners at the end of May, and this will be one of 
the considerations that we will talk to them about.
    Mr. Walsh. Do you have a feel?
    Mr. Goldin. I do not know, and it would be presumptive of 
me to make a commitment for our partner countries.
    Mr. Walsh. Let me ask you this. Do the partners still have 
the same degree of confidence in the project that they had 
entering the project?
    Mr. Goldin. I believe the partners have a $4.5 billion 
investment they have already made, and they want to see that 
investment come to fruition. The partners also want to see the 
Russians brought into the Space Station program because they 
can see the tremendous benefits from that, and we have been 
working very closely together. We have had heads of agencies 
meeting where we have tried to work through each of these 
issues to make this thing happen, and happen right.
    Mr. Walsh. Thank you very much. Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Walsh. Ms. Meek.

                            civil workforce

    Ms. Meek. Thank you, Mr. Chairman. Welcome to all of you. 
First of all, I would like to associate my questions on 
minority research and minority education with those made by Mr. 
Stokes just before he left. I have the same feelings. I have 
followed this with Mr. Goldin and the rest of the staff 
throughout, and I am continually interested, just as this 
Subcommittee is, in that.
    I have a question. Being a strong supporter of NASA, if 
what I have read and received from members of your group and 
read your reports is true, your budget growth has been very 
slow, and now it is almost flattened out to the point that 
those who believe in shuffling figures with the budget would 
say that that is a good thing to do. But I am very concerned 
about NASA and its Space Program, particularly the 
International Space Program. I visited your site, I saw 
everything there. I was able to talk to the engineers, the 
scientists, and the people who were dealing with the Earth 
Sciences as well.
    I note that you have reduced your civil workforce. You have 
tried to work within the parameters of what our budgetary 
constraints have given us. However, when you look at a 
comparative analysis of NASA's growth budgetary-wise, and other 
agencies, yours has been pitiably slow.
    Mr. Weldon, a colleague of mine, worked on this last year 
trying to get a bipartisan approach to showing this Congress, 
along with several other people, how slowly NASA's budget 
growth has not kept up with other agencies.
    I passed these out to the Members of the Committee just to 
give some rationale to what I am going to say to the Committee. 
I do hope that notwithstanding the President's recommendations, 
that this Committee will look very closely at NASA's growth and 
their budget growth, and try to stimulate growth with NASA, and 
that you are the last--I guess I do not have the adequate 
word--but in terms of research and science, you are our last 
place to go, really. If we are going anyplace in research and 
in medical science, it will be because of NASA. And I speak 
very strongly about this because I know that it is very easy 
for us to worry about the parameters we set with the balanced 
budget, but we fail to look at some of these comparative 
analyses to show. And when you look at it, the budget growth 
for Department of Justice, NIH, HHS, Treasury, SBA, DOT and all 
of them, then you look at NASA, you are below the lowest 
percentile here, the quartile, or any other kind of statistical 
analysis you would show.
    So, if there is anything any smaller than percentile, I 
want to know where it is. But I think that this shows us on 
paper why Mr. Weldon took so much time trying to talk to other 
Members of Congress. That gives us sort of a mandate, I think, 
on this Subcommittee, that there are Members of Congress who 
feel very strongly about NASA and space exploration and space 
growth, that they were willing to sign these sheets to say not 
only to this Committee, but to the President and to the Speaker 
or to anyone else. And I wanted to bring this to the attention 
of this Subcommittee while you are here, just to reiterate the 
fact that we do need some help for NASA if we compare it with 
other agencies.
    It is flat, your budget is, and I hope the Subcommittee 
will look at that. And you do not need to respond to that, that 
was merely----
    Mr. Goldin. I would be happy to say a few comments.
    Ms. Meek. You may.
    Mr. Goldin. It will be very brief. Clearly, as the 
Administrator of this Agency, when I see tremendous growth 
across all other agencies, it is difficult, but I have been 
given a job to do, and I will carry out that job and be loyal 
to my President.

              ksc involvement in the space station program

    Ms. Meek. That is good. I think that is a very good 
statement. That is all I can say, but it really does not have 
anything to do with our increasing your budget on this 
Committee. [Laughter.]
    Thank you. I will move on to the next question, and I will 
make it short, Mr. Chairman. I note from your budget that you 
plan to spend almost $10 million more at the Kennedy Space 
Center in 1999, on Space Station programs. Can you tell me how 
the Kennedy Space Center is involved, and will be involved, in 
the future in the Space Station program?
    Mr. Goldin. Yes. The Kennedy Space Center is playing an 
every-increasing role in the Space Station program, and we made 
a major decision a few years ago to utilize the incredibly 
talented workers at NASA Kennedy to perform major integration 
functions.
    This team is headed by a gentleman named Tip Tallone, who 
has done an outstanding job and, in fact, we have had hardware 
that has been behind schedule and shipped to Kennedy, they have 
been able to make up schedule. So you will see an ever 
increasing role for Kennedy to play because it is our space 
port for STARS, and we are putting in additional facilities.
    Another area that we had some concern is that we were not 
doing proper environmental testing on hardware down at the Cape 
and, in fact, the Russians told us this. So, we have now 
upgraded the vacuum chamber at NASA Kennedy so it can be used 
to do environmental testing before we ship payloads.
    We are upgrading the launch checkout system, and that is 
being also done at NASA Kennedy because we have to make some 
significant upgrades as we go into the era of the Space Station 
because we cannot afford any launch delays due to problems with 
our equipment on the ground because we have to continually meet 
that five-minute launch window. These are the areas that I 
believe Kennedy is playing a very significant role.

                  access to the microgravity research

    Ms. Meek. My last quick question. You have expressed in the 
past, Mr. Goldin, your interest in commercializing the Space 
Station. And my question is relative to your HEDS Enterprise 
and how well you have been able to do that.
    You have said that there have been reports that almost all 
of the upcoming Space Shuttle flights are committed to Space 
Station construction and resupply, with little opportunity for 
commercial and research missions.
    I am not sure we can expect the research and the commercial 
community to just pick up after downtime, a five-year downtime, 
as shown in your budget, with no access, as you have said in 
your book here, to Microgravity facilities.
    How is NASA providing the scientists and commercial 
researchers across the country access to the microgravity 
research which you so ably mention here that will be available 
to them? Are you putting most of your attention to 
construction?
    Mr. Goldin. Recognizing that we had that issue, we have 
added two Shuttle flights, STS-95 and I believe STS-107 that, 
in a large sense, are being done very differently, and then we 
have options for two more. We have contracted with the SPACEHAB 
Corporation, which is performing some of these missions on a 
commercial basis. NASA has taken a portion of the mission and 
then filling the rest commercially.
    We have also increased the capacity to do middeck 
experiments on the Space Shuttle. We have increased the power. 
We have increased the capability. So we have middeck 
experiments.
    Also in 1999, we will be launching the express rack up to 
the Space Station where we can do microgravity research, and we 
will continue to build that capability as we go. But I feel 
that one of the big factors is going to be this contract that 
we signed with the SPACEHAB Company for a guaranteed mission 
plus options up to four missions and, if need be, we will do 
more. We will not walk away from the research community.

                         upgrade to nasa budget

    Ms. Meek. Thank you very much. My last question is to my 
Chairman. Mr. Chairman and Members of this Committee, do you 
think with all the finesse you have explored in the past, that 
you can find money to upgrade NASA's budget, the $200 million 
that they didn't get last year?
    Mr. Lewis. Ms. Meek, hope springs eternal. [Laughter.]
    Ms. Meek. I am on the record with that question.
    Mr. Lewis. I know you are. [Laughter.]
    The Speaker has indicated his own priorities relative to 
funding in the months and years ahead. Within that mix, one of 
the very, very highest priorities is given on his part to 
research, both basic and applied. That would bode well over 
time but, indeed, your expression of nonpartisan interest in 
these subjects is very hopeful, and I want you to know I 
appreciate it. Mr. Knollenberg.

                             global warming

    Mr. Knollenberg. Thank you, Mr. Chairman. Welcome, again, 
Mr. Goldin and company. There was an article in Science 
Magazine back in November regarding global warming, and global 
warming, as you well know, is something that has taken front 
page on newspapers and magazines around the country for the 
last several months. I find, too, that within the various 
budgets, including this one, there is an indication that money 
or some kind of program is being developed in the direction of 
global warming.
    That article in Science Magazine indicated that their 
position was, which is kind of interesting because it differs 
from the global warming ``gloom and doom'' scare which very 
honestly I have problems with, serious problems with, and that 
what we should be looking at, what is more dangerous, in fact, 
is--this was a quote from Duane Goobler, who is the Director of 
the Disease Control and Prevention Center, who also feels it is 
a gloom-and-doom kind of thing--he says whatwe should be 
thinking about is to look at a thing called ``the health measures'', 
public health measures, and, in fact, it is simplistic to think that 
global warming is the only thing that we should be looking at.
    He cites, or they cite, a number of examples where--for 
example, why is it that the Gulf states of the Americas are 
warmer than the Caribbean, but the diseases in the Caribbean 
are manifold and they do not carry through to our Gulf states, 
like, why is it in Mexico and the United States the mosquito--
and he talks about the parasites and, in fact, he talks about 
the insects and mosquitoes in particular, there was a certain 
problem that occurred down on the Rio Grande, where 2,000 
confirmed cases in Mexico, just across the river, there was 
something like seven in Texas. So, you have to figure that it 
has got to be air conditioning, it has got to be screens, it 
has got to be food, whatever, it has to be a lot of things that 
play into that.
    Now, I understand there is a Nancy Maynard that is with 
you--I do not know if she is here today or not, but I see 
somebody----
    Dr. Asrar. She works for us.
    Mr. Knollenberg. And your name, sir?
    Dr. Asrar. My name is Ghassem Asrar, I am the head of Earth 
Science Enterprise at NASA.
    Mr. Knollenberg. What I am interested in, and I understand 
from my sources, that you are starting a subcommittee that is 
headed by Dr. Maynard or Ms. Maynard?
    Dr. Asrar. Ms. Maynard, and also a representative from NIH.
    Mr. Knollenberg. Well, I am glad to hear that part. Now, is 
NASA, according to the article, starting this committee with 
emphasis on global climate?
    Mr. Goldin. First, let me say that we have an Earth Science 
program. It is broad and deep in scope. It impacts fishermen in 
the Gulf of Mexico to find better places to go fishing. It 
impacts people who have drilling rigs that do not want to be 
swamped out by currents while performing drilling functions. It 
affects wine growers in California that are worked about pests. 
It affects the prediction of----
    Mr. Knollenberg. Is this what is taking place now?
    Mr. Goldin. It is a broad program. Somehow people keep 
saying that the NASA Earth Science program is a program 
focusing only on global warming. We are broad, and we are deep.

                    global warming devoted resources

    Mr. Knollenberg. Here is what we want to know. I am glad to 
hear that. Let me just ask specifically, though, how much money 
or resources are being devoted to global warming? I see, for 
example, this chart--and you have been true to what you told us 
several years ago about what you are attempting to do. It may 
not be what you would like to see happen with your particular 
spike being downward rather than upward, but if you are doing 
or spending money in these areas, and some of it is going for 
the things you say, Mr. Goldin, and some is also going for 
global warming, where is it coming from? Is it money being 
diverted from other programs in NASA?
    Mr. Goldin. No. We have been able to perform--in fact, let 
me give you a statistic.
    Mr. Knollenberg. What I am looking for is how much and what 
are you doing.
    Mr. Goldin. Okay. When I arrived at NASA, the Earth Science 
program for the decade of the '90s was $11.3 billion. The Earth 
Science program today, with many more spacecraft and a much 
deeper research base, is at $6.7 billion. That program is an 
outstanding program. It is a broad-based program that deals 
with five different basic research areas, as I would like to 
have Dr. Asrar point out to you.
    I will give you another reference. In 1992, we had three 
spacecraft that we were going to launch on five-year centers 
with three different phases. We will be launching 27 spacecraft 
for the Phase I of the Earth Observing System instead of three.
    Mr. Knollenberg. But how much of this is directed at global 
warming? I guess I want to know--if you cannot give me a number 
now, can somebody research that for me?
    Mr. Goldin. Before we do that, we are trying to 
understand--I would like to give you a perspective before we 
break out global warming. We are trying to understand how to 
build predictive models for weather, climate, environment and 
resource management for sustainable development.
    Mr. Knollenberg. And the adaptability of man to these 
things?
    Mr. Goldin. And to understand what nature does and what the 
human specie does so we can take action in a policy sense--we 
will provide that data to the policymakers so they can make 
decisions. That is the role that NASA is playing.
    I would like to now ask Dr. Asrar to give you a breakout of 
how our budget is being spent.
    Dr. Asrar. Good morning. Thank you for the opportunity. As 
Administrator Goldin stated, the focus of our Earth Science 
program at NASA is to understand fundamentally how earth 
functions as a system. How that knowledge is going to be used 
basically is up to the leadership in this nation to take that 
knowledge and apply it.
    Yes, the scientific understanding that we get out of our 
program will undoubtedly have benefit to establishing sound 
policy decisions vis-a-vis the energy use and global warming 
and things of that nature. But we are not in the business of 
really mitigating or promoting science for the sake of 
addressing the global warming issue.
    Our job is to provide the scientific knowledge, the very 
same scientific knowledge and the technology that we develop 
has practical benefits to solving societal problems such as the 
vector-borne diseases issues that you have raised.
    What we have not done effectively in the past that we are 
going to do a much more effective job over the next few years 
is to bring out the application and relevance of our science 
program to fixing or addressing the societal problems that you 
just stated.
    The partnership with agencies such as----

                        global warming spending

    Mr. Knollenberg. To repeat my question again, how much are 
you going to spend on global warming?
    Dr. Asrar. We do not break out our budget by these 
categories. Again, the fundamental focus of our program is 
understanding how the earth functions as a system.
    Mr. Knollenberg. Okay. I think what I am getting--and I 
understand that it may be difficult for you to separate that 
out--but I am not getting the question answered properly. You 
are not telling me what it is that you are going to spend 
specifically in that little area called global warming. Now, if 
you do not know that, that is all right, but we are going to 
watch you very, very closely.
    Dr. Asrar. Absolutely, sir. Again, we do not break out our 
budget by global warming or vector-borne diseases or things of 
that nature. We focus on five scientific areas. One is to 
understand how----
    Mr. Knollenberg. Is this subcommittee functioning right 
now, is it functioning as we sit?
    Dr. Asrar. Which subcommittee, sir, is that?

                      global warming subcommittee

    Mr. Knollenberg. Global Warming Subcommittee. I have been 
told there is a new Subcommittee on Global Climate Change that 
is a part of NASA.
    Dr. Asrar. No, sir, we do not have such a subcommittee 
within NASA, no. We have four fundamental divisions in our 
office. One focuses on basic research and analysis, one focuses 
on applications, the subject that you just stated in terms of 
the knowledge that we gain.
    Mr. Knollenberg. Here is the reason I bring this up, and I 
appreciate your answer. Nancy Maynard, Deputy Director of 
Science for NASA's Mission to Planet Earth Program says, ``NASA 
has just started a subcommittee on global change''--now this is 
November--``global change and human health, hoping to provide 
the strongest scientific basis for these relationships''. Is 
that true?
    Dr. Asrar. No, sir, it is not correct.
    Mr. Knollenberg. Not true.
    Dr. Asrar. No. Dr. Maynard was just recently appointed as 
the head of our Applications Research Division, to take the 
knowledge and technology that we get out of our program to 
solve societal problems such as the one you just stated, the 
vector-borne diseases. She will be leading the Application 
Research Program of our office.
    Mr. Knollenberg. So that is a misquote. I guess what I am 
trying to----
    Mr. Goldin. Could we get a copy of or the citation for 
where that was, and we will get for the record an answer.
    Mr. Knollenberg. And I will close here because I am taking 
too much time. It is not that I want to beat this thing to 
death, but if you are spending money in those areas, it should 
seem to me that you ought to know how much you are spending 
specifically for not just global warming, but whatever the 
other parts are, and maybe you do not know that today, but we 
would like to know that. I would like to know that.
    [The information follows:]
                         Global Change Research
    To date, NASA is working with NIH as well as USGS, DOE, USDA, FDA, 
and EPA on a Subcommittee on Global Change Research (SGCR) Working 
Group on Global Change and Human Health. Other members of the 19 agency 
SGCR may join the Working Group at a later date. The SGCR is part of 
the Committee on Environment and Natural Resources, which falls under 
the umbrella of the National Science and Technology Council (NSTC). 
This working group as well as the NSTC does not engage in global 
warming research.
    The working group's main activity at this time is identifying the 
present ongoing Federal activities, preparing an inventory of all 
relevant programs on human health and global environmental change, and 
strengthening links among the agency programs. The purpose of this 
working group is to promote and enhance cooperative activities among 
the Federal R&D agencies related to understanding, measuring, 
characterizing, and assessing the relationships between human health 
and the components, processes, and changes in the total Earth system, 
including climate change.

    Dr. Asrar. We certainly take action to respond to the 
statement here. We are a member of the U.S. Global Change 
Research Program. This is sort of a partnership of about 12 
agencies across the nation, including National Science 
Foundation, but I am not really familiar with the subcommittee.
    Mr. Knollenberg. I am going to submit it for the record a 
specific question that will relate to some of this, and perhaps 
you can uncover some numbers for us because we would like to 
know as much as we possibly can. I will yield back. Thank you.
    Dr. Asrar. Yes, sir.
    Mr. Lewis. Thank you, Mr. Knollenberg. Obviously, this line 
of questioning will not go away, so we will improve upon it as 
time goes forward. Mr. Hobson.

           reductions in aeronautical research and technology

    Mr. Hobson. Thank you, Mr. Chairman. Welcome, Mr. 
Administrator. I want to talk a little bit about reductions in 
aeronautical research and technology. NASA's '99 budget request 
is $13.5 billion, essentially flat for the fifth year in a row. 
Science, aeronautics and technology is cut 15 percent in 1999 
from the 1998 level, which is a substantial cut in just one 
year.
    NASA's priority, I think, should continue to be a quality 
basic research which increases the return on the Government's 
investment and strengthens international competitiveness in key 
U.S. industries.
    Furthermore, in this current environment of significant 
year-to-year cuts, the basic research goals in aeronautical 
research must be accommodated.
    My question is, could you comment on the proposed NASA 
reduction in aeronautics? Do you think the reduction will have 
a negative impact on U.S. competitiveness? Could you summarize 
what basic research falls within the high-speed research 
program, and why NASA proposed a Phase 2-A to this program?
    Mr. Goldin. Let me answer the broad question, and then I'll 
ask Mal Peterson and Rich Christiansen to answer the specifics. 
We have a very strong program. In fact, in this year's budget, 
we added about $800 million to start the high-speed 2-A program 
which was a fundamental activity which we found in our high-
speed Phase 2 program where it appeared that we wanted to build 
a full-up engine that will operate supersonically and test it.
    We think this is the critical technology because the engine 
technology will determine the fuel efficiency for such a system 
and it will also have a very big impact on the emissions and 
noise. These were the three issues that caused the Concorde not 
to be economically feasible. So, we did put that program in.
    Secondly, we have put together a national consortium of 
NASA, the FAA, the DOD, the airline companies, the aircraft 
companies and their suppliers, to focus on a number of goals 
that we intend to accomplish in ten years and 20 years and, for 
the record, I will submit that so that you can see it. These 
are very tough goals across all areas.
    [The information follows:]
                          Strategic Framework
    Over the past eighteen months, we worked closely with our partners 
in government, industry, and academia developing a strategic framework 
to guide our research over the next twenty years. Last March, the NASA 
Administrator unveiled this strategic plan: ``The Three Pillars for 
Success.'' This plan for the future aligns our programs around three 
technology ``pillars:'' Global Civil Aviation, Revolutionary Technology 
Leaps, and Access to Space. In each pillar, we have defined the 
following enabling technology goals:
                   pillar one: global civil aviation
    <bullet> Reduce the aircraft accident rate by a factor of five 
within 10 years, and by a factor of 10 within 20 years.
    <bullet> While maintaining safety, triple the aviation system 
throughput, in all weather conditions, within 10 years.
    <bullet> Reduce emissions of future aircraft by a factor of three 
within 10 years, and by a factor of five within 20 years.
    <bullet> Reduce the perceived noise levels of future aircraft by a 
factor of two from today's subsonic aircraft within 10 years, and by a 
factor of four within 20 years.
    <bullet> Reduce the cost of air travel by 25% within 10 years, and 
by 50% within 20 years.
               pillar two: revolutionary technology leaps
    <bullet> Reduce the travel time to the Far East and Europe by 50 
percent within 20 years, and do so at today's subsonic ticket prices.
    <bullet> Invigorate the general aviation industry, delivering 
10,000 aircraft annually within 10 years, and 20,000 aircraft annually 
within 20 years.
    <bullet> Provide next-generation design tools and experimental 
aircraft to increase design confidence, and cut the development cycle 
time for aircraft in half.
                     pillar three: access to space
    <bullet> Reduce the payload cost to low-Earth orbit by an order of 
magnitude, from $10,000 to $1,000 per pound, within 10 years.
    <bullet> Reduce the payload cost to low-Earth orbit by an 
additional order of magnitude, from $1,000's to $100's per pound, by 
2020.
    These goals are framed in terms of a final outcome--the anticipated 
benefit of NASA-developed technology once it has been incorporated into 
our nation's aviation and space system. Each of these goals stretches 
the boundaries of our knowledge and capabilities. Each requires taking 
technical risks and performing coordinated long-term research and 
technology development with our partners in industry and government. We 
may not know how to fully achieve each goal today; however, we believe 
that together, NASA, the Federal Aviation Administration (FAA), the 
Department of Defense (DOD), industry, and academia will find the 
necessary technology solutions to turn these goals into reality.
    The Enterprise includes three major program areas: aeronautics, 
space transportation technology and commercial technology. The 
Enterprise's current portfolio of programs supports the ten technology 
goals and represents a logical framework for achieving the technical 
advances needed.

    Mr. Goldin. In a general sense, we are completing high-
speed Phase 2 and, as we go into 2-A, because we want to focus 
on the engines, we are delaying work on the air frame activity 
because we think it is going to get out ahead of the engines. I 
think that was a significant cause of the reduction in the 
program.
    Mal, would you like to add anything to that?
    Mr. Peterson. Yes, sir. There are a number of factors that 
contribute to the change. For instance, in high-performance 
computing, we spent a great deal of money this year in buying 
some testbeds. That activity is finished in '98, so we do not 
have that nonrecurring investment made in '99.
    We are in the peak year of funding in '98 for the X-33, 
Reusable Launch Vehicle, and that comes down--it is a bell-
shaped curve--in '99, as the program is getting into its flight 
test phase. Mr. Goldin has already addressed the high-speed 
research program. What we are watching is the culmination of 
the second phase of the program and the beginning in '99 of the 
buildup of the what we refer to as high-speed research 2-A, 
which is the new program that Mr. Goldin referred to as an $800 
million endeavor.
    So, most of the change is really due from program phasing, 
and not from deliberate policy decisions.
    Mr. Goldin. But I believe that America has the boldest set 
of goals in the aeronautics area than any nation in the world. 
We have set a goal of cutting the crash rate of planes by a 
factor of five in the next ten years. We have set a goal of 
cutting the cost of developing planes by a factor of 25 percent 
in the next ten years. Considering that for the past two 
decades the costs have gone up 50 percent, this is an 
incredible goal to develop those technologies.
    We have set a goal of cutting the cycle time to develop a 
new aircraft by a factor of two, and we have set a goal that 
within ten years we will increase the production rate of 
general aviation aircraft from somewhat over 1,000 aircraft a 
year to 10,000 a year, using the most advanced technology. And 
we are developing a jet engine and the technology for a small 
jet plane, four-place jet plane, that will get the cost down 
perhaps by as much as an order of magnitude. These are very 
tough, tough goals.
    And in that we also said within 20 years we will attempt to 
develop a technology so that this nation can produce a 
supersonic transport that will travel at mach-2.4, at 
economical rates, so you do not have to pay a premium on coach 
ticket.
    I would say that these are tough goals, and some of the 
folks in the aircraft industry have a ``pucker'' factor because 
they are a little bit concerned about this, and we may have to 
bring them along with us.

   cooperation/collaboration between nasa and other federal agencies

    Mr. Hobson. Thank you. I have two other questions I would 
like to ask, if I may. This is something that I have talked 
about before with you, and I want to go into this again, and 
this is the cooperation and collaboration between NASA and 
other Federal Agencies. I think it is vital to ensure that 
taxpayers get the most for their money, without unnecessary 
duplication.
    As an example, because of less funding for aeronautics and 
space in 1995, NASA and DOD agreed to perform more joint 
planning, common funding, and common operations at aerospace 
testing facilities. However, I am now concerned with a March 
1998 GAO study which indicated that virtually no progress has 
been made in this effort.
    According to the GAO report, NASA and DOD continue to 
compete with each other to test new rocket engines, and have 
not prepared a congressionally required joint plan on rocket 
test facilities. I want you to comment on that. And while I am 
on the subject of cooperation, I am interested to know more 
about the collaboration of NASA Lewis, and Wright-Patterson Air 
Force Base on aviation safety. I understand that NASA Lewis has 
20 percent of the total NASA Aviation Safety program, and it 
has been interacting with Wright-Patterson personnel on this 
program. As you know, that is something I have been 
particularly interested in. I am concerned about this GAO 
report because we want to encourage everybody to work together 
and not duplicate.
    Mr. Goldin. First, let me start by saying that in my 
estimation--and I have been in the business for a number of 
decades--the relationship between DOD and NASA has not been 
better. Gen. Estes has been a primary force. He is the head of 
the Unified Space Command. And we set up a partnership council 
with the Unified Space Command and with the Air Force.
    We are doing things such as combining the maintenance and 
operations activity down at Cape Kennedy, between Patrick Air 
Force Base and Cape Kennedy. We are also making a decision to 
not build next-generation spacecraft and having NASA rely on 
the DOD in this area.
    We are now committed to flying technology from the DOD on 
the Space Shuttle. The place that we are having more of a 
difficulty--I gave you those examples so that you understand 
that we are really working--the facilities is a difficult 
problem, and let me provide you a little perspective, 
especially rocket facilities.
    This nation put in very large rocket facilities during the 
Apollo program at NASA Stennis and in California at Edwards Air 
Force Base. I do not know that this nation could ever afford, 
given the present budget situation, to replicate those 
facilities.
    We have, at Stennis, probably the best facilities in the 
world for testing rockets. And Roy Estess, who is the Director 
down at NASA Stennis, would like to take on the job of doing 
all the rocket testing for this country. But he has a degree of 
reticence. And I have a nice report that he wrote, which kind 
of glosses things over, but I want to get to the crux of this 
matter.
    NASA and the DOD are in different budget line items. And 
there is a real anxiety, shared by both NASA and DOD, that once 
we shut the facilities down in California, if we were to do 
that at the DOD facility, and the DOD and the nation's defense 
was to rely upon NASA, and at some point in the future the NASA 
budget for whatever reason was to be cut--and it doesn't even 
have to involve my presence at NASA--we have a concern that we 
would not be meeting a national commitment and we are concerned 
about the whole budget process.
    In getting ready for this hearing and understanding the 
concern from the GAO report, I talked to our people, and this 
is what they are telling me, and we would like to openly 
discuss it because there is a genuine intent on the part of the 
DOD, the Air Force and NASA to work this problem, but we are 
going to need some help from the Congress.
    Mr. Hobson. I was going to say, if NASA and DOD do not 
get--here is what worries me--I do not want to take too much 
time, Mr. Chairman--if NASA and DOD do not work it out, then 
Congress will get into it, and that does not always work the 
best. So, I think--the Chairman and I both sit on the other 
committee, and so there is some convergence here. But I would 
suggest to you that you all need to get together or somebody is 
going to come down and mandate something and nobody is going to 
be happy, I am afraid.
    Mr. Goldin. But again I say before it gets mandated, there 
is a real issue. And when I first came to NASA, we had joint 
programs that were jointly funded by the DOD side and by the 
NASA side of Appropriations, where we could not keep track of 
it. And all I am saying is this is a genuine concern that we 
would like to openly talk to the Congress about.
    Mr. Hobson. I am done, Mr. Chairman. I have some other 
questions, I will submit them for the record.
    Mr. Lewis. Thank you very much. Mr. Stokes.

                      math-science education award

    Mr. Stokes. Thank you, Mr. Chairman. Let us go to Mr. 
Reese, if he is ready with his reply.
    Mr. Goldin. Do you have the answer, Mr. Reese?
    Mr. Reese. Yes, sir. Thank you, the Committee, and I am 
sorry for the lack of clarity and understanding. What I have 
found out, and I hope this addresses your question very 
specifically, was that as to the Math-Science Education Award, 
some of the allocations that were made, there were arrangements 
made with the recipient who could not use all of the money at 
the appropriate time, and that we would fully fund them in a 
subsequent year. And so the money was partially funded, some 
was also therefore used for more partnership awards.
    Now, we have talked with those recipients, and they are 
aware that they will be fully funded to whatever degree the 
initial award was. As a matter of fact, there is a meeting 
going on as we speak, working those arrangements out with a 
particular grantee.
    Mr. Stokes. So you are telling us then that what appears to 
be a decrease by about $1.9 million, or more than 22 percent, 
will, in the final analysis, not be a decrease?
    Mr. Reese. Yes, sir. Yes, sir. There was no planned 
decrease, and this was a bookkeeping methodology we utilized 
to, in fact, try to get all of our money appropriately 
allocated out at the point in time. And all the recipients will 
be, in fact, fully funded.

                       small business set-asides

    Mr. Stokes. Okay. Thank you, Mr. Reese. Mr. Goldin, I would 
ask that you also update the detailed information and 
statistics including minority representation small business set 
asides similar to that contained in prior year hearing volumes, 
if you will do that for the record.
    [The information follows:]


[Pages 164 - 210--The official Committee record contains additional material here.]



    Mr. Goldin. Yes.

                  mentoring small minority businesses

    Mr. Stokes. I see Mr. Thomas here, and I do not want to 
neglect the opportunity to have him talk a little bit about 
what he is doing. As you mentioned earlier today, I attended 
one of his conferences, and among other things that impressed 
me there was the ``Golden Stokes Award'' that is given to 
mentor-protegee persons who have done outstanding jobs in 
mentoring small minority businesses, and Ralph is doing an 
outstanding job.
    I see in his Opportunity Quarterly, he talks about--
somewhere in here he is bragging about all the good things they 
are doing. Why do you not come up and tell us about what is 
happening. I think the section I was referring to says ``NASA 
awards record number of contract dollars to small businesses'', 
is that correct?
    Mr. Thomas. Yes, sir. In fact, ever since 1992, the awards 
to small disadvantaged businesses have gone up. As you know, 
the Stokes Amendment required at least 8 percent of our 
contracts and subcontracts do this to go to small disadvantaged 
businesses. At that time, in 1990, it was just 5.3 percent. 
Today it is 14.5 for 1997.
    And we have had very good success in utilizing small 
disadvantaged businesses in a variety of areas and they have 
been critical to our success in our Agency's mission. Anything 
you want to look at--for example, the Lunar Prospector that was 
recently very successful, we heard about that.
    CNN called the Website the best that NASA had ever done. I 
think it took 15 million hits the first day. Well, that was 
designed by a small disadvantaged business. The very successful 
Mars Pathfinder, the batteries were designed, produced and 
manufactured by a small disadvantaged business, and they lasted 
longer than they were contracted to last.
    We were told at the last Space Station briefing that the 
small disadvantaged businesses were outperforming in terms of 
performance and cost the large businesses. So we have gotten 
small disadvantaged businesses involved in all of our critical 
programs and, overall, they have done very well. The quality 
has been high, and the cost has been the lowest reasonable 
cost. So we are very proud of that.
    Mr. Goldin. We have been competing them, too.

                            hyper-x program

    Mr. Stokes. I notice also, Mr. Thomas, on the front of your 
Opportunity Quarterly, you talk about a woman-owned business 
wins a HYPER-X contract. Very interesting, what is happening 
there. Can you tell us a little bit about it?
    Mr. Thomas. Yes. That was one I left out, but our HYPER-X 
program in which some experimental vehicles are going to be 
built to go faster than the speed of sound----
    Mr. Goldin. They are going to go between mach-7 and mach-
10, and they are going to be air-breathers, which is a 
revolution in technology.
    Mr. Thomas. That contract was won by a woman-owned 
business, Microcraft, of Tulahoma, Tennessee, and they beat out 
a large competitor mainly because their costs were 
significantly lower. Now, we hear a lot about woman-owned 
businesses and husbands and so forth. This woman took over from 
her mother. She has been running it for 12 years. Her mother 
died 12 years ago, and her mother ran it for 18 years when her 
husband died in 1968. So this woman, Fran Markham, has been 
involved with the company almost all of her life. So, that is 
the type of company businesses that we are using to be 
successful at NASA.
    Mr. Goldin. We made a decision at NASA not just to have 
volume, but quality, and we now are building the capability in 
the small disadvantaged business area that these companies are 
now taking on the big companies and they are actually winning. 
And this is what we want to have in America, a level playing 
field, and we have fought very, very hard to get to this level 
playing field, and we are very proud of these companies that 
have been working with us.
    Mr. Stokes. Well, I would just like to say that I have 
appreciated very much the commitment you have demonstrated in 
each of these areas that we have discussed. As is noted by Mr. 
Thomas, when the Stokes Amendment went on, we were in terms of 
minority contracts, at 5.3 percent, and they are now 14.5. Now, 
obviously, there has been great progress made in this area as 
well as other areas, in what you are doing.
    So I just want the record to show I appreciate the 
commitment you have had over the years, and the appointment of 
people who have been given the authority by you to make a 
change in these areas. So, I just want the record to show how 
much I appreciate it.
    Mr. Chairman, I have a number of other questions which I 
will submit for the record, and I yield back my time.
    Mr. Lewis. Thank you. Mr. Stokes, as you know, I think as 
most people know, I very much appreciate your commitment to 
these issues, and it has already been said at this meeting, 
that this may be his last NASA hearing but, indeed, the 
commitment over the years to make sure that these programs are 
quality is obvious to anybody who would look.
    It strikes me we have been working together longer than we 
thought. It was like 20 years ago, almost exactly at this 
moment, I was a freshman Member who wandered down to the Small 
Business Committee with an idea, and that was that we ought to 
put in the law that all of our research dollars should have a 
minimum percentage. I remember using the figure 10 percent 
would go to small and disadvantaged companies.
    Now, I must say that the Committee thought that was a good 
idea, and it was stolen from me and disappeared from the face--
I am not sure exactly what happened. [Laughter.]
    I learned that early in the Minority, that sometimes your 
ideas are stolen from you. But, indeed, we continue to work 
together, and your voice will be heard long after you decide to 
do other things.
    Mr. Stokes. Well, you have done an outstanding job also, 
Mr. Chairman, in your commitment in this area, and that is one 
case where a little theft does not hurt. [Laughter.]
    Mr. Lewis. Thank you very much, Mr. Stokes.

            science, mathematics, and Engineering Mentoring

    Mr. Goldin. Mr. Chairman, I would like to submit some 
bottom line measurables for the record, to substantiate what we 
have just been talking about.
    Mr. Lewis. They will be included, and we appreciate that.
    Mr. Goldin. The 1997 Presidential Awards for Excellence in 
Science, Mathematics, and Engineering Mentoring were awarded to 
nine institutions. Five of those institutions were funded by 
the programs we just talked about from NASA. That, in my mind, 
is a major accomplishment in terms of the quality of the 
program we have.
    And the other thing, I am proud to say, is that Florida 
A&M, another one of our minority universities got the Time 
Magazine College of the Year Award. So, we are having a very 
significant impact but, once again, I am coming back to a major 
theme. This did not happen because our budget went up, this 
happened because we have people like Ralph Thomas and George 
Reese, who are absolutely committed to doing things and not 
always asking for loads of more money.

               science, engineering, mathematics program

    Mr. Stokes. Can I just mention one other thing, Mr. 
Chairman. The SEMA program, which is Science, Engineering, 
Mathematics Program, and I am having a little trouble finding 
your fiscal year '98 amount here in the budget. As you know, 
last year the Committee added an additional $250,000. And let 
me tell you, that is the program that, Mr. Goldin, you have now 
seen fit to expand the program from Cleveland to Washington, 
D.C. to Detroit, and I think you are going into St. Louis, and 
I am sure it is something Mrs. Meek is going to soon want to 
see in Florida.
    Ms. Meek. Definitely.
    Mr. Hobson. There is one in Dayton and Springfield also.
    Mr. Stokes. But is that in the budget for '98, the SEMA 
program? That's where these young people, Mr. Chairman, young 
minority students in these inner cities come out on Saturday 
morning where people like the scientists and the researchers 
and the engineers at Lewis Research Center come out on Saturday 
morning and work with them and the families. The parents are 
required to be present. They study engineering, science and 
mathematics, and people just love that program. Those kids go 
on to become outstanding students.
    Mr. Goldin. I have met them. The answer to the question 
is----
    Mr. Reese. The answer to the question is yes, and you are 
absolutely right, we are replicating that in several cities. It 
has done, and is doing, an outstanding job. And we think that 
the payoff as it relates to the youngsters, getting them ready, 
is just great. And that is consistent with what NASA has been 
doing in many other areas, and this is one of the more viable 
programs that we, in fact, have. And we have written it up in 
our latest publication on education and training.
    Mr. Stokes. I would like a copy of that, too.
    Mr. Reese. Yes, sir.
    [Clerk's note.--NASA provided a copy of the 1997 Research 
and Technology Report and the FY 1997 Education and Training 
Report to Mr. Stokes and the Subcommittee.]
    Mr. Stokes. Thank you, Mr. Chairman, Mr. Reese, Mr. Thomas, 
and Mr. Goldin.
    Mr. Hobson. Mr. Chairman, if I may, I would like to know 
about the money because is there a budget item in here? Where 
is the money shown for this?
    Mr. Stokes. That was the problem we were trying to find an 
answer to.
    Mr. Hobson. I do not think there was an answer to that, Mr. 
Chairman.
    Mr. Peterson. Yes, sir, there is funding in the program. In 
the Budget Justification package, we speak specifically about 
it in our operating plan discussion where we note that $1.5 
million was allocated to SEMA in addition to the base amount. 
That is, I believe, $300,000, that you expanded from $300,000 
in '97 to $1.8 in '98. So, it is in the Changes column of the 
Budget Justification.
    Mr. Lewis. If you would expand upon that response for the 
record, $1.8 million was the fact that you might like to make 
Mr. Hobson and Mr. Stokes know that.
    Mr. Stokes. We put an additional $250,000, as I recall.
    Mr. Hobson. I think somebody at NASA needs to look at that 
because we were having trouble with it, too, and I would just 
like somebody to check that out.
    Mr. Reese. Be glad to. It appears that the Budget 
Justification book for the educational technology area is in 
error, and I apologize for that. Clearly, we have a confusion 
here.
    Mr. Goldin. We will correct it.
    Mr. Lewis. Mr. Stokes, you can be assured that both Mr. 
Hobson and Mrs. Meek will be following this as well.
    Mr. Stokes. Thank you very much, appreciate it.

                            annual cost cap

    Mr. Lewis. Thank you, Mr. Stokes. Mr. Goldin, going back 
just for a moment, one of the issues which the Task Force noted 
could have contributed to current problems with the Station 
development was the annual cost cap of $2.1 billion. In light 
of that assessment, what are your feelings with regard to the 
cost caps in the NASA Authorization Bill reported by the Senate 
Commerce Committee on March 12th of this year?
    Mr. Goldin. Mal just said to me they switched it between 
accounts, and we will provide for the record the correction to 
the question that Mr. Hobson asked.
    Mr. Lewis. That is all right, just clarify that for the 
record.
    [The information follows:]

      BASIS OF FY 1999 FUNDING REQUIREMENT--EDUCATIONAL TECHNOLOGY      
                         [THOUSANDS OF DOLLARS]                         
------------------------------------------------------------------------
                                     FY 1997      FY 1998      FY 1999  
------------------------------------------------------------------------
Learning tools...................        2,000        1,700        1,900
Demonstrations...................        2,000        2,000        1,800
HPCC.............................        1,400        4,200        4,000
Museum Initiative/American Museum                                       
 of Natural History..............        8,000  ...........  ...........
Upgrades to Mobile Aeronautics                                          
 Education Lab...................          300  ...........  ...........
Feasibility Study, National                                             
 Residential High School, LeRC...          250  ...........  ...........
Replication of Science,                                                 
 Engineering, Mathematics and                                           
 Engineering Academy (SEMMA).....          300  \1\ [3,300]  ...........
Classroom of the Future,                                                
 Astronomy Village...............          300  ...........  ...........
Bishop Museum/National Prototype                                        
 Space Education Curriculum......        1,600        1,000  ...........
Alaska Learning Center...........  ...........        1,300  ...........
Apple Valley, California Learning                                       
 Center..........................  ...........          800  ...........
K 12 Telecommunications..........  ...........        2,000  ...........
Louisiana Daily Living Center....  ...........        1,000  ...........
Pennsylvania Education                                                  
 Telecommunications Center.......  ...........          700  ...........
California Discovery Science                                            
 Center..........................  ...........          500  ...........
                                  --------------------------------------
    Total........................       16,200       15,200        7,700
------------------------------------------------------------------------
\1\ Additional funding for SEMMA included in Other Minority Universities/
  Minority University Research and Education Program in FY 1997 and in  
  FY 1998 as directed by Congress.                                      

    Education information: this effort will continue in FY 
1998. The Educator Resource Center Network redesign effort to 
insure national access and to make greater use of emerging 
educational technologies, will be completed in FY 1998.
    Educational Technology activities in FY 1997 included 
funding for the following activities directed by Congress in 
the Conference Report accompanying the FY 1997 VA-HUD-
Independent Agencies Appropriation Act (P.L. 104-204): National 
Prototype Space Education Curriculum in conjunction with the 
Bishop Museum in Hawaii; further development of the American 
Museum of National History/National Center for Science, 
Literacy, Education and Technology; upgrades to Mobile 
Aeronautics Education Lab.: feasibility study to create a 
national residential high school at the Lewis Research Center; 
replication of the Science, Engineering, Mathematics, and 
Aeronautics Academy (SEMMA) program at Cuyahoga Community 
College; and increase learning effectiveness of the Classroom 
of the Future, by assessing and improving student scientific 
inquiry abilities using the Astronomy Village Program. In FY 
1998, additional activities directed by Congress include the 
Alaska Learning Center, Apply Valley (CA) Learning Center, 
additional funding for the Bishop Museum (III), California 
Discovery Science Center, K-12 Telecommunications, Louisiana 
Daily Living Center, and the Pennsylvania Education 
Telecommunication Center. Funding for expansion of the SEMMA 
program directed by Congress is included in the Minority 
University Research and Education Program.

    Mr. Goldin. NASA has always tried to do the right thing.
    Mr. Lewis. Well, of course.
    Mr. Goldin. This Committee has held us accountable and has 
done a very thorough job in overseeing the work that we have 
done. Senator McCain has proposed an additional step to utilize the 
total cap on the program.
    We are willing to work with Senator McCain, as I openly 
testified, as long as we have flexibility in the planning and 
that this be treated as a very cutting-edge R&D program, which 
it is, and not a production type program. These are the two 
areas where we are having discussion with Senator McCain's 
staff, and we will try and work with them and see if we can 
come up with an appropriate cap.

               nasa's projection and boeing's performance

    Mr. Lewis. We will look forward to that ongoing discussion. 
Mr. Goldin, one of the bright spots as we have struggled with 
the question of funding by way of international partners, 
slipping of schedule, et cetera, has swirled around the fact 
that the major contractor has made every effort to participate 
and stay on schedule, but there are some questions there.

                             spares program

    Recently, since the March 12 hearing, there has been a 
reassessment of the Station program execution in fiscal year 
1998, and in particular Boeing has not been spending as much on 
spares as NASA has projected. So, I have a series of questions 
in connection with that, and let me start with, what is the 
current dollar value of the difference between NASA's 
projection and Boeing's performance? What is the reason for 
Boeing spending less on spares than NASA assumed?
    Mr. Rothenberg. Okay. The total spares budget difference 
that Boeing is right now projecting is about $70 million that 
they will not be spending in this fiscal year. We did get an 
update yesterday, which says that they may drawdown on that 
additional $30 million, and here is the reason.
    Number one, the spares program was developed to deal with 
the early U.S. Lab and the Node and having spares for those in 
the early part of the program, and also dealing with the back 
end of the program, later deliveries.
    One of the things that we did when they laid out the 
program, they assumed that they would buy all of the spares 
right up front. However, after reviewing the program, they 
realized that they would be committing to spares and committing 
to the cost of them before they were finished qualification 
testing on some units.
    So, what they did is, they re-evaluated the program and 
said what they would like to do is buy the spares to protect 
the up-front schedule items, and that is the Node and the U.S. 
Lab, and defer the procurement of the spares for the remainder 
of the program until all of the parts have completed 
qualification testing. And what is happening now is, they are 
watching the qual tests which are going on mostly this year on 
the flight hardware and, as they are completed, then they are 
issuing the procurement orders.
    So, they are going to buy them, and it is just a question 
of whether the cost comes in in this fiscal year or next fiscal 
year.
    Mr. Lewis. There is a bottom line concern relating to this 
issue essentially asking if this is a pattern and if the trend 
were to continue regarding the spares, would there be a problem 
or implications relative to supporting assembly and operations 
of the Station?
    Mr. Rothenberg. Well, currently, they are projecting and we 
believe that they have all of the spares on the procurement to 
protect the early part of the program. We also believe what 
they are doing is prudent in terms of deferring until the qual 
tests are complete, the procurement of the remainder of the 
spares. That is not going to drag out forever. We are talking 
about something that is going on later this year. It is just a 
question of when they will be delivered.

                  launching other missions or payloads

    Mr. Lewis. The fiscal year 1998 plan for Shuttle missions 
was for six flights. Since development of the budget, the 
Advanced X-ray Astrophysics Facility flight has been 
rescheduled from August to December of 1998. In addition, 
Russian performance on the Service Module for the Space Station 
may cause a slip in the Station Node-1 flight. If the Node-1 
launch is delayed beyond the end of the fiscal year, is NASA 
considering launching other missions or payloads on the flight, 
or will the flight rate be reduced to four?
    Mr. Rothenberg. Well, the first thing is, in order for the 
flight rate to reduce to four, everything would have to fall 
apart, not just a minor delay. There are nine flights, 
actually. There are nine flights on the docket in FY99. Six of 
them are Station flights, in addition there is STS-95, which is 
a medical flight, utilization flight. There is the AXAF, and 
then there is the radar flight, a joint DOD flight.
    So, as a minimum, there are three flights that are non-
Station. Right now, we are projecting that we will have at 
least four flights for Station, if not all six next year, even 
with the kind of slips we are looking at, potential slips.

                        launch of service module

    Mr. Lewis. The manifest for fiscal year 1999 includes six 
mission related to Space Station assembly. What are the 
implications for both the cost and flight rate of Shuttle 
operations in fiscal year 1999, if the Service Module is not 
launched on the current schedule?
    Mr. Rothenberg. One of the problems--not problems--one of 
the ways the Shuttle program flights are funded or costed is 
that you have to have procurement of the boosters and a lot of 
the expendable parts of the vehicle three to four years in 
advance. So, most of the money is already spent for the '99 
missions.
    What it will do is give us a backlog of some of these parts 
and offset the cost in future years. So, that is one piece of 
it. The second is that if we look at any given flight, the 
incremental cost of that flight is somewhere around $30-40 
million, so there would be some savings there but, 
fundamentally, the parts have already been committed, and that 
is the bulk of the cost of the flights.

                              x-38 program

    Mr. Lewis. Included in the advanced projects program is 
funding for the X-38, which is designed to demonstrate 
technologies and processes required to produce a CRV for use on 
the Space Station. It appears you have encountered some 
difficulties with the program because the budget materials 
indicate a one-year slip in the atmospheric test program.
    What have been the cause of the delays, and what plans do 
you have to recover the schedule?
    Mr. Rothenberg. Well, actually, as I think everybody knows 
but I would like to reiterate, they had a very successful first 
flight a couple of weeks ago, and we congratulate the team.
    Getting up to that flight, they really did their homework. 
They really ran into some problems early, as you may remember, 
and ultimately delayed the flight until they had a number of 
additional carries and additional desert tests, which they were 
testing pieces of it. So that was the first part. So, it did 
delay it from last May until just this past month, the first 
flight, the first drop, in fact.
    The second point was they have an RFP out. They are 
evaluating proposals to start a production of the orbital test 
vehicle. We believe that contract will be awarded sometime 
before June in this quarter of this year, and that will pick up 
the schedule again.

                        de-orbit module contract

    Mr. Lewis. Contract award for the de-orbit module is 
projected for the second quarter of '98. Has the contract been 
awarded, and who got it?
    Mr. Rothenberg. Yes, that is the one I just referred to. 
Actually, the RFP went out, the proposals are in, we are 
evaluating it. It should be awarded in the third quarter.
    Mr. Lewis. What is the value of that?
    Mr. Rothenberg. I think it is $20 million.

                     next-generation launch systems

    Mr. Lewis. Last year, NASA released a Request For 
Information which identified requirements for Shuttle systems 
upgrades. Included as part of that document was that manifest 
mission supportability included a ``capability to increase the 
number of flights to ten flights per year by the end of fiscal 
year 2002, and 15 flights by the end of 2007''. The document 
further states that 15 flights per year assumes the 
availability of liquid flyback boosters.
    Since this document references liquid flyback boosters, 
does that mean that NASA has prejudged the outcome of studies 
regarding the development of next-generation launch systems?
    Mr. Rothenberg. Absolutely not and, in fact, just starting 
with the booster part of that question, where liquid flyback 
booster is just one option. There is also a fifth segment solid 
that we are looking at.
    Backing up from that, the reason that model was generated, 
we were doing a study that the study considered the potential, 
and where we would like to ultimately head is the 
commercialization of the Shuttle program, and one could predict 
that if we did commercialize it, there may be ten to 15 flights 
a year out in the outyears. So, we created a mission model for 
contractors to study the upgrade program and looked at what if 
it was ten flights, what if it was 15 flights, and that is 
where those numbers come from.
    Mr. Lewis. Expanding just a bit, you have allocated $10 
million for such studies in '98, and $20 million in fiscal year 
1999.
    Mr. Rothenberg. Yes, sir. Where that is, that money is not 
allocated just for Shuttle studies. There is an advanced space 
transportation system study, architecture study, and there are 
going to be three contracts let. And, in fact, the terms of 
reference in the RFP is being generated now, which look to 
spend about $5 million this year and maybe up to $20 next year, 
to look at the architectures that involve not only human space 
flight, but the RLVs, expendables, and what should be 
architecture, where should we be investing our money.
    In parallel with that, there is going to be an ASEB, 
Aerospace Systems and Engineering Board----
    Mr. Lewis. That's at the National Research Council.
    Mr. Rothenberg [continuing]. Part of the NRC, study that 
looks at the total set of upgrades we are proposing for the 
Shuttle, and looks at the potential reliability performance 
gains from each one, the potential return on investment, the 
cost and cost-risk, and looking at those and providing a basis 
to factor into the overall architecture study what the Shuttle 
upgrade program could be and could provide.
    Mr. Lewis. I have got a number of questions that relate to 
liquid flyback booster and this subject area, I will ask you to 
expand on this for the record. Mr. Frelinghuysen.

                          nasa-dod cooperation

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I would like to 
get back, Mr. Goldin, to some of Congressman Hobson's questions 
relative to the GAO report of earlier this month. I was not 
entirely satisfied with your responses. In fact, the title of 
the report is Promise of Closer NASA-DOD Cooperation Remains 
Largely Unfilled. The GAO states, as Mr. Hobson did, ``This 
cooperation is largely unfilled at aerospace test facilities 
because NASA and DOD, one, have not yet convened most test 
facilities alliances; two, compete with each other to test 
agents for new rockets; three, did not prepared congressional-
required joint plan on rocket propulsion test facilities''.
    I think at some point in time those criticisms need to be 
answered, whether it is in this Committee or in the report that 
follows. I think that those are some pretty strong feelings. 
And the report goes on further to say, page 14 of the same GAO 
report--and I have mentioned two reports today, the one from 
last July and the one from earlier this month. Page 14 of the 
GAO report from this month, another quote on page 14, 
``Progress towards validating the proposition''--this is a 
cooperative agreement--``has been'', in the words of GAO, 
``slow and sporadic''. And then the report goes on to say, and 
I quote, ``While the effect of such a delay is unclear, it may 
indicate that some NASA and DOD test officials do not see the 
alliance as having a practical value, and that, with few 
exceptions, they will not object to continuing the pre-alliance 
status quo''.
    I mean, this gets to the culture issue. I am an ally of 
NASA on this committee. I believe in the Space Station. I am 
ready to go to bat for you. But when the GAO comes up with 
these types of observations, I think they need to be countered 
and rebutted. And maybe you do not want to do it this morning, 
but would you like to briefly comment on how you are handling 
these criticisms? I did not get a feeling of great confidence 
from your earlier responses.
    Mr. Goldin. First, I would like to come at the part of the 
report that we are not cooperating, and then it goes on to talk 
about the aerospace test facilities. I wanted to point out to 
you that we are working to cooperate. It is a very difficult 
process. It is not something that I believe one can legislate. 
It requires building confidences.
    I have been personally meeting with Gen. Estes every six 
months at a partnership council, trying to deal with these 
issues, and we have made some progress in some areas, and we 
have not made it in others.
    There has been a problem between NASA and DOD that existed 
for many, many years, that hinges around the Shuttle program. 
And, again, I am not going to deal with the individual issues 
and, in fact, our people put a sheet together saying all the 
great work they are doing on writing these documents. I do not 
want to deal with that because I understand the sense of the 
question.
    But what happened was NASA ended up with the Shuttle, and 
all the DOD missions went on that Shuttle, and we found that 
the nation had a single-point failure when the Challenger 
exploded.
    To this day, I have difficulty in some of my own 
relationships with the DOD because of the residual concern 
about the relationship. It is a tough, tough issue to take on, 
and we are taking it on, but you can only take it on one step 
at a time and work it.
    I tried to indicate to Mr. Hobson not a bureaucratic 
response, but there is an anxiety on the part of some of the 
people due to the way we do budgeting, that if we close some of 
these facilities----

                        test facility alliances

    Mr. Frelinghuysen. I understand the different line item 
issue is perhaps a legitimate issue, but I do think there must 
be some good, clear reasons why you have not yet convened most 
of the test facility alliances. Do you, in fact, compete with 
each other to test engines for new rockets?
    I mean, I would think either those are facts that the GAO 
has brought to our attention, or they are pure speculation.
    Mr. Goldin. I just do not know how to comment on that, and 
I would have to ask one of our folks that is directly involved. 
The last thing I want to do is compete with the DOD. I have had 
meetings with the prior Chief of the Air Force, and I just met 
with the new Chief of the Air Force. I have worked with the 
Secretary of the Air Force when she was there. When the new 
Secretary of the Air Force comes in, I will work with them.
    These are very difficult issues. I come back and say we 
have made a lot of progress. I accept the fact, and I will 
accept responsibility, that we have not made as much progress 
as we should in the test facilities, but we are going to fly, a 
very significant mission with the DOD, something we haven't 
done before, to get a digital map of the world.
    So, I could point to a number of success stories. We are 
getting an F in this category, and I accept that, and we will 
just try and do better.

                        data analysis priorities

    Mr. Frelinghuysen. With so many missions, changing the 
subject somewhat, but certainly germane to the Chairman's line 
of questions earlier, with so many missions on the drawing 
boards or in near flight, what are NASA's priorities for data 
analysis? How much is spent now? Is there a potential of, as 
some describe, as a ``data glut'' from so many missions? And 
when it is all said and done, how do we really focus on getting 
what is most important out of all the data that is collected 
from all these missions?
    I am ready to be excited, and am excited, about what you 
are doing, but it seems to me I may come from the school, 
certainly the lay school, all these missions collecting data, 
what does it really mean, and how are we handling this massive 
amount of information, and how is the public going to come to 
benefit from it?
    Mr. Goldin. You have asked what I consider to be one of our 
major challenges over the next five to ten years, and that is, 
``data-mining'' with the volume of data that is going to start 
coming down. And I will give you but one example.
    In the Earth Sciences program, as we launch some of these 
next-generation platforms, we will collect more data in one 
month than we did in the prior 30 years. That is an enormous 
task. The tools that we are using need very significant upgrade 
in order to do this data-mining.
    Towards that end, we have begun a new program--it is not a 
new program--we are expanding our program in the development of 
engineering tools. One of our highest priorities is to work 
with the industry--the computer industry, the software 
industry--to get ourselves the highest level tools so we do not 
have a ``data morgue'', which is the concern that you 
expressed.
    We have increased the budget for the research and analysis 
in Earth Sciences because this was one of the areas we were 
concerned about that data glut. Another issue that we have done 
is we are restructuring the whole EOS-DIS information program 
so that we could more efficiently process the data by going to 
principal investigators instead of having a centralized system. 
So, we are breaking down the system.
    In the Space Science area, we do have this principal 
investigator-led data analysis, and we think it is much more 
effective.
    Mr. Frelinghuysen. You have satisfied my curiosity. I think 
the Chairman wants to do something like close this down, I do 
not know. Does every mission have every conceivable type of 
instrumentation, or are we limiting? I mean, I know the 
analysis of the data is setting priorities is important, but is 
there some sort of limitation, or isevery mission going like a 
fully loaded car?
    Mr. Goldin. No. In fact, that is one of the concepts of 
faster-better-cheaper, and that is to get away from these 
platforms that look like they are the last ship out of port. 
You have to have every last instrument on it, and if you lose 
that ship, you do not have anything for a decade.
    We are going to more focused missions where we have 
specific sensors targeted at specific sciences on those 
spacecraft and, as a result, we have that prioritization that 
you have talked about.
    Mr. Frelinghuysen. Mr. Chairman, are you still giving me 
the lead here?
    Mr. Lewis. Go right ahead.

        X-33 and X-34 Reusable Launch Vehicle Technology Program

    Mr. Frelinghuysen. At last year's hearing, Mr. Goldin, 
budget hearing, you told us that, and I quote, ``we may fail'', 
in the X-33 and X-34 Reusable Launch Vehicle Technology 
Program. Do you still feel this way, and can you give us a 
brief status report on these programs?
    Mr. Goldin. I will provide the context of why I said we may 
fail. These are very high-risk programs that push the 
boundaries of technology to have incredible possibilities in 
terms of reduction of cost and improvement of safety.
    I was referring to the fact that we could have a crash with 
the X-33, but the fact of the matter is, at this point in time, 
we have made major contributions to the technology for the 
next-generation launch vehicles. We have built composite 
hydrogen tanks which will have a significant reduction in cost 
and weight for these systems.
    We have flight tested and ground tested the Aerospike 
engine, which is a major step forward. We have developed health 
monitoring systems that will be used across-the-board. So, yes, 
we could have a failure, but we are going to make great 
progress.
    We also have moved very far on the X-34 program, and the X-
33 looks like it is on schedule for a launch in July of '99, 
which is three years after the day we started, the day we 
announced, which is, in and of itself, a major management feat, 
and the X-34, I believe, is on schedule for March of '99, and 
these are two very tough programs. And this is what NASA ought 
to be doing, more of these and less of the standard operational 
systems.

                        average spacecraft Cost

    Mr. Frelinghuysen. Earlier in this decade, the average 
cost--correct me if I am wrong--per spacecraft launch was about 
$590 million?
    Mr. Goldin. Yes.

                              Launch Goals

    Mr. Frelinghuysen. You stated in previous testimony before 
this committee that NASA has a goal of $77 million per launch 
for the year and beyond. Can you tell me if you remain 
optimistic about meeting this goal?
    Mr. Goldin. We are on track. Mr. Frelinghuysen, I want to 
say that I have thought about your comment and Mr. Hobson's 
comment about the testing, and that I have allowed a process to 
go on that was letting nature take its course. I am going to go 
back and think long and hard about your question. And I gave 
you what I do not like to do, a bureaucratic answer, saying it 
is too hard. And maybe it is not too hard.
    I am going to get back to you on the record, and I am going 
to give you a more thoughtful response. I am not happy with the 
response I gave you.
    [The information follows:]
                   Rocket Propulsion Test Facilities
    The National Rocket Propulsion Test Alliance (NRPTA) has met 10 
times, most recently in February 1998, at SSC with representatives from 
all DOD Service and NASA Centers, and another meeting is scheduled at 
White Sands Test Facility on May 28, and 29. Meetings to date have 
resulted in:
    1. Well-defined documentation of test capabilities at each NASA-DOD 
rocket test facility.
    2. Agreement to review investments on test facilities prior to 
implementation.
    3. Much better understanding of test requirements at all NASA-DOD 
rocket test facilities.
    4. A proposed baseline test role in each NASA-DOD facility to 
minimize duplication.
    5. Awareness that we currently need a national mechanism to manage 
rocket test facilities so they can be brought on an off line as 
required to meet national requirements.
    6. Significant personnel and equipment sharing avoiding and 
reducing test costs to both agencies.
    Baselining test roles and understanding capability and agency 
strategic goals with respect to propulsion development will minimize 
competition for test projects; especially if we're successful at 
implementing a management structure which is empowered to make test 
assignments and make investment decisions across all the Nation's 
rocket test facilities. The rocket engine commercial development 
community actively solicits proposals from NASA and DOD sites for the 
conduct of test programs. NASA has this situation under control within 
NASA through its Lead Center activities. However, there is no mechanism 
at this time to prevent NASA/DOD competition. The NRPTA has made 
significant progress in cooperation and visibility between the two 
organizations, but neither is in a position at this time to turn away 
business.
    An interim DOD response, with NASA concurrence, to the 
congressionally required joint plans on rocket propulsion test 
facilities was submitted to the Congress on March 6, 1997.
    NASA has not been involved in the Air Force's Quadrennial Defense 
Review or the Vision 21, which the Air Force told Congress would be two 
of the three mechanisms used to develop the required joint plan on 
rocket propulsion test facilities. The third element is the NRPTA which 
NASA established and is fully committed to making it successful. 
Recently, DOD has informed Congress that Vision 21 will be folded into 
future BRAC rounds. Congress has not accepted this.
    NASA sees tremendous value in the NRPTA, and has been the catalyst 
to keep alliance activity forging ahead. NASA understands and accepts 
that the pre-alliance status quo cannot continue. DOD support is needed 
to appoint a responsible party to speak for DOD rocket test matters. 
NASA has this in our Lead Center for Rocket Propulsion Testing at 
Stennis Space Center. We have successfully begun the very difficult job 
of consolidating NASA's rocket test capability by moving substantial 
capability around the agency so it can be better utilized. To date, 
over 16 test projects have been assigned through our NASA Rocket 
Propulsion Test Management Board. Over $24M in cost savings and 
avoidance have also been realized.
    A major cultural shift is occurring within NASA with respect to 
rocket propulsion testing. DOD's support is required to take this to 
the national level.
    After nine meetings of the NRPTA, NASA developed a Headquarter's 
directed Consolidation Plan over the timeframe of one year during which 
time the Alliance did not meet. The plan was not accepted in its 
entirety and was implemented through a definition of respective NASA 
Centers (Stennis Space Center, Marshall Space Flight Center, Lewis 
Research Center, White Sands Test Facility) test facility baseline. 
These baselines were agreed to in a summit meeting at SSC in the fall 
of 1997. This cleared the way to re-initiate Alliance meetings, which 
of course include the DOD. In other words, NASA was attempting to get 
its own propulsion test house in order to prepare for ``national'' 
discussions with the DOD. The Alliance met in February 1998 and has an 
upcoming meeting on May 28 and 29 at the WSTF.

    Mr. Frelinghuysen. With the Chairman's indulgence, I have 
one last question which is fairly lengthy, if you can bear with 
me.
    Mr. Lewis. You are not coming back this afternoon?

                               sun-earth

    Mr. Frelinghuysen. No, I am not, not without you, Mr. 
Chairman.
    Administrator, the work that NASA does under the Sun-Earth 
connections theme of the Space Science Enterprise is producing 
much new scientific knowledge of direct importance to life on 
Earth. In this regard, I am pleased to note the establishment 
of the line of solar-terrestrial probe spacecraft missions that 
are designed to improve the opportunity for access to space for 
this vital research.
    I am also impressed that we have already operational space 
assets in this program with a value of some $3 billion in place 
for coordinated study of the increase of solar activity of the 
new sunspot cycle.
    These ongoing science missions were reviewed in 1997 at 
NASA's request, by a panel of scientists. This was a zero-based 
review of the scientific value and minimum support required to 
continue to exploit the nation's investment in this field of 
research.
    The panel concluded, as I understand, that a mission's 
operation and data analysis budget from NASA's Office of Space 
Science of about $63 million is required to assure the success 
of the nation's Solar-Terrestrial Research Program in the 
future.
    Could you tell me, Mr. Administrator, whether your fiscal 
year 1999 budget request includes the $63 million for the solar 
maximum campaign, and whether your three-year budget plan 
continues support for this campaign at the level advised by the 
1997 review panel?
    Mr. Goldin. I would like to ask Dr. Wes Huntress to answer 
that question, if that is okay with you.
    Mr. Frelinghuysen. Please do. Thank you, Doctor.
    Dr. Huntress. Mr. Frelinghuysen, in addition to the Solar-
Terrestrial Probes as a new element in the '99 budget proposal, 
another one was, in fact, the continuation of the International 
Solar-Terrestrial Probe series of missions that we had started 
several years ago, and which has just observed the sun through 
solar minimum, and the idea was to extend these missions 
through solar maximum. That was the reason that we had this 
particular group come in and give us advice on what the 
resource requirements for those were.
    We will get you the exact number--I do not remember the 
exact number--but our budget proposal for fiscal '99 carries 
out this mission set through fiscal '02 in order to observe the 
solar maximum at or slightly above the minimum request that 
this committee gave us. I will get you the exact--
    [The information follows:]
                              ISTP Budget
    The President's FY 1999 budget run-out for the ISTP program is 
follows:
    FY 1999 Budget Run-Out--Dollars in Millions--FY 2000 $25.0; FY 2001 
$25.1; FY 2002 $25.1; FY 2003 $25.0.

    Mr. Frelinghuysen. So, $63 million is within the ballpark?
    Dr. Huntress. What they gave us was a five-year runout----
    Mr. Frelinghuysen. Is there a three-year budget plan?
    Dr. Huntress. There is a five-year budget plan, and I will 
get you the data on that.
    Mr. Frelinghuysen. Are we in that ballpark?
    Dr. Huntress. Yes, sir, we are.
    Mr. Frelinghuysen. Thank you, gentlemen. Thank you, Mr. 
Chairman.
    Mr. Lewis. Thank you, Mr. Frelinghuysen. Director Goldin, 
conflicting schedules and changing, shifting circumstances kind 
of alter everybody's best plans. We are going to recess the 
Committee at this point. We had originally scheduled coming 
back at two o'clock. Unless it is a total impossibility, I 
would like to have us bring down the gavel for coming back into 
session at 1:30, and we will try to quickly go through the 
remaining issues and see what progress we can make.
    Mr. Goldin. We are prepared to support any schedule you 
have.
    Mr. Lewis. All right, 1:30 then. Thank you.
    [Recess.]

              multi-functional electronic display systems

    Mr. Lewis. Sorry for the delay but, as you know, the 
Supplemental Bill is moving to the Floor, and Members are in 
conflict, but we probably have some technical issues that we 
ought to get to.
    Mr. Director, if the meeting will come back to order. In 
the fiscal year 1998 budget, the plan was to spend $32.4 
million in 1997 and $15.3 in '98 for MEDS, the Multi-Functional 
Electronic Display Systems. The fiscal year 1999 budget shows 
that only $15.9 was spent in '97. The '98 requirement is $31.1. 
There is a request for $5.5 in 1999.
    Does this shifting of funds among the three fiscal years 
indicate that the program is still experiencing development and 
supplier problems, and what are the implications of 
installation of MEDS in the Orbiter Atlantis during its OMDP 
this year?
    Mr. Goldin. I would like to ask Joe Rothenberg to answer, 
if that is okay.
    Mr. Rothenberg. To start with, number one, there were 
supplier problems specifically with the glass on the tubes.That 
has been solved. They have a new supplier, and Atlantis will have MEDS 
in it, and actually I saw a demonstration of it last Thursday down at 
JSC.
    Mr. Lewis. Beyond the experimental and development supplier 
problems, the pattern of the funding or request causes me to 
scratch my head. Tell me about that.
    Mr. Rothenberg. Well, what they did is when they had the 
supplier problems, they actually slowed down the program until 
they solved the problems and were sure they had them solved, 
and then they reprogrammed the money back in there to put in 
the years they needed for the upcoming OMDPs, and Atlantis does 
have it in, as I say.

                             Orbital Debris

    Mr. Lewis. Okay. The National Research Council recently 
completed a study on protecting the Space Shuttle and 
astronauts from orbit debris, small particles, not pieces of 
satellites, but I gather flecks of paint or otherwise. I am 
asking this question because I do not want to have this kind of 
problem when I am in one of those uniforms outside the Shuttle 
sometime. [Laughter.]
    What actions have you taken to reduce the risk of the 
Shuttle mission termination or critical failure caused by 
collision with orbital debris?
    Mr. Rothenberg. Okay. As part of the Phase 2 upgrade 
program that was specifically a program to reinforce areas that 
were vulnerable, specifically, the leading edges of the wings, 
the nosecone. There are some sharp edges on the front end that 
are particularly vulnerable. They actually put some insulation 
behind it so if we do get a penetration, it absorbs it. The 
radiators and the freon loops were another area that was 
critical on that, payload bay doors, and those were also 
reinforced, and that is part of the Phase 2 Shuttle upgrade 
program.
    Mr. Lewis. The NRC study also noted this risk particularly 
to astronauts during extra-vehicle activity, which will be very 
common and extensive during assembly of the Space Station. The 
report states, and I quote, ``Most vulnerable parts are the 
soft areas of the spacesuit''. Given this assessment, why is 
NASA developing a new soft spacesuit which is to be delivered 
for testing in 1998?
    Mr. Rothenberg. Some preliminary inputs that I have gotten, 
a preliminary report that I have seen from JSC, is that they 
believe--and I need to penetrate this further because there are 
still questions in my mind, but the current belief is that 
there is a tradeoff between using a rigid or hard suit, and the 
amount of time the astronauts will actually have to spend in 
assembling the Station and being out there. The duration of the 
exposure, first, is being able to work faster and work more 
comfortably in a soft suit, but being out there with less and 
less exposure. So it is a tradeoff that they performed.
    I would really like to reserve the right to, one, review 
the data, and also hear some other views on the alternatives.
    Mr. Lewis. I would appreciate that input. It is items like 
this, just the wrong thing occurring at the wrong time, and 
everything we are about goes up in smoke.
    Mr. Rothenberg. Absolutely.

                        Supportability Upgrades

    Mr. Lewis. Included in the Orbiter improvement portion of 
the safety and performance upgrades budget is a line for 
supportability upgrades, with a request of $48 million for 
fiscal year 1999. What are the specific upgrades being financed 
through this?
    Mr. Rothenberg. Okay. There is actually a couple of pieces 
of that. The number, I believe, in question, is probably 44 
because in the actual submission there is $51 million in there 
for the upgrade of the launch processing system. I think there 
is $3 million in there for GPS, and there are a couple of other 
small items.
    In addition to that, things on the list are damage tolerant 
thermal protection system, electric APU studies, some fuel cell 
studies, mission TV, some fiber optic busses to replace some of 
the wiring cables, and replacement of the IMUs, the inertial 
measurement units.

                      Launch Control System at KSC

    Mr. Lewis. Thank you for that. The fiscal year 1999 budget 
request for Shuttle launch site equipment upgrades is about 85 
percent more than the budget for 1998, $115 million in 1999, 
$67.5 million in 1998. One of the upgrades being financed in 
this budget line is the checkout in the launch control system 
at Kennedy, which will be upgraded in a kind of phased manner. 
What is the total cost of this upgrade, and how much is 
included in the fiscal year 1999 budget?
    Mr. Rothenberg. The total cost is $171 million. In FY99, 
there is $51 million in that.
    Mr. Lewis. When will the upgrade be completed?
    Mr. Rothenberg. I think it is '02 or '03, let me see. '01, 
I am sorry.
    Mr. Lewis. One of the benefits of the upgrade is 50-percent 
reduction in operations and maintenance costs. Do you quantify 
these costs in dollars on an annual basis?
    Mr. Rothenberg. Right now, there is no hard data to support 
that exact number. The current estimate that people believe is 
a savings of about $30 million a year, but I do not have a lot 
of detail behind that. It is an estimate based on some 
judgments people made on the amount of database work and less 
maintenance, and things like that we will achieve, but I have 
no hard backup.

                    Earth Science Uncosted Carryover

    Mr. Lewis. An ongoing concern of the Congress is the large 
value of uncosted carryover in the Earth Science program. At 
the end of fiscal year 1996, the carryover was $765 million. At 
the end of 1997, $697 million. These amounts represent about 50 
percent of the total annual funding for the program.
    First, is this level of carryover excessive to prudent 
management requirements, and second, if the answer to that is 
yes, what actions are being taken to reduce the carryover?
    Dr. Asrar. Yes, sir. Once again, thanks for the 
opportunity. The reason for the unusually large amounts of 
uncosted are due to a number of programs that were late in 
getting started. These included basically data purchase. You 
had $50 million allocated for the commercial data purchase, and 
we are half-way through that activity. We intend to utilize 
those funds before the end of this fiscal year.
    The other item that contributed to these are unusual and 
uncosted, were the initiation of a series of information system 
partnerships--this is a subject that Administrator Goldin 
mentioned--in terms of diversifying the functions for 
acquiring, processing, and archiving the data coming from our 
mission, a series of 24 projects called Earth System 
Information Partnership.
    And the other item that contributes to these large amounts 
of uncosted is our grant processing mechanism. The answer to 
your question is an absolute yes, we are taking every single 
step to fix these problems. We have set a goal of being 
consistent with the rest of the agency by reducing our uncosted 
in the areas of grant processing to about six months, in the 
area of operations to about one month, and development of three 
months.
    Our goal for this year, by the end of this fiscal year 
1998, is to come down to about $550 million, and by the end of 
fiscal year 1999 to be about at $350 million, which is 
consistent with the rest of the Agency, about 25 percent 
uncosted.
    Mr. Lewis. I appreciate that response, Dr. Asrar. The 
question kind of underlies the concern if the program managers, 
by direction or otherwise, are stashing unneeded cash for a 
rainy day, or are these really the requirements to execute the 
programs?
    Dr. Asrar. No, Mr. Chairman, I assure you that every single 
one of those dollars are basically accounted for and are meant 
to support some elements of our program. As I stated, the 
reason for the problem has been the lateness in starting some 
of these activities, and we will definitely fix the problem. I 
have taken that challenge as part of my duties, to fix the 
problem.
    Mr. Lewis. The question is for the record but, in jest, far 
be it from me--I am surprised by your answer.
    Mr. Goldin. Mr. Lewis, I would like to jump in here and say 
one of the reasons I strongly support the transfer authority 
that this Committee has put into the supplemental is I wanted 
the Earth Science and the Space Scienceorganizations to 
understand the situation about uncosted carryover, and it is my 
assessment that in both the Earth Science and the Space Science 
programs, it is the right thing to do, transfer this uncosted carryover 
to the Space Station. It is well within their capacity to do it, and I 
also feel it will cause a sharpness of the thought process about not 
only managing the total program cost, but managing the cashflow 
appropriately.

                          Version 1/Version 2

    Mr. Lewis. Okay. NASA issued a stop-work order to the 
contractor in December 1996 for Version 1 of the EOS data and 
information system and restructured the contract focusing the 
contractor's entire effort on Version 2, which supports 
Landsat-7 and the AM-1 spacecraft.
    The contractor presented a demonstration, a test of Version 
2 in August of 1997, which was characterized by EOSDIS review 
group report of November 20, 1997, as ``a qualified success''. 
The review group found that ``considerable functionality was 
evident, yet the performance remains a certain''.
    Finally, the review group noted reservations about the 
``ability to field a credible workable system in time for the 
AM-1 launch in June of 1998''. Have the concerns of the EOSDIS 
review group been adequately addressed and is the system ready 
to support Landsat-7 and AM-1 launches?
    Dr. Asrar. The answer to the question is yes, Mr. Chairman. 
The efforts, as part of the EOSDIS have been streamlined, and 
the new arrangements for incremental delivery of the system was 
a much needed change in the way of doing that activity or 
conducting that activity. And we believe that the EOSDIS will 
be ready to support the launch of AM-1 and Landsat systems. And 
as you are well aware, at the moment we are having some 
difficulties in the development of the Landsat program and AM-1 
will be launched a few weeks late, and that time slack would 
really help to have the EOSDIS definitely in place to support 
the launch of those two systems.
    Mr. Lewis. Okay. Thank you, Dr. Asrar. Mr. Knollenberg.

                                Buyouts

    Mr. Knollenberg. Mr. Chairman, thank you. Welcome back this 
afternoon, Mr. Goldin.
    Last year, you and I had a conversation, I believe we 
utilized some of your staff, for the purpose of determining 
information on the buyouts, and you had given us then some 
information relative to the estimated number of buyouts that 
you are proposing, or did propose then, for the fiscal year 
1998. And I appreciate your moving in that direction, obviously 
it contributed to the reason for this chart, I presume, among 
other things, that shows that when we first talked about this 
some years ago, your design was to bring it down, and you have 
done that.
    The question I have is, how close to your predictions or 
your projections are you moving, and specifically I think you 
said in 1998 that you estimated savings of some $40 million 
because of not having to pay salaries and benefits for some 870 
employees.
    So, my question is, was this number realized in fiscal year 
1998?
    Mr. Goldin. 1997 or 1998?
    Mr. Knollenberg. Well, it would be--we are still in fiscal 
year 1998, so it would be 1997. I am going back to a year ago 
when we had the hearings so, yes, that's right.
    Mr. Peterson. We have $61 million.
    Mr. Goldin. We saved $61 million in fiscal year 1997.
    Mr. Knollenberg. Let me ask you, how many employees then 
were involved?
    Mr. Peterson. 845.
    Mr. Knollenberg. So you actually saved more money by 
shaving less employees, is that right?
    Mr. Peterson. Excuse me. What is happening here is we had a 
budget plan, of course, that assumed we were coming down 
rapidly. And so if you look at the 1998 funding level for Civil 
Service salary, and you compare that to a 1999 level, that is 
the $61.5 million reduction in salary expense.
    Mr. Goldin. No, no, no, he said 1997.
    Mr. Peterson. I erred when I said 1998, it should have been 
1997. In 1997, we had 519 FTEs--and I am sorry, I would have to 
get you the exact number, but it is basically $50 million.
    Mr. Knollenberg. The reason I bring up the number $40 
million and 875, that is in the text of the statements that 
were made last year and are changed. I am just borrowing from 
that page.
    Mr. Goldin. We will go validate that number and, for the 
record, we will give you the exact number, but I think we are 
close.

                       Personnel and Related Cost

    Mr. Knollenberg. It appears as though you are, certainly in 
terms of the number of personnel, and also you are nicely in a 
different direction, a good direction then in terms of dollars. 
What about 1999, do you anticipate further reductions and, if 
so, what will those be, and what would your estimates be for 
the coming----
    Mr. Goldin. Do you have the numbers there for 1999?
    Mr. Peterson. Yes. In 1999, our personnel and related cost 
will continue to decrease even though we are, of course, 
funding the pay raise, Civil Service pay raise. Even though 
that, this is where we get the reduction I mentioned of $61 
million, comparing 1998 to 1999, due to the reduction of 845 
FTEs.
    Mr. Knollenberg. All right. Maybe what we should have then 
is--and this is only for following purposes, tracking purposes 
for us--to have maybe the 1997, what you project for 1998 and 
1999. Maybe that is what----
    Mr. Goldin. What we will do is we will give you the 
projections for 1997, 1998, 1999, in people and dollars, and 
then we will put the actuals for 1997.
    Mr. Knollenberg. That's fine.
    Mr. Goldin. And then you can use those as a tracking chart 
for the next two years.
    Mr. Knollenberg. That will be great, we would appreciate 
that. Then you will see to it that that gets here.
    Mr. Goldin. I will make sure it gets done.
    [The information follows:]
          Projected Salary and Benefits Savings Due to Buyouts
    For the past 4 years, NASA has achieved civil service staff 
reduction goals on or ahead of schedule. For FY 1997, the ability to 
reduce ahead of schedule was primarily due to the availability of 
buyout authorization provided in the FY 1997 appropriation.
    The impact of the buyout in FY 1997 could not be fully predicted in 
time for the submission of the FY 1998 budget last year. The ability to 
compare the two submits is complicated by other factors such as changes 
in civilian pay increases, contributions to the retirement systems, and 
other benefit systems change in effect for the different years. The 
table below shows how these estimates have been adjusted over the past 
year and reflect out current estimates for FY 1999. It should be noted 
that the FY 1999 budget request includes assumptions for continued 
aggressive use of the buyout during FY 1998 and FY 1999. We do not 
anticipate similar major readjustments at the time of next year's 
submission.
    It is also important to note that the ``savings'' achieved in FY 
1997-98 were reallocated to other priorities in the Agency.

                                             [Fiscal year estimate]                                             
----------------------------------------------------------------------------------------------------------------
                                                        Dollars                               FTE               
                                         -----------------------------------------------------------------------
                                             1997        1998        1999        1997        1998        1999   
----------------------------------------------------------------------------------------------------------------
FY 98 budget request for compensation                                                                           
 and benefits...........................   $1,581.9     1,586.0   ..........     20,501      19,559   ..........
FY 99 budget request for compensation                                                                           
 and benefits...........................  \1\ 1,547.                                                            
                                                  1     1,550.0     1,535.8   \1\ 19,883     19,364      18,519 
Change from estimate....................  \1\ (34.8)      (36.0)  ..........   \1\ (618)       (195)  ..........
Change from year to year................  ..........       +2.9      (-14.2)  ..........       (414)       (845)
----------------------------------------------------------------------------------------------------------------
\1\ Actual.                                                                                                     

                        Space Commercialization

    Mr. Knollenberg. Let me turn to space commercialization. I 
know that--again, this is something that we have talked about 
before. I think in your concluding remarks in the written 
testimony, you mention that we want to bring down the cost of 
getting into space, which I presume means we are moving in the 
direction of greater utilization of space and commercializing 
it in a fashion to be used in a variety of ways.
    Have you seen an increase in the private sector activity 
supporting such a move? Is it out there?
    Mr. Goldin. Yes. The largest activity that we see is in the 
small startup rocket companies. They are very ambitious and 
very, very aggressive. We are supporting some with just our 
facilities and some technology transfer. We are encouraging 
them to work with us. We have a whole series of cooperative 
agreements and contracts we signed for components for rocketry 
that we are working on with small companies.
    In the area of the larger companies, SPACEHAB has now 
committed $250 million, cash, private cash, to the operations 
and delivery of systems to the Space Station. So that is a 
very, very good sign. We are very pleased about that.
    We are developing a privatization-commercialization plan 
for the Space Shuttle that Joe Rothenberg ought to have 
available by about August of this year. We have signed a 
cooperative agreement with people who are familiar with the 
investment banking community, to consult for us on how to 
approach the commercialization, and we also signed a 
cooperative agreement with SPACEVEST, one of the biggest 
venture capital firms in the area of space investments.
    So, taking these combination of things, we are moving very, 
very aggressively. And it is very interesting, watching the 
difference in cultures between the private sector and the large 
corporations that have dealt in the public sector in making 
this transition.
    But I know a number of the large contractors are seriously 
working on these issues also, and the people at USA are now 
aggressively looking at how to commercialize the Space Shuttle.
    Mr. Knollenberg. Did you say SPACEVEST, is that the name of 
the company?
    Mr. Goldin. SPACEVEST, yes.
    Mr. Knollenberg. And that is a venture capital company?
    Mr. Goldin. It is a venture capital company that makes 
investments in the space arena.
    Mr. Knollenberg. Specifically and only?
    Mr. Goldin. I know that is the lion's share where they make 
their investments, and the head of SPACEVEST has signed a 
cooperative agreement, and he and I have met twice already, and 
we are going to rely upon them to help us bring companies in.
    Mr. Knollenberg. Somebody really wants to invest in outer 
space, or at least in near space.
    Mr. Goldin. This is not an advertisement for people to go 
to SPACEVEST for venture capital money.

                      Near-Earth Asteroid Tracking

    Mr. Knollenberg. Speaking of outer space, let me turn to 
outer space for just a moment. We have had some conversation 
about this. I am kind of repeating myself here, but I just want 
to come together on some things that we have talked about 
before and see where we are today. Number one, I want to--I am 
looking for a sheet here on NEAT, which is the Near-Earth 
Asteroid Tracking. And I know that this is not a lot of money. 
I think it is, what, a little over $1 million that you had 
planned to spend in 1998, or in that vicinity.
    And the concern is that while it is a minor number of 
dollars, it is a major potential catastrophe that could be 
happening. And we just recently had the story that blipped for 
a moment that there was one that was coming, and it was a mile 
wide, and it was going to hit us in the year 2028, and then the 
next moment they said, forget that, we were wrong, it is not 
out there at all, or it is out there, it is going to miss us by 
a long way.
    Is the science getting better? I noticed in an article that 
I read that you only have about 10 percent of them tracked now, 
or I shouldn't say tracked, but categorized, is that right? And 
now what is there that is out there that we do not know about, 
that might cause problems in the next 50 or 100 years, that you 
know of.
    Mr. Goldin. Before Wes answers the question, I also want 
to--I neglected to mention NEAT. NEAT is working with that 
private company that is going to send a privately financed----
    Dr. Huntress. That is NEP.
    Mr. Goldin. Oh, I am sorry. I confused the two. Wes, why do 
you not answer the question and get me out of my embarrassment.
    Dr. Huntress. Well, NEP is going to an asteroid, it is easy 
to get confused. In fact, what happened this last couple of 
weeks was the fact that we got information about the detection 
of an asteroid, and only a very small number of data points 
from which to calculate its orbit. And so there was a large 
uncertainty in that orbit. When more investigators got involved 
and found pictures of that asteroid in older plates, so they 
could get a long timeline of observations on it, they got a 
much, much better orbit calculation, and it showed that it was 
not going to come close to the Earth.
    What that lesson says is that we need to make sure we make 
enough observations to have good orbits for these things. We 
have detected what we believe are somewhere on the order of 
about 10 percent of the population of those objects which could 
cross the Earth's pathway. We detect on the order of anywhere 
from half a dozen to a dozen a year with the resources that we 
have now in place. Depending on how many you believe might be 
out there, it could take us anywhere from 10 to 30 years to 
find them all, catalog them all, and to know their orbits well 
enough to be able to say whether there is any danger from any 
of them.
    At the moment, we know of none of them that pose any danger 
to the Earth at all, and the impact rate for this class of 
object is on the order of many, many, many centuries. On the 
other hand, we would like to increase the time----
    Mr. Knollenberg. At least to cut down on spawning all of 
those movies, I suspect.
    Dr. Huntress. Well, enjoy the movies, but that is what they 
are, is movies. We are going to, in fact, increase the amount 
of money we spend on the recovery rate for these because we, 
first of all, like to know more about them quicker. So we are 
going to increase, in fact, double this year, the amount of 
funds that we spend on detection and recovery of these.
    Mr. Knollenberg. I believe the President vetoed a $30 
million DOD request, did he not, that had to do with the--it 
was a small spacecraft, Clementine 2, that was sent off to a 
nearby asteroid to calculate just how tough they might be to 
break up before entering the Earth's atmosphere. Is that true?
    Mr. Goldin. That is a DOD mission. NASA's mission is to 
detect the asteroids.
    Mr. Knollenberg. Right, I understand. That is a separate 
mission.
    Mr. Goldin. It is DOD's mission to take the action. So, I 
would prefer having that question answered by the DOD.
    Mr. Knollenberg. This may be a dumb question, it will be my 
last one. Are most of those that you have cataloged now, are 
they inter-solar?
    Dr. Huntress. The ones we have cataloged now, these are 
asteroids that cross the Earth's path, and we know enough about 
their orbits now to know that none of them are going to impact 
the Earth within the next many, many centuries.
    Mr. Knollenberg. Thank you. Thank you very much.
    Mr. Lewis. In your lifetime or mine.
    Mr. Knollenberg. I checked that out, Mr. Chairman. I know I 
will be gone before the next one hits. Thank you.
    Mr. Goldin. Mr. Knollenberg, in the last four or five 
years, we have increased the amount of investment that we have 
been making in asteroid missions and comet missions, by a very 
low level to as much as $0.5 billion a year, and we look at 
some of the future missions that we plan to put on the books. 
Within the next few years, we will be committing up to $1 
billion to understand asteroids and comets which could be a 
danger to this planet.
    Mr. Knollenberg. And maybe to your Space Station?
    Mr. Goldin. The Space Station, too.
    Mr. Knollenberg. Thank you.
    Mr. Lewis. Thank you. Mr. Wicker.

                  Computer Hacking/Network Intrusions

    Mr. Wicker. Thank you, Mr. Chairman. Mr. Administrator, let 
me move from the threat of asteroids and comets to a more 
immediate and localized threat perhaps. I understand that a 
suspect was recently arrested--as a matter of fact, this 
month--for hacking into the NASA computer network, and 
apparently he is a leader of a group of hackers who have 
penetrated the networks of corporations, universities and other 
Government agencies. First of all, how serious of a problem is 
this?
    Mr. Goldin. I would like to ask Roberta Gross to answer, 
she is the Inspector General (IG) for NASA.
    Ms. Gross. I think that computer hacking or network 
intrusions is a very serious problem for the Government, for 
private industry. Technology has a lot of benefits. It has 
brought communications, brought people closer, but the problem 
about being closer is a lot of people can be listening, and a 
lot of people that are listening do not have--some are doing it 
as a joke, some are doing it for espionage, and some are doing 
it for threats.
    Mr. Wicker. Okay. How serious do you view this particular 
incident which occurred only this month?
    Ms. Gross. The incident that we were tracking from NASA, we 
were not the only ones tracking it. It is being also tracked by 
the FBI and by Air Force. We were initially all doing it 
separately, and realized we were looking at some of the same 
groups. But the NASA intrusion was not a particularly serious 
one.
    NASA's Center at JPL was being used as a way of getting 
into some other entry points, but in terms of the intrusions 
for DOD, the kinds of intrusions were not necessarily serious, 
but we do not know yet. We are still in the course of the 
investigation. Right now, investigators from both Air Force, 
FBI, and NASA are in Israel talking to some other individuals 
that were connected to the group where we had our arrests.
    Mr. Wicker. In Israel?
    Ms. Gross. Yes.
    Mr. Wicker. Is that where the hackers were?
    Ms. Gross. The hacker we arrested was from Washington. But 
the hackers are in chatrooms. I mean, they are national and 
they are international. The same wonderful system that we have 
that makes communication so seamless also makes penetration 
very seamless. And some of the people range from juveniles--we 
have had arrests in the past of juveniles, and we have had 
arrests of 20-year-olds, and we are also now having 
investigation of foreign intruders. And sometimes the same 
ones, kids, are innocently exchanging hacking tools and hacking 
methodology with some other people that have more serious kinds 
of intentions.
    What we have now at NASA is a Criminal Intrusion Unit that 
we have formed, or just starting to form, where we have some of 
the finest agents who have the ability to do these forensic 
methods and to be able to understand the technologies used by 
the hackers. And we have an agent, a specialized agent, at each 
center, or plan to have one at each center, as well as we have 
some people trained in the forensics. I think NASA has been 
supportive of this endeavor.
    We have also been working very closely with the CIO's 
office in terms of policies, procedures that need to be 
coordinated with our office and that we need to coordinate with 
their offices.
    Mr. Goldin. At the bottom line, Mr. Wicker, we take this 
very seriously, and we are very supportive of what Ms. Gross is 
doing, and we are going to give her the resources she needs. We 
are talking about human life. Can you imagine if a hacker got 
into our system with astronauts in space? While they are having 
a childhood prank, they could affect human life.

              Consequences of Hacking Into NASA Computers

    Mr. Wicker. Well, that is what I was going to ask you. Is 
that sort of thing possible? And Ms. Gross mentioned people 
with serious intentions, and I just wondered how vulnerable we 
are at NASA to deal with these serious intentions, and what 
might the consequences be. Might it interfere with a mission 
that is in progress?
    Ms. Gross. You have all these as possibilities. I think 
that one of the reasons that both NASA is looking at from the 
policies and the procedures of the CIO office and with our 
office--and we have very, very good coordination with the CIO's 
office--is that these are real possibilities. They are not 
going to be usually from pranks, but obviously if you have 
systems, you are going to have possibilities of intrusions. And 
the intruders are far more sophisticated usually than the 
agents.
    Mr. Wicker. Fine. Well, let us know what you need. Let me 
just ask an international question. [Laughter.]
    Well, I think the Chair would agree that we need to be 
armed and ready to withstand that type of vulnerability.
    Ms. Gross. We are actually proceeding slowly. I mean, 
actually, you cannot end up having a huge army to begin with 
because--we have been two years in the process of building up 
an infrastructure. You end up needing to get the people, locate 
the trained people. You end up having to have an ability to 
work with each other and work with other law enforcement 
agencies as well as to work with the Agency. So, I would not be 
coming in for a blank check. It ends up being a slower process, 
but I certainly do appreciate that.

                      International Space Funding

    Mr. Wicker. I appreciate your answer. Mr. Goldin, let me 
just ask you a question about international space funding. The 
Chairman, I think, this morning touched on our relationship 
with Russia. But one of your stated goals, performance goals, 
is for NASA to maintain the status of innovative leader in 
world aviation. Is that going to be easier to do as other 
nations cut back on world aviation, or how does our space 
program compare with that of other nations, and what is the 
impact of decreased funding on that particular performance 
goal?
    Mr. Goldin. I believe we stand, on average, the leaders in 
the world today. I think we are making the right kind of 
investments.
    Let me provide a little perspective and answer the question 
a little differently than I did this morning. I thought about 
some of the questions I had this morning. We are trying to 
reform NASA to do things differently, to do them in a very 
efficient manner with new tools and new management approaches.
    At the present time, we have the resources we need to do 
our job to satisfy what our strategic plan says. We have, in 
every area--in Space Science, Earth Science, Aeronautics, Life 
Sciences, and human space flight--very, very strong programs, 
and we are transitioning away from operations into research. 
So, I do not believe, at this point, the issue is money.
    I do want you to understand when we complete this 
transformation process and we have our efficiency up and we are 
doing everything, I do intend to ask for more funds in the 
future. We are going to have to face up to a decision on how we 
are going to take astronauts into space beyond the year 2000. 
That is going to be an issue that we are going to have to 
address.
    We are going to have to address what do we do with the 
human space flight program beyond the Space Station, and these 
are the areas in the future that we are going to have to 
address that will probably require more funds.

                         World Leaders in Space

    Mr. Wicker. What if we made a decision as a nation not tobe 
the world leader in space anymore. What would the consequences be to 
the United States?
    Mr. Goldin. I think it would be a terrible blow to the 
economy, to the leadership in science which leads to 
technologies which will impact the economy not tomorrow, but 
ten and 20 years from now, the technologies that we develop 
that we transfer to the Department of Defense for the nation's 
defense, for our leadership in aeronautics. We are more of an 
island nation than other continents because we have to go 
across two oceans and most other nations have to go across one.
    It would also affect the psyche of the nation, and 
education. I think it would be a terrible mistake--terrible 
mistake. NASA is one of the few investments that America makes 
that has a payoff for two and three decades from now. And as a 
result, it is very hard to measure, for people who want to 
measure near-term results, and sometimes they say let us take a 
vacation from the expenditure. No, I think it would be a 
terrible, terrible mistake.
    Mr. Wicker. Thank you, Mr. Chairman.

                     life and microgravity research

    Mr. Lewis. Thank you, Mr. Wicker. Mr. Director, in the 
near-term reductions--it seems, anyway, reductions are being 
taken in the research programs associated with the Space 
Station in order to complete the Station development. In what 
ways have you expanded life and microgravity research being 
done on the Shuttle until the Station is ready to do the 
research?
    Mr. Goldin. We have added STS-95, and we are planning on 
the possibility for STS-107 to handle more research. I believe 
we have increased the power in the middeck from 600 watts to 
1800 watts, so we have more of a capacity to do science on the 
middeck on the Shuttle. And we have developed these express 
racks that are going to go up onto the Space Station as early 
as '99, so we could begin operations for science onboard the 
Station. And we are increasing the number of grants on the 
ground to develop the research base, and we are committed to 
get up to 900 grants and we are moving up a curve. I can submit 
for the record our past performance and, by the year 2000, we 
intend to get to our goal of 900 grants, and we have not waived 
one bit from that.

                      station research priorities

    Mr. Lewis. I have been heard to say in other agencies 
before us that I am often reminded of the great classroom 
teachers who sit in the coffee room and ring their hands and 
wonder why the world does not know what great work they do. 
Sometimes it is a fact, especially in times when dollars are 
pressing, that we need to sell the sizzle, if you will, 
regarding what we are about--some of the experiments that have 
been successful, experiments that produced results as it 
relates to here in our Shuttle efforts, anticipating that which 
we are looking for and would expect as possible outputs on 
Station. I would like to know more about, for example, what 
research priorities we have for the Station. All of that is an 
interest if the public knew more about some of these things. It 
seems to me that sometimes the competitive sale we have to make 
is not just in our own Committee, but with the whole panoply of 
competition that is out there.
    Mr. Goldin. I believe we are going to have such a mission 
with sizzle on April 16 of this year, when we send up NeuroLab. 
This is the decade of the brain. And NASA is going to be 
working with NIH, some of the foremost experts in this field, 
doing experiments in space that will help benefit our 
understanding and help people on the ground. This is going to 
be a very exciting mission.
    Mr. Lewis. Tell us a little bit about that, experiments 
that will help people on the ground in what ways?
    Mr. Goldin. Let me ask Dr. Nicogossian. Dr. Arnauld 
Nicogossian is the head of our Life and Microgravity Science 
area, and a physician.
    Mr. Nicogossian. Thank you very much. It is a pleasure to 
be able to talk about NeuroLab. NeuroLab is a mission which is 
both international and national. It has, like Mr. Goldin said, 
National Institutes of Health which is one of the prime 
players. It has the Office of Naval Research participating, and 
National Science Foundation, which is part of it. It has Japan 
and other countries participating in that flight.
    The mission, as it is, addresses two major issues. One, it 
addresses the issue of adaptation of brain and the nervous 
system in space flight because once you lose gravity, you lose 
that capability to integrate against gravity, and everything 
you do accounts for the gravity on Earth.
    So, if you toss a ball, for example, on Earth, and somebody 
catches it, you think it is a normal way of doing business, but 
you should think about all the muscles and all the coordination 
which causes your body to catch that ball. And it is done 
taking account of gravity. When you do that in space, gravity 
is not there and you can overshoot, and people try to 
understand how the brain adapts in space, creating motion 
sickness and so forth.
    The second issue is basically to understand if going to 
space can be a laboratory for us to understand certain 
phenomena which are common to certain disease and what happens 
after people return from space flight.
    One of the things that the astronauts, when they come back 
after the space flight, they are notoriously known to have 
forgotten how to walk, if you wish, and that is also seen in 
some disorders. They are unable to maintain the blood pressure. 
And that lack of ability to walk and lack of maintaining the 
blood pressure are something that we see with aging and other 
disorders. And space flight offers us a model to study how 
those conditions do develop on earth without chronic effects 
because they are reversible.
    So, that is one of the major things that we are going to be 
studying, is basically how the nervous system controls our body 
to function on earth, by doing the experiments in space. I will 
be more than glad to expand further, and we have very nice 
material that was prepared by us and our partners that we can 
put for the record.
    Mr. Lewis. Well, I think it is important that Members of 
this Committee--I hope sometime when we have larger numbers 
than this, that we could discuss some of those items that have 
an impact on everyday life in terms of people's health and 
otherwise, that would allow us to change the competitive edge, 
when we have to make arguments in shrinking budget times. Thank 
you. Ms. Kaptur.

                         senator glenn's flight

    Ms. Kaptur. Thank you. Welcome, Mr. Goldin, so good to have 
you here with us today. I apologize, I had conflicting 
committee hearings, so I chose you for the afternoon and 
Agriculture for the morning, but I have had the opportunity to 
read your excellent testimony.
    I have a few questions and several for the record. The 
first one is regarding Senator Glenn. Where in your budget is 
his flight projected? Where is that, in what part of the NASA 
budget?
    Mr. Goldin. He is going to be on STS-95, Space 
Transportation System Flight No. 95, and that is the flight he 
is on. It is in the human exploration development of space 
portion of our budget.
    Ms. Kaptur. And is that an additional mission, or is that 
one that was already planned?
    Mr. Goldin. No, no. That mission was already planned, and 
Senator Glenn is one of the crew. In fact, he asked that he not 
be called Senator Glenn because he is just another crew member.
    Ms. Kaptur. He would be a colonel.
    Mr. Goldin. He wants to be called John, and I just cannot 
get it out of my throat.

                        shrinking nasa programs

    Ms. Kaptur. We wanted to also ask at some point as the 
International Space Station's operational budget and Space 
Shuttle program grow, would you expect that other programs in 
NASA would shrink?
    Mr. Goldin. So far, we have been able to manage our program 
such that all other Enterprises in NASA have been very, very 
robust. In fact, our Space Science and Earth Science programs 
have more spacecraft than ever and, as an example I will give 
you, during the last five years, we went from three spacecraft 
in the Earth Science program, for Phase I of our EOS system, to 
27. We are now launching close to ten spacecraft a year, when 
we used to launch two a year.
    So we believe we have a very, very robust program and, so 
far, we have been able to increase the percentage of our budget 
for all other programs--Science, Aerospace and Technology--from 
31 percent of the budget to 43 percent of the budget today, and 
we expect that to go to as much as 48 percent of the budget in 
the future.

                         full-time equivalents

    Ms. Kaptur. I read in your testimony, the number of 
employees that NASA has had to cut back through the decade of 
the '90s. I am sure you have given this to other witnesses, but 
at what level are you in this fiscal year, full-time staff 
equivalency positions, and where will you be next year?
    Mr. Goldin. I think right now we are just around 19,000 
FTEs. Let me get the exact number. We will go out in 1998 at 
19,364, and we expect to be at 18,519 in '99.

                           budget submission

    Ms. Kaptur. All right. And could you tell me if the total 
budget that you are submitting to us today, $13.465 billion, 
was the budget that was submitted to the Office of Management 
and Budget prior to your coming up here on the Hill today?
    Mr. Goldin. We have gone through so many iterations, I do 
not remember. Mal, help me.
    Mr. Peterson. The Administration asked us to submit a 
baseline budget in September that was 5 percent below our 
previous runout, which was around $13.4. And so we submitted a 
budget that was down below $13 billion to them, and then argued 
our way back up. So, we did not go in with a $16 billion budget 
and argue our way down, we argued our way back up.
    Mr. Goldin. I have got it now. We were asked to submit a 
budget at $12.6 billion, and then we argued our way back up to 
$13.4.
    Ms. Kaptur. Okay. That is unusual.
    Mr. Lewis. That was considerably different than the last 
time you asked that question, right, and we were going to 
repeat that, you remember, the next day, but we lost track of 
it.

                  russian involvement in our programs

    Ms. Kaptur. That is right. I wanted to ask, regarding 
Russian involvement in our programs, with the recent removal of 
former Prime Minister Mr. Chernomyrdin, is the Administration 
re-evaluating future cooperation with Russia in any of your 
projects that involve Russian funds?
    Mr. Goldin. Before we go make decisions to back away from 
working with the Russians, we want to see what kind of position 
the Russian Government is going to take, and we clearly have to 
give them some time to put someone in place. We are very 
carefully monitoring the situation. We have people in Russia 
that are working with the Russians, seeing how the work is 
progressing. And through this transition, at least for the last 
few weeks, the work is progressing, and it has not stopped.
    I believe the Russians are committed to working with us. 
They have got to find the funds and have continuity of funding 
to assure that we do what we are supposed to do--they do what 
they are supposed to do.

              small satellite technology initiative (ssti)

    Ms. Kaptur. Okay. How can you explain a program like the 
small satellite technology initiative and the age of faster, 
better and cheaper, that had cost the taxpayers $55 million 
before it was terminated?
    Mr. Goldin. We started the process a number of years ago, 
and we said, instead of launching a few big spacecraft for 
billions of dollars a few times a decade, we were going to 
start launching up to a dozen a year, and we were going to 
break them up into smaller pieces. We will have focused 
missions. And instead of using older technology to guarantee 
that the missions are going to work, we are going to use more 
advanced technology and new management techniques because we 
have a goal of initially getting from $590 million on average, 
for the spacecraft, to $190 million on average, which we are at 
right now, and we still have to get to $77 million a spacecraft 
within another three or four years.
    So we wanted to experiment with new techniques. And when we 
did this, we said we are going to have backups in number and in 
type because we have more missions, but because we are going to 
be experimental we should expect some failures.
    When we started the program, there were suggestions that 
NASA had been overmanaging the industry, that there was too 
much NASA oversight and if only we would allow the industry to 
be in charge by themselves, they would get the job done.
    One of the lessons we have sadly learned from the SSTI 
program is that they need more interaction with NASA, and we 
had a number of review panels look at it. But saying that, the 
taxpayer has not lost the whole program. We terminated the 
program because we were afraid that there would be a total 
failure. We have the launch vehicle, which we purchased. We own 
it and we will use it. We have the sensor which we purchased, 
and we plan on flying that sensor on another spacecraft. So, in 
effect, we believe we are going to recover the mission, and the 
taxpayer will not have lost because we were careful in what we 
did.
    I think it was a courageous thing of the team to do to say, 
let us not keep on marching down the line and just fire this 
spacecraft off, have more cost growth, and perhaps have a 
failure in space. We think we did the right thing.
    Ms. Kaptur. Does one of your staff have the initial 
projected cost of that program?
    Mr. Goldin. Do you know what it was? I believe they ended 
up--what was the final cost because they had about a--do you 
have the numbers there? We can get that in one minute.

                      orbital science corporation

    Ms. Kaptur. While they are looking for that particular 
number, it is my understanding that NASA will not seek 
restitution from the Orbital Sciences Corporation for their 
failure to deliver the goods under that program that they were 
required to do? Is that a correct understanding?
    Mr. Goldin. That is correct.
    Ms. Kaptur. Okay. If that is true, do you think that that 
sends an unfortunate message to private contractors that NASA 
is open for business but do not worry about fulfilling your 
contract because NASA will assume control, kind of like we did 
with the savings and loans and now we are going to be asked to 
do with the Asian nations, that if things do not work out, you 
come to the taxpayers and they will make up the difference?
    Mr. Goldin. Well, let me very simply state it. Our people 
did not get involved enough at an appropriate level to help 
save them because this was the approach that we took. And by 
the way, Orbital Sciences bought the company that we contracted 
with late in the game. They took over at the very end. But I 
have to say that our people did not manage the contract well 
enough so that we did not have the option because we would not 
have won in court.
    We are going to sharpen up how we go do this. I am not 
happy about this circumstance, but the fact of the matter is 
NASA did make some mistakes along the way that did not allow us 
to terminate for cause.
    Ms. Kaptur. I appreciate your openness on that, and if you 
would be kind enough--I do not know if your people----
    Mr. Goldin. We have the number now. It started at $53 
million, and it is $63 plus termination costs. And one of the 
reasons we stopped the program is we were afraid it was going 
to spiral well beyond that point. So we said we could recover 
the hardware, not spend additional money, and then reuse the 
hardware that we recover.

                        3-d multi-chip invention

    Ms. Kaptur. Thank you very much. When we were fortunate 
enough to come out to the NASA facility, you had some 
representatives from PICO Systems there with this 3-D multichip 
invention. Could you tell us how that is progressing, and 
whether or not it holds the potential to save money in NASA's 
future endeavors?
    Mr. Goldin. This is one of the directions that NASA feels 
is essential for achieving our goal of getting to spacecraft. 
We have to pick up another factor of two and a half in cutting 
our spacecraft costs. To do that, we want to do much more 
integration and use very low-cost methods of doing that with 
microminiaturization. The people at PICO Systems, under this 
small business innovative research grant that we have, have 
done incredible work. And what we would like to see happen is 
this technology get not just demonstrated, but utilized by our 
suppliers. And I think the key step for us now is to transition 
from a technology development into a utilization phase where it 
gets integrated into the spacecraft we are going to use.
    Now, we are on an inhouse build spacecraft at NASA Goddard 
using that technology--Joe, correct me if I am wrong.
    Mr. Rothenberg. Yes.
    Mr. Goldin. We are making the technology available to our 
suppliers not just in the spacecraft area, but in the launch 
vehicle area and in the aircraft area. And each company is 
going to have to make a decision as to whether or not to use 
it, but we are so pleased with it that we are making the 
information available to these companies. And if they do use 
it, I think it will help us get towards our goal of $77 million 
a spacecraft.

                      earth observation satellite

    Ms. Kaptur. Thank you for that. That was a most interesting 
demonstration. I learned a lot. I have a final question on this 
round, Mr. Chairman, and that regards your Earth Observation 
Satellite. Could you give me a sense of where that entire 
program is? I mean, I read the testimony, but that happened to 
be an initiative that I supported very much, and could you give 
me a sense of where we are headed over the next three to five 
years, the kinds of projects, where we have come and where we 
are going.
    Mr. Goldin. We have made just incredible progress. I 
pointed out in prior testimony that in 1992 we were going to 
fly three big spacecraft and replicate them every five years. 
Over a 15-year period, we will fly a total of nine spacecraft.
    In the first series, we are going from three spacecraft to 
27, for less money. We are going to make a much broader, much 
more aggressive range of measurements, and we have just 
launched the first in this series this year and, in fact, we 
are going from three spacecraft--this year we are launching 
three, next year it is five, and the year after it is five. So, 
you are going to see a significant increase in the knowledge 
that we have about our own planet as a result of this program.
    What I would like to do is ask Dr. Asrar to talk about some 
of the science we are going to get back.
    Dr. Asrar. Thank you very much. Thank you for your support. 
As Administrator Goldin stated, you will see some exciting 
results coming out of our Earth Science program over the next 
five to seven years. We are in the process of conducting the 
first series of missions that will end in the year 2003. At the 
same time we have energized the community to start thinking 
about what should we do beyond the year 2003, which basically 
is the planning for the next series of Earth-observing system 
programs that will be initiated later this year.
    We have asked the Academy to get involved, and we are 
basically mobilizing the entire U.S. Earth Science community, 
and we are also inviting our partners to participate in that 
effort.
    On the other front, in addition to the space segment that 
Administrator Goldin just described to you, we have a 
robustEarth research and analysis program that we invested to the tune 
of about $300 million per year, supporting research and putting the 
necessary tools in place to fully take advantage of these observations, 
and not only to answer the scientific questions, but also take the 
knowledge that we gain, the technologies that we develop, to solve some 
practical societal problems in the areas of water resources, food 
production, agriculture, coastal settlements, and natural resources 
inventory.
    And another dimension of our program is to make sure that 
the knowledge and the technologies that we develop basically 
find its way to the value-added sector or commercial remote-
sensing sector. This is an area that historically we have not 
really done well.
    We have had a commercial remote-sensing program that has 
been working on its own, but we have not established a pipeline 
for providing the knowledge and technologies that we develop as 
part of our basic research and technology to the other side, 
which is the private sector and value-added. And with the role 
that we have established for the Stennis Space Center as our 
lead center for commercial remote-sensing and with the 
establishment of an application research division with NASA 
Headquarters, we are making sure that the transfer of knowledge 
and technologies from our baseline program to the commercial 
remote sensing is done properly and on time.
    And we are, over the next five years, planning to invest 
somewhere in the neighborhood of $100 million in our commercial 
remote sensing and application remote sensing programs.

                       Remote Sensing Technology

    Ms. Kaptur. Would you provide for the record a list of some 
of the information that this program has already made available 
to the scientific and general public, and an outline of where 
you are headed up until 2003. You mentioned food and 
agriculture production, what type of information?
    Dr. Asrar. Basically, we are establishing a partnership 
with the U.S. Department of Agriculture to take advantage of 
remote sensing technology and tools that we have, in the area 
of precision farming, improving the production, application of 
fertilizer, pesticides, detection of diseases and viruses in 
early--prior to the time that we can see them with the eye 
because we use infrared sensors technology. And also at the 
same time, some of the tools that we have developed, we are 
transitioning them to, for example, the U.S. Forest Service. 
These are the models that we have developed to assess the 
conditions that are prone to the forest fires, for example. 
These are all based on remote sensing and modeling, and we are 
working on a few pilot projects in the Northwest U.S. and 
establishing some areas where detection of the fire hazards in 
advance, not to assess the impact of hazards after they have 
taken place, that the prepare for sensing and detecting the 
onset of these activities.
    These are a few examples, but we would be more than happy 
to provide for the record the type and the number of the 
projects that we are supporting in the areas of demonstrating 
the relevance of our science program to solving practical 
societal problems.
    Ms. Kaptur. Thank you very much, and I will look forward to 
receiving that.
    [The information follows:]


[Pages 243 - 247--The official Committee record contains additional material here.]



                                Smallsat

    Mr. Lewis. Thank you very much. The questions regarding of 
earth orbital and observing systems and their results are not 
dissimilar from the kinds of questions I was interested in when 
Dr. Nicogossian was here. I mean, those results in terms of 
real values here are an important part of our making our total 
case as we discuss this with the country as well as the 
Congress.
    I must say that it leads to a question that I was not 
really going to ask. In the 1998 March period, NASA announced 
that it was developing plans for a smallsat which could provide 
continuous views of the Earth by the year 2000. NASA's plans 
are sparked by a concept coming from the Vice President's 
office, as I understand it. But from a practical viewpoint, as 
I understand it, that satellite is not going to include all the 
sensors and et cetera. It is not a part of the program that we 
were just discussing. But tell me what that satellite will be 
about and what do we expect to get from it?
    Mr. Goldin. Before we do that, if I might provide some 
perspective on it, just from the term of process standpoint. 
The Vice President challenged us to see if we could put up such 
a satellite at a relatively low cost. So, towards that end, we 
are preparing a request for information--we have designed for 
the satellite, I might add, in just a few weeks, which is very, 
very fulfilling to me. But we want to make sure that we tie in 
the educational community, the scientific community, and the 
commercial applications community.
    So, Dr. Asrar is preparing a Request For Information that 
we are going to put out in the next week or two on the 
Internet. After we assimilate this data and really understand 
the process for moving forward, we will then decide if we could 
do it within existing resources, hopefully commercial 
resources, and go forward with the program, or if we would have 
to come forward and ask for some budgetary authority, but we 
are nowhere near ready to go do that.
    So, I just wanted to have the Committee understand, we are 
not getting out ahead of the congressional process.
    Mr. Lewis. Okay. Since we do not know what costs might be, 
yet, right? I gather----
    Mr. Goldin. Or revenues.
    Mr. Lewis [continuing]. Or revenues. Well, the question 
that popped up as Ms. Kaptur was asking those questions, is 
whether or not the satellite will end up replacing other 
satellite efforts.
    Dr. Asrar. The answer is no, this was not intended to 
replace any of the existing or planned elements of the Earth 
Observing System. It was in the spirit of an educational 
project that would bring in the students from universities and 
high schools to learn about physics, math, orbital mechanics, 
the concepts of what is it like to get to L-1, what does L-1 
mean, and what is the environment of L-1, and what it takes to 
build this very simple three-color camera that the parts and 
components are really available on the shelf, working as a team 
together to put the system together, you have to be an engineer 
to build the instrument and the spacecraft, integrate them 
together, worry about the launch, how do you escape the 
gravities of Earth, can you get an assist from the moon to get 
to the L-1 point, what are the strategies for getting to the L-
1. These are all learning lessons that would really help the 
students to apply the physics and mathematics concepts in 
practice, and not learn in abstract and theoretical sense.
    And then once you get there, what it takes to operate the 
system, what it takes to get the data brought to the Earth and 
disseminated and, indeed, use the data for completing thesis 
work. That was sort of the primary objective--that is the 
primary objective of this project, which is really far from the 
science and the science focus that our program has been----
    Mr. Lewis. I did not really ask this question to try to 
plug this particular satellite into the Apple Valley Science 
Center, but you do have my attention in a different way. 
[Laughter.]
    So we do anticipate that from this, and other items, we 
will get a clear picture of the budget. I presume you do not 
expect to have to supply a budget amendment for this item.
    Mr. Goldin. That is our hope.
    Mr. Lewis. That is our hope.
    Mr. Goldin. Well, we do not know what the commercial sector 
is going to do, but we think there are some significant 
possibilities in the commercial sector for applications where, 
and we believe there is international interest. But in the end, 
we would like to touch millions of students with something 
real.

                            LightSar Program

    Mr. Lewis. Thank you for that. In November 1997, industry 
teams reported their findings on innovative approaches to 
Government-industry training for LightSar program. This program 
was first funded as a Congressional add in fiscal year 1997. 
The fiscal year 1999 budget proposed $5 million for the effort. 
Does NASA have a need for LightSar, and what is the status of 
NASA's evaluation of the industry team reports?
    Mr. Goldin. We believe that there is a need for a LightSar, 
and over the last five or ten years, NASA has been leading a 
revolution in this country and around the world in utilizing 
synthetic aperture radar systems. For years and decades now, we 
have been using 1960s technology from the SeaSAT program, along 
with other nations in the world. This LightSar will be a very 
bold leap forward into the latest of the '90s technology that 
can have a significant change.
    On the Shuttle radar missions, we are not operating with 
one frequency, but three, and we are finding that there is a 
tremendous amount of information there. So, as a result, we 
expect the LightSar program to be a multifrequency, 
multipolarization program that can have a significant impact 
not just on the NASA Science program, but on the U.S. 
commercial remote sensing industry.
    Mr. Lewis. I think we have discussed Canadian interest in 
this subject area, and their decision recently to finance a 
second radarsat. I am wondering whether we, in this area, have 
thought about not just partnering with, but rather having this 
project go forward with Canada's leadership. I do not know 
exactly what the cost is here, but we are trying to work on 
where we can find dollars. That is the thrust of my question.
    Mr. Goldin. I understand the thrust. We are trying to 
understand here the needs of the American industry because 
there is an issue for the American industry. We had worked with 
the Canadians on what they call ``radarsat-2'', and we had a 
verbal agreement to work with them.
    They appeared to be going in a different direction. We were 
interested in a science direction at the Agency, and we have to 
have some talks with the Canadians. And, more importantly than 
that, we need to have some talks with our own commercial 
spacecraft sector because one of the other approaches for doing 
this is that they put in money, perhaps up to 50 percent, so 
that everybody wins--the U.S. taxpayer and the commercial 
industry and the Science community.
    So we really want to understand the different options here, 
and it may be that we ought to decide that we still want to go 
ahead with the LightSar.
    Mr. Lewis. We will be interested in looking at your 
estimates of cost and such implications, et cetera.
    Dr. Asrar. Absolutely. As Mr. Goldin stated, the intent was 
to, in return for our investment or participation in Radarsat-
2, we will get some data back in return for our contribution. 
So that option is still in place should we decide to basically 
look at the value of Radarsat-2 data to meet our scientific 
requirements. But their plan to proceed with a system which is 
somewhat different from what our understanding was is something 
that requires really careful examination over the next few 
weeks, and we plan to do that. But our commitment to LightSar 
is there, and we believe--the four studies that you stated all 
indicated that clearly there is a market niche in the value-
added that this mission can provide for the value-added sector 
to have some revenues and make some money. So, all four studies 
came to the same conclusion.

                         Pathfinder Technology

    Mr. Lewis. In your statement, Mr. Goldin, you refer to the 
altitude record set by the solar-powered Pathfinder aircraft. 
This aircraft is part of the IRAS program. What are NASA's 
plans for applying the Pathfinder technology to their projects?
    Mr. Goldin. The Pathfinder project is one of the vehicles 
in an alliance that we formed with four various companies, and 
the principal objective here is to develop technologies for 
high-flying aircraft, principally to support some of the Earth 
Science missions that we see out in the future.
    So, the next steps in Pathfinder is, again, to begin to 
work for higher altitudes where they can gather in situ data 
that we have not been able to gather before, and then also to 
look for very long duration flights at perhaps lower altitudes 
with higher payloads, on the order of days rather than hours.

                            Gravity Probe-B

    Mr. Lewis. The Gravity Probe-B relativity mission has 
experienced cost overruns of about 25 percent, the figures 
being $45.6 million to $57.3. What is the reason for those cost 
growth?
    Dr. Huntress. The cost growth is only in this single year. 
The total development cost will remain the same. The reason for 
the additional funding in this fiscal year was that they had a 
technical problem with the dewar on the spacecraft. The dewar 
is a large cryogenic thermos bottle that holds the scientific 
instrument. They had some problems during development, and we 
added--we rephased money into this fiscal year to help solve 
that problem. They did come up with a technical solution. The 
problem is solved, and they, in fact, remain on schedule. In 
fact, they remain ahead of schedule, and we used reserves in 
order to take care of this growth.
    [The information follows:]


[Page 252--The official Committee record contains additional material here.]



                  Advanced X-Ray Astrophysics Facility

    Mr. Lewis. I will ask you to expand a bit on that for the 
record, but that is fine. Thank you. The advanced x-ray 
Astrophysics Facility was scheduled for launch aboard the 
Shuttle in August of this year. Last year, the contractor 
discovered a lack of coordination of software and hardware 
integration, and subsequent additional work is requiring delay 
of the launch until December of 1998. In order to make this 
launch date, there is a series of tests which must be 
accomplished on a very tight schedule.
    As a result of that schedule, has there been any relaxation 
of the testing requirements for hardware or software?
    Dr. Huntress. No, there has not been.
    Mr. Lewis. If there should be a problem in testing which 
makes the December launch difficult, what are the alternative 
launch dates?
    Dr. Huntress. We could launch in January, but the progress 
has been very good on AXAF since we first discovered this 
problem, and we have actually generated extra margin in time, 
and so we already have about ten weeks worth of margin and it 
is going up. So, I think we will make that December date.
    Mr. Lewis. Total funding for AXAF was $1.4-plus billion. 
How much reserve is there in that program?
    Dr. Huntress. We started the program with about 20 percent 
reserves in the total program, and we track the reserves as a 
fraction of the cost to go. And as of this date, with the 
December launch date, we still have about 11 percent reserves 
remaining.
    Mr. Lewis. Mr. Walsh.

                     Regional Applications Centers

    Mr. Walsh. Thank you, Mr. Chairman. Mr. Administrator, one 
of the things that I am interested in is this regional 
application center, the validation center, which working with 
local educational establishments provides a direct application 
of satellite imagery data for use in some of the average run-
of-the-mill applications that local government has, things like 
land-use planning, agricultural applications, hydrological 
applications. Can you describe NASA's involvement in this 
program?
    Dr. Asrar. Yes, sir. Basically, we have the responsibility 
for conducting these activities out of the Earth Science 
office. As I stated earlier, because of the significance of and 
the potential of our program in this area, we have just 
established a focus in our program in the form of a division 
that has a full responsibility for taking advantage of the 
wealth of knowledge and technology that we have to focus on 
solving practical societal problems such as the one that you 
just described.
    We currently have $13 million in our budget, and we are in 
the process of developing a NASA research announcement to 
solicit proposals for establishing anywhere between five to 
eight such regional application centers across the nation, 
focused on regional problems, and then utilizing NASA 
technology and NASA-funded scientific efforts to solve and 
focus on solving these practical problems or addressing them.
    Mr. Walsh. What was the impact of this data-gathering 
capacity that you have vis-a-vis this cycle of weather called 
El Nino. Can you cite some applications of what you 
accomplished?
    Dr. Asrar. Yes. As you know, basically, the technology that 
we have developed in form of three major capabilities--
temperature measurements, wind speed and direction 
measurements, and topography of the ocean, the height of the 
ocean, have been crucial to the prediction of the El Nino 
assessment of its impact, and its duration. With the technology 
and the knowledge that we invested in that really provided the 
global perspective to tie these pieces together. El Nino has 
existed all along. What the space-base measurements were 
provided. And then along with these predictive capability, 
NOAA, our sister agency, today puts out the monthly forecast of 
precipitation and temperature anomalies across the nation, 
basically whether northeast or the southwest, the central part 
of the country gets more rain or less rain, and that directly 
really impacts agricultural activity, transportation, 
fisheries, and things of that nature. So it has had some major 
impact in that regard. I hope I have answered your question.
    Mr. Walsh. You have. I find it very interesting. Is it safe 
to say that the scope of knowledge, scientific data on El Nino 
has improved dramatically in this cycle of El Nino because of 
this?
    Dr. Asrar. Absolutely, sir, and the challenging part of it 
we have been very successful to resolve some of the issues at 
the global level. The next set of challenges is to really bring 
the global knowledge to the regional problems, that is where 
people live, and show the relevance of that to the people's 
day-to-day life.
    Mr. Walsh. You would need, I would think, a number--I am 
not a scientist, but you would need a number of these cycles to 
begin to extrapolate out regional anomalies, but are you seeing 
trends that you think are established already?
    Dr. Asrar. We are basically using the existing knowledge, 
the corporate knowledge, and looking at the sectors, such as 
food and agriculture and fisheries. In each part of our nation, 
really, each of these efforts are the main thrust for the 
economic growth. And we are saying what are the impacts of such 
events on fisheries in the southeast and off the coast, and oil 
drilling off the Mexican Gulf, or the food production and 
agriculture in the northwest U.S. So, we are focusing on the 
problems and trying to assess the impact of these variations 
anomalies on the mainstream of economic growth in the different 
parts of the nation.
    Mr. Walsh. So when you begin to set up this regional 
structure, ideally, then you would pick institutions in those 
regions to----
    Dr. Asrar. Precisely, because the experts are in the 
region, and you do not want to transplant knowledge.

                      Regional Validation Centers

    Mr. Walsh. That is a concern that I have because there are 
certain educational institutions that have all the experts. And 
the wealth is all sort of gathered in certain places. And I 
would think that it is not exactly on the agricultural 
extension model, but the information and also the practical 
application of that information is valuable to people on the 
ground. So, how do you get that outside of the Cornells and the 
Stanfords and the MITs and the CalTechs, and get it out to the 
regional colleges?
    Dr. Asrar. Excellent question, and the purpose of these 
regional validation centers are not the same as our basic 
research program. And there we clearly are going to rely on the 
decisionmakers, whether the county extension experts or the 
state decisionmakers or the weather bureau or the state 
meteorologist. We are going to bring the practical 
decisionmakers who have also the corporate knowledge to make 
sure that that knowledge is applied to solving the problem, not 
to be another set of academic for curiosity-driven science-
related focus. The focus for these efforts are completely 
different from our basic research, that is why we call it 
applied research.
    Mr. Walsh. So the RFP or RFQ or whatever it is that you put 
out will look for regional establishments where you have got 
people on the ground who are going to take this information and 
apply it to land-use planning or hydrological studies?
    Dr. Asrar. That is the purpose of the effort.
    Mr. Walsh. It has obviously broad implications. The big 
farmers, as you know, and the big corporations, too, like 
Lockheed-Martin, for example, are figuring out how to use this 
satellite imagery to not only improve production, but to save 
on inputs. If you do not need to put so much potassium in one 
part of the field and you know you do not have to put it there, 
you are going to save some money and get the same basic result.
    Dr. Asrar. Yes, sir, exactly that. We need to bring the 
practitioners to help us.
    Mr. Walsh. It is an interesting challenge. I do not want to 
go too far afield with this thing, but there are people who 
worry about everything, and part of my job is to tell them not 
to worry, although I do not want to sound like a Pollyanna 
either, but I have read Malfus and I have read Huxley and I 
have read all those people who--Ehrlich--who have made these 
broad generalizations about how we are running out of food and 
people are growing at this rate and food is growing at this 
rate, and the fact of the matter is we have made them all look 
like fools so far, but the challenge is clearly there, and it 
is these sorts of technologies that are going to help us keep 
ahead of the curve, I think.
    Dr. Asrar. Precisely, and improve the efficiency of 
production, not the production itself because we have been very 
successful on productivity side. The next level of challenge is 
improving the efficiency, and these tools can really help us 
improve the efficiency of food production or natural resources 
inventory.

                              X-33 Program

    Mr. Walsh. Thank you very much. Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Walsh. I have got a number of 
questions for the record that relate to X-33 and X-34, I would 
ask you to respond to them, but a specific item that I feel 
needs to be at least discussed a little is X-33 which has a 
goal to develop technologies that reduce space transportation 
costs very significantly is subject to authorization out there 
somewhere, and I do not know if you have a better handle on 
authorization prospects than I do, but we are trying not to 
have our bill burdened down by authorization responsibilities, 
so if you could give me just an off-the-top or otherwise 
guesstimate about those prospects.
    Mr. Goldin. The Senate has marked up an authorization bill 
that gives us the indemnification for the X-33 and the X-34. 
There is some further indemnification that we sought for the 
Shuttle and the Space Station. It is crucial that we have this 
legislation passed, otherwise, we will not be able to fly these 
two vehicles and will be in the difficult circumstance of 
having the vehicles sitting on the launchpad, paying a crew a 
monthly charge until we get such legislation.
    We are planning to fly in March of '99 with the X-34, in 
July of '99 with the X-33, so we would hope to get it through 
in this Congress because, if we have to wait for the next 
Congress, there may not be a vehicle to get the legislation in 
time to start our flight testing. So, we are counting on it.

                  Inspector General's Report Findings

    Mr. Lewis. Stay tuned. One last subject area here just 
briefly, as you may know, this Subcommittee covers some 22 
agencies and commissions, and where there are inspectors 
general, I have found over time that their work and their 
reports are very helpful to us in our oversight responsibility.
    On February 25 of this year, the Inspector General issued a 
report on procedures and practices being followed at NASA 
Headquarters, Langley and Goddard, with regard to investigation 
of equipment losses. In that report, it was noted that the 
Goddard Space Flight Center investigates no losses even though 
as of September 30,530 items valued at more than $1.2 million 
were reported as losses.
    Why is there a mentality at Goddard that such losses of 
taxpayer-financed equipment is acceptable, and investigation or 
recovery is given little or no attention?
    Mr. Sutton. My name is Jeff Sutton. I am acting as the 
Associate Administrator for Management Systems and Facilities 
at NASA. The property management function is one of the 
functions that our office oversees. I would like to say, first 
of all, that we take the findings of the Inspector General very 
seriously, as does Goddard Space Flight Center, and I think----
    Mr. Lewis. The Committee appreciates that, I am sure Ms. 
Gross does as well.
    Mr. Sutton. I think she probably does. What we found out 
when we looked into the findings of the Inspector General is 
that there turned out to be some confusion over the use of the 
term ``investigation''. The Inspector General's findings were 
correct, let me say that first of all. The Property Survey 
Officer and the Property Survey Board at Goddard were not 
investigating these losses as we had expected or intended. 
However, that is not to say that they were not being 
investigated at all.
    What we found out is that at Goddard they had moved to a 
system of having property losses investigated by line 
management or, in the case of suspected thefts, they were 
referred to their Security Office for investigation, which is 
probably an even stronger approach.
    The Property Survey Board was then reviewing the work of 
those investigations and determining whether they were adequate 
or not. That is a weakness because it is not following the 
protocol that we have established for the Agency, and letting 
line management do their own investigations presents a bit of 
an internal control conflict.
    So we took an action from this report to get with all of 
the Property Management Offices, clarify the intended approach. 
In fact, we just held that meeting last week, and we will be 
clarifying for the rest of the Agency the proper way of 
conducting investigations on property losses.
    I would just add that we have been tracking the property 
loss rates for NASA for several years, and after some initial 
concern seven or eight years ago, the property loss rates have 
fallen below one-half of 1 percent for the property holdings, 
and they have been holding below that threshold ever since.
    Mr. Lewis. Thank you for that response. Mr. Goldin, that 
really concludes my formal questioning for the record. As I 
have indicated, we have across-the-board Members with questions 
that we would like to have you respond to for the record.

                       Chairman's Closing Remarks

    Let me make a comment here, however, about this hearing and 
not only just today, but my experience with the Agency in 
general. One of the greater difficulties of people in my seat 
who run for public office is that ofttimes people kind of 
automatically assume that we have to have all the answers to 
all the questions that are around or that are asked. I have 
always felt that one of the difficulties is sometimes the 
elected person thinks that they do have all the answers, and 
that creates more problems than anything.
    It is important to learn the business of saying I do not 
know or, indeed, that I have made a mistake and if I do not 
know I will get back to you, or whatever. I have noted with 
your Agency over time that there is a management style that is 
willing to say, let us look again, or maybe we did not get that 
one right. That is to be appreciated, and not to be the center 
of negative criticism, if you will. I think it is very 
important as we carry forward our oversight responsibility and 
have these exchanges, that we appreciate those relationships. I 
do appreciate it, I know the Committee does.
    And so, having said that, it has been a worthwhile 
productive session, I think, and we will work on an ongoing 
basis to get at or solve some of the problems that have not 
been solved yet.
    Mr. Goldin. Thank you, sir.
    Mr. Lewis. The meeting is adjourned.


[Pages 258 - 956--The official Committee record contains additional material here.]
















                               I N D E X

                              ----------                              
                                                                   Page
Administrator Prepared Statement...........................6-17, 98-126
Advanced Projects Program:
    X-38.........................................................   217
Aeronautics and Space Technology.................................   148
    High Speed Research..........................................    75
    Reusable Launch Vehicles.....................................    72
    Reductions...................................................   158
    Strategic Framework..........................................   159
    X-33/X-34 Launch Vehicles..................................221, 255
Boeing...................................................39, 57-58, 215
Budget...........................................................   154
    Annual Cost Cap..............................................   214
    Overall......................................................   150
    Cost Overruns...........................................22, 56, 137
    Impacts......................................................   131
    ISTP.........................................................   224
    Reserves.....................................................    57
    Russians..................................................... 59-62
    Savings......................................................   150
    Space Science................................................    28
    Submission...................................................   238
    Transfer Authority...........................................    74
    Uncosted Carryover...........................................    74
Budget Justifications...........................................288-956
Closing Remarks:
    Chairman....................................................83, 257
Computer Hacking/Network Intrusion..............................233-234
Department of Defense Cooperation................................   219
Earth Science....................................................   145
    Clark Spacecraft.............................................   132
    Data Analysis Priorities.....................................   220
    Earth Observation Satellite..................................   241
    Global Warming..............................................154-156
    Lewis Spacecraft.............................................   132
    LightSAR....................................................22, 249
    QuikScat.....................................................    22
    Regional Applications Centers...............................253-255
    Remote Sensing Technology...................................242-248
    SmallSat.....................................................   248
    Uncosted Carryover...........................................   227
    Version 1/Version 2..........................................   228
Education Programs:
    Math-Science Award
    Minority University Research and Education Program.........132-135, 
                                                                146-148
    Other Minority Universities..................................   135
    Science, Mathematics and Engineering........................213-215
Equal Opportunity...............................................167-210
Human Exploration Flight.........................................   237
International Space Station:
    Assembly.....................................................    80
    Benefits from Russians....................................... 23-26
    Cost of Russian Delay.....................................18-21, 23
    Debate.......................................................    64
    Functional Cargo Bay (FGB)...................................    43
    Funding and Schedule Concerns.......................45, 76, 79, 128
    Habitation Modules...........................................    82
    Interim Control Module......................................66, 129
    International Partners......................................73, 151
    Kennedy Space Center Involvement.............................   153
    Laboratory Schedule..........................................    67
    Lessons Learned........................................25-28, 48-49
    Multi-Element Integrating Testing............................    68
    Obsolescence.................................................    49
    Operating Cost...............................................    81
    Option Cost Estimates........................................   129
    Permanent Crew Capability....................................    21
    Priorities...................................................   236
    Reserves.....................................................    79
    Russian Funding.............................................. 38-40
    Russian Participation......................................127, 238
    Schedule Problems............................................    73
    Science Power Platform.......................................    47
    Service Module.................................42, 44, 46, 128, 217
    Software.....................................................    69
    Task Force...................................................   130
    Transfer of Funds to Russia.................................44, 137
Inspector General:
    Report Findings..............................................   256
Life & Microgravity Research.....................................   235
Orbital Science Corporation......................................   240
Opening Remarks:
    Chairman's................................................... 2, 95
    NASA Administrator.......................................3-5, 96-97
    Ranking Minority............................................. 3, 95
Personnel:
    Cost Reductions..............................................    75
Questions for Record.....................................84-94, 258-287
Rocket Propulsion Test Facility..................................   222
Russian Space Agency
Safety:
    Astronaut.................................................... 40-41
    Russian......................................................    51
Small Business:
    Minority....................................................211-212
    Set-asides...................................................   162
    SDB Utilization..............................................   164
Space Commercialization..........................................   230
Space Science:
    AXAF Spacecraft............................................132, 253
    Gravity Probe-B.............................................250-252
    Near-Earth Asteroid Tracking.................................   231
    New Programs................................................137-144
    Pathfinder Technology........................................   250
    Sun-Earth Program............................................   223
Space Shuttle:
    Node 1 Flight................................................    78
    Next-Generation Launch Systems...............................   218
    Orbital Debris...............................................   225
Staffing:
    Buyouts......................................................   228
    Civil Workforce..............................................   152
    Full-Time Equivalents........................................   236
    Minority Workforce...........................................   135
    Personnel and Related Cost...................................   229
Strategic Plan...................................................   145
University Research Centers......................................    83

                             <all>
</pre></body></html>
